<html>
<title> - ICE WORKPLACE RAIDS: THEIR IMPACT ON U.S. CHILDREN, FAMILIES AND COMMUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                  ICE WORKPLACE RAIDS: THEIR IMPACT ON
                U.S. CHILDREN, FAMILIES AND COMMUNITIES

=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 20, 2008

                               __________

                           Serial No. 110-92

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                   U.S. GOVERNMENT PRINTING OFFICE
42-334 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Donald M. Payne, New Jersey          Joe Wilson, South Carolina,
Timothy H. Bishop, New York            Ranking Minority Member
Carol Shea-Porter, New Hampshire     Tom Price, Georgia
Phil Hare, Illinois                  John Kline, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 20, 2008.....................................     1

Statement of Members:
    Hare, Hon. Phil, a Representative in Congress from the State 
      of Illinois, questions for the record and the responses....    90
    Hinojosa, Hon. Ruben, a Representative in Congress from the 
      State of Texas, letter, dated April 29, from the 
      Congressional Hispanic Caucus sent to Immigration and 
      Customs Enforcement........................................    60
    Wilson, Hon. Joe, ranking minority member, Subcommittee on 
      Workforce Protections......................................     5
        Additional submissions:
            ``Immigration Raid in Iowa Largest Ever in U.S.,'' 
              Associated Press article...........................     6
            U.S. Immigration and Customs Enforcement: FY07 
              Accomplishments....................................    83
            Detention and Removal Operations: Alternatives to 
              Detention..........................................    86
            Frequently Asked Questions About Worksite Enforcement    86
            ``ICE Fugitive Operations Program,'' from ICE Fact 
              Sheets, December 4, 2007...........................    88
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     4
        Additional submissions:
            Statement of the American Psychological Association 
              (APA)..............................................    64
            APA Resolution on Immigrant Children, Youth, and 
              Families...........................................    65
            APA Factsheet........................................    78
            ``The Protection of Children During Immigration 
              Enforcement Actions: Lessons from Recent Large 
              Scale Worksite Raids,'' by Randy Capps, Rosa Maria 
              Castaneda, Ajay Chaudry and Robert Santos, the 
              Urban Institute....................................    67
            Statement of the Lutheran Immigration and Refugee 
              Service and Bishop Steven Ullestad, Northeastern 
              Iowa Synod of the Evangelical Lutheran Church in 
              America............................................    80
            Statement of First Focus.............................    72
            Letter, dated May 27, 2008, from the National 
              Education Association..............................    82

Statement of Witnesses:
    Gibney, Kathryn M., San Pedro Elementary School principal....    22
        Prepared statement of....................................    24
        Additional submissions:
            ``ICE Raids on Homes Panic Schools, Politicians,'' 
              from the San Francisco Chronicle, Wednesday, May 7, 
              2008...............................................    31
            ``30 Illegal Immigrants Targeted in Canal 
              Neighborhood Raid,'' from the San Rafael, CA, 
              Independent Journal, March 7, 2007.................    32
            ``Canal Community Fearful After Immigration Raids,'' 
              from the San Rafael, CA, Independent Journal, March 
              8, 2007............................................    33
            ``Second Day of Immigration Raids Includes Novato and 
              San Rafael,'' from the Marin, CA, Independent 
              Journal, March 8, 2007.............................    34
            ``Fate of Detained Becomes Clearer,'' from the Marin, 
              CA, Independent Journal, March 8, 2007.............    35
            ``Immigration Raids Handled Poorly,'' from the San 
              Rafael, CA, Independent Journal, March 9, 2007.....    36
            ``Immigration Raids Draw Dawn Protest,'' from the San 
              Rafael, CA, Independent Journal, March 9, 2007.....    37
            ``March and Rally Draw Hundreds in San Rafael,'' from 
              the San Rafael, CA, Independent Journal, March 13, 
              2007...............................................    38
            ``Marin Officials Rip Immigration Tactics,'' from the 
              Marin, CA, Independent Journal, March 14, 2007.....    40
            ``65 Arrested, 23 Deported in Raids, North Bay 
              Congresswoman Says,'' from the San Rafael, CA, 
              Independent Journal, March 15, 2007................    41
            ``Civic Leaders Prepare for Likelihood of Future 
              Raids,'' from the San Rafael, CA, Independent 
              Journal, April 5, 2007.............................    42
            ``ACLU Sues Over Seizure of Boy in Immigration 
              Raid,'' from the San Rafael, CA, Independent 
              Journal, April 26, 2007............................    43
    Murguia, Janet, president and CEO, National Council of La 
      Raza.......................................................    12
        Prepared statement of....................................    14
        ``Paying the Price: The Impact of Immigration Raids on 
          America's Children,'' published by the Urban Institute.    13
    Romo, Simon, chief counsel, New Mexico Child Protective 
      Services...................................................    44
        Prepared statement of....................................    46
    Spero, Hon. James C., Deputy Assistant Director, Office of 
      Investigations, U.S. Immigration and Customs Enforcement, 
      Department of Homeland Security............................     9
        Prepared statement of....................................    11
        Responses to questions for the record....................    91


   ICE WORKPLACE RAIDS: THEIR IMPACT ON U.S. CHILDREN, FAMILIES AND 
                              COMMUNITIES

                              ----------                              


                         Tuesday, May 20, 2008

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2175, Rayburn House Office Building, Hon. Lynn Woolsey 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Woolsey, Payne, Bishop, Hare, 
Wilson, Hinojosa, Kline and McKeon (Ex Officio).
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Tico Almeida, Labor Policy Advisor; Alfred 
Amado, Legislative Fellow for Education; Jordan Barab, Health/
Safety Professional; Jody Calemine, Labor Policy Deputy 
Director; Lynn Dondis, Senior Policy Advisor, Subcommittee on 
Workforce Protections; Brian Kennedy, General Counsel; Sara 
Lonardo, Junior Legislative Associate, Labor; Ricardo Martinez, 
Policy Advisor, Subcommittee on Higher Education, Lifelong 
Learning and Competitiveness; Alex Nock, Deputy Staff Director; 
Joe Novotny, Chief Clerk; Megan O'Reilly, Labor Policy Advisor; 
Robert Borden, Minority General Counsel; Cameron Coursen, 
Minority Assistant Communications Director; Ed Gilroy, Minority 
Director of Workforce Policy; Rob Gregg, Minority Senior 
Legislative Assistant; Alexa Marrero, Minority Communications 
Director; Jim Paretti, Minority Workforce Policy Counsel; Molly 
McLaughlin Salmi, Minority Deputy Director of Workforce Policy; 
Linda Stevens, Minority Chief Clerk/Assistant to the General 
Counsel; Hannah Snoke, Minority Legislative Assistant; and 
Loren Sweatt, Minority Professional Staff Member.
    Chairwoman Woolsey. A quorum is present. The hearing of the 
Workforce Protections Subcommittee on ICE Workplace Raids: 
Their impact on U.S. Children, Families and Communities will 
come to order.
    Pursuant to committee rule 12(a), any member may submit an 
opening statement in writing, which will be made part of the 
permanent record.
    I now recognize myself, followed by Ranking Member Joe 
Wilson, for an opening statement.
    I personally wanted to thank our witnesses for being here 
today and participating in this very important hearing. While I 
am pleased to welcome all of you--I must give a particular 
welcome to all of you, because every one of you virtually means 
something to me--but there's a woman here from my district and 
San Pedro Elementary School, Katherine Gibney, who is the 
principal. She has come a long way, and I am so honored that 
you have come here to do this with us. Thank you very much.
    Today, we will explore the effects of the ICE raids on 
children of immigrant parents. The U.S. Immigration and Customs 
Enforcement, known as ICE, is the interior enforcement arm of 
the Department of Homeland Security.
    Before 2006, the Bush administration's record on 
enforcement was not particularly good. According to the GAO, in 
the fiscal year 2004 there were only 445 unauthorized workers 
arrested, a drop from fiscal year 1999 by 84 percent.
    In 2005, ICE made about 1,300 work site arrests of 
undocumented immigrants. But, by 2006, ICE had increased its 
enforcement activities and made about 4,400 work site arrests, 
more than triple the year before.
    In December of 2006, ICE launched Operation Wagon Train, 
the largest work site operation in history. More than 1,000 ICE 
agents arrested about 1,300 people in six Swift & Company meat 
processing plants located around the country. Also in 2006, ICE 
launched a nationwide operation called Operation Return to 
Sender, which resulted in 23,000 arrests at work sites and 
other locations, including people's homes.
    In 2007 and now in 2008, work site raids and raids at other 
locations have continued. Between October of 2006 and October 
of 2007, ICE raids in California resulted in the arrest of over 
800 undocumented immigrants.
    In March of 2007, ICE conducted raids in San Rafael and 
Novato, cities in my district. Now you would think that it is 
weird that Marin County, the wealthiest county in the entire 
country, would have ICE raids and would even have a need for 
immigrant workers, but, guess what, we do. We are no different 
than any other part of this country, and we will be hearing 
more about that later.
    Just last week, ICE conducted its biggest workplace raid 
this year at a meat processing plant in Postville, Iowa. Of the 
800 to 900 workers at the plant, over 300 were arrested. Twelve 
of those arrested were children, children between the ages of 
15 and 17. They were working at the plant in violation of child 
labor laws. As of last Thursday, they were still being 
detained, and we now know that ICE conducted this raid even as 
the Department of Labor and Iowa State officials were 
investigating the owner of the plant for child labor 
violations.
    We are very concerned that the raid will have the effect of 
derailing that investigation. But today we are looking for the 
impact of the raids on the children, the children of the 
families, the children of the workers, the children who are 
working at the plants themselves. There are about 4.7 million 
children who have at least one parent who is undocumented. Of 
that number, 3.1 million, or two-thirds of these children, are 
U.S. citizens.
    While we do not know the exact number of children who have 
had a parent arrested or deported, we know that thousands of 
children have been affected and that most of them are U.S. 
citizens themselves.
    There will also be testimony today about the ICE 
guidelines, guidelines that were put into place in November, 
2007, and outlining humanitarian concerns that officials should 
follow when conducting raids. These guidelines are 
discretionary, and so ICE officials most likely have no real 
incentive to follow them. As a result, we are still hearing 
heartbreaking stories of the impact on children.
    They have witnessed their parents being arrested. They have 
had flashlights in their faces late at night. With their 
families, they have hidden in their houses and their basements 
and their closets, and some even under their beds, afraid that 
their parents and other family members will be taken from them.
    They have been separated from their families in the 
cruelest of ways for long periods of time, and many of their 
parents have been deported. Some have been absent from school 
for days at a time. Children, especially young children, are 
experiencing depression, separation anxiety and, in some 
serious cases, PTSD.
    Let me tell you about Kebin Reyes, a U.S. citizen from my 
district. Kebin is just now 7 years of age. In March of 2007, 
when he was 6, ICE arrested his father. His father is his only 
parent in the United States and Kebin was a witness to his 
father's arrest.
    When his father was arrested, Kebin was taken to a facility 
where he spent 10 hours in detention. His father was detained 
for 6 weeks, and during that time Kebin had no idea if he would 
ever see his father again. He experienced severe emotional 
trauma as a result.
    Ana is another child. She is age 11. She suffered because 
of the raids. She is from Petaluma, California. Her teacher 
noticed she was missing school because of severe stomach 
cramps. After many weeks, the teacher learned that the real 
reason Ana did not want to go to school was because she was 
afraid if she went to school, her parents would be taken away 
in one of the ICE raids while she was gone.
    As it turned out, Ana's aunt had been arrested by ICE and 
left for Tijuana, far away from her own children. It took the 
aunt months to return home to California.
    Kebin and Ana are two of the thousands of children who are 
living this same nightmare.
    In Postville, Iowa, we have heard reports that at least 200 
children had parents who were swept up in the raids last week. 
Sister Mary McCauley, who is assisting the children and their 
families, told us that many, many children are staying in a 
local Catholic Church, sleeping on the pews. She said that most 
of these children are not going to school. They are 
traumatized, and they are very fearful.
    This has affected the entire community of Postville, a 
community of 2,300 residents. Sister McCauley is one of the 
very wonderful people which includes teachers, members of the 
faith community, community organizers and others who have 
worked tirelessly to make sure that these children's basic 
needs are being provided.
    She may be here in the audience, is she out there?
    Well, she will be coming in, I will bet.
    Some of these people are witnesses here today, and you will 
hear from them, and we will applaud them. But unless ICE 
follows humanitarian procedures in conducting these raids, we 
are still left with traumatized children and with communities 
that don't know how to handle these situations.
    Again, I want to thank the witnesses for being here today, 
and I look forward to your testimony. Thank you very much.
    Ranking Member Wilson.
    [The statement of Ms. Woolsey follows:]

Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman, Subcommittee on 
                         Workforce Protections

    I want to welcome all our witnesses for agreeing to participate in 
this very important hearing.
    And while I am pleased to welcome all of you, I must give a special 
welcome to Katherine Gibney, the Principal at the San Pedro Elementary 
School in San Rafael, California. You see, Ms. Gibney is a constituent 
of mine.
    Welcome, Ms. Gibney.
    Today, we will explore the effects of the ICE raids on the children 
of immigrant parents.
    The U.S. Immigration and Customs Enforcement, known as ICE, is the 
interior enforcement arm of the Department of Homeland Security.
    Before 2006, the Bush Administration's record on enforcement was 
not very good.
    According to the GAO, in fiscal year 2004, there were only 445 
unauthorized workers arrested, a drop from fiscal year 1999 of 84 
percent.
    In 2005, ICE made about 1,300 worksite arrests of undocumented 
immigrants.
    But by 2006, ICE had increased its enforcement activities and made 
about 4,400 worksite arrests, more than triple than the year before.
    In December, 2006, ICE launched ``Operation Wagon Train'' the 
largest worksite operation in history.
    More than 1,000 ICE agents arrested about 1,300 people at 6 Swift & 
Co. meat processing plants located around the country.
    Also in 2006, ICE launched a nationwide operation called 
``Operation Return to Sender,'' which resulted in the 23,000 arrests at 
worksites and other locations, including people's homes.
    In 2007 and now in 2008, worksite raids and raids at other 
locations have continued at a steady pace. Between October 2006 and 
January 2007, ICE raids in California resulted in the arrest of over 
800 undocumented immigrants.
    In March of 2007, ICE conducted raids in San Rafael and Novato, 
cities in my district.
    And just last week, ICE conducted its biggest workplace raid this 
year at a meat processing plant in Postville, Iowa. Of the 800-900 
workers at the plant, over 300 were arrested. Twelve of those arrested 
were children between the ages of 15 and 17. They were working at the 
plant in violation of child labor laws. As of last Thursday, they were 
still being detained. And we now know that ICE conducted this raid even 
as the Department of Labor and Iowa state officials were investigating 
the owner of the plant for child labor violations. We are very 
concerned that the raid will have the effect of derailing the 
investigation. But today, we are looking at the impact of the raids on 
the children. There are about 4.7 million children with who have at 
least at least one parent who is undocumented. Of that number 3.1 
million, or--\2/3\ of these children--are U.S. citizens. While we do 
not know the exact number of children who have had a parent arrested or 
deported, we know that thousands of children have been affected and 
that most of them are U.S. citizens themselves. There will also be 
testimony today about the ICE guidelines, which were put into place in 
November 2007 and which outline humanitarian concerns officials should 
follow when conducting raids, are not being followed in a consistent 
fashion.
    These guidelines are discretionary, and so ICE officials most 
likely have no real incentive to follow them. As a result, we are still 
hearing heartbreaking stories of the impact on children. They have 
witnessed their parents being arrested.
    And they have had flashlights shown in their faces late at night.
    With their families, they have hidden in their houses, basements, 
closets and some even under their beds, afraid that their parents and 
other family members will be taken.
    They have been separated from their families in the cruelest of 
ways for long periods of time and many of their parents have been 
deported.
    Some have been absent from school for days at a time, and children, 
especially young children are experiencing depression, separation 
anxiety, and in some serious cases, post traumatic stress disorder 
(PTSD).
    Let me tell you about Kebin Reyes, a U.S. citizen, from my 
district. He is now age 7. In March 2007, when he was 6, ICE arrested 
his father--who is Kebin's sole parent in the U.S.--and Kebin was there 
to witness it. When his father was arrested, Kebin was also taken and 
spent 10 hours in detention. His father was detained for 6 weeks and 
during that time, Kebin had no idea if he would ever see his father 
again. He experienced severe emotional trauma as a result. Kebin is one 
of thousands of children who are living this same nightmare. In 
Postville, Iowa, we have heard reports that at least 200 children had 
parents who were swept up in the raids last week.
    Sister Mary McCauley who is assisting the children and their 
families told us that many, many children are staying at a local 
Catholic church sleeping on pews. She said that most of these children 
are not going to school. They are traumatized and very fearful. And 
this has affected the entire community of Postville, which has 2,300 
residents. Sister Mary McCauley is one of the very wonderful people--
which includes teachers, members of the faith community, community 
organizers and others--who have worked tirelessly to make sure that 
these children's basic needs are being provided. Some of these people 
are witnesses here today.
    But unless ICE follows humanitarian procedures in conducting these 
raids, we are still left with traumatized children and communities. 
Again, I want to thank our witnesses for being here today and look 
forward to their testimony.
                                 ______
                                 
    Mr. Wilson. Good morning. Thank you, Chairwoman Woolsey; 
and I also want to commend you on your speedy recovery from 
your back surgery. I notice that you are getting around with 
vim and vigor, so I am very happy for you.
    Chairwoman Woolsey. Are you really?
    Mr. Wilson. I am, I am.
    Chairwoman Woolsey. Okay.
    Mr. Wilson. Thank you for convening this hearing on 
Immigration and Customs Enforcement, ICE's efforts to enforce 
our immigration laws. I am particularly pleased that ICE will 
be here this morning with Mr. Spero to discuss the policies 
that have been developed to handle the humanitarian issues that 
are the subject of today's hearing.
    An unfortunate byproduct of the failure to overhaul the 
immigration system has been a large number of non-work-eligible 
individuals working in the United States, establishing families 
and putting down roots in our communities, only to have their 
lives upended when it is discovered that they are here 
illegally. This is damaging to everyone involved, from the 
workers and their families and the employers who, in many 
cases, are unknowingly employing ineligible workers.
    However, unlike many problems facing our Nation, this is 
one in which there is an obvious, albeit incomplete, solution, 
a sound employment verification system.
    The issue is so important to me that I am a cosponsor of 
the Secure America through Verification and Enforcement Act, or 
SAVE Act, H.R. 4088, and the New Employee Verification Act, or 
NEVA, H.R. 5515.
    I would encourage Congress to take action on immigration 
reform by allowing a vote on H.R. 4088. To date, 188 Members 
have signed a discharge petition to bring that bill, offered by 
a Member of the majority party, to a vote by the full House. 
Still, the majority has failed to follow or allow an up and 
down vote.
    I formerly practiced immigration law to promote legal 
entry, and I know the value of legally entering America. 
Congress must continue to work to improve our immigration 
system to eliminate just the issues this hearing is designed to 
address. But it is unreasonable for us to narrow our focus to 
just one small issue in the larger challenge posed by our 
broken borders and flawed immigration system.
    For instance, this committee has not yet explored the 
prevalence of identity theft, nor the scourge of illegal drug 
trafficking, both of which are closely linked to a system that 
permits illegal immigration. Just last week, it was reported 
that the largest-ever immigration raid took place in Iowa, with 
nearly 400 persons arrested.
    Of interest to our hearing today, an article by the 
Associated Press reported that ``fifty-six were released on 
humanitarian grounds, typically because their arrest would 
leave a child with no custodian. A handful were released 
because of medical conditions.''
    Madam Chairwoman, I would request that the Associated Press 
article be included in the record of today's hearing.
    [The information follows:]

                       [Associated Press article]

             Immigration Raid in Iowa Largest Ever in U.S.

                          By Henry C. Jackson

    DES MOINES, Iowa (AP)--A federal immigration raid at a kosher 
meatpacking plant in northeast Iowa was the largest such operation in 
U.S. history, with nearly 400 people arrested, federal officials said 
Tuesday.
    Immigration and Customs Enforcement officials said at least 390 
people were arrested on immigration charges as part of a raid Monday 
morning at Agriprocessors Inc. in Postville. The plant had about 900 
workers before the raid.
    Most of the 314 men and 76 women arrested are from Guatemala and 
Mexico, but some were from Ukraine and Israel.
    ``Based on the number of * * * arrests, this is the largest single 
site operation of its kind ever in the United States,'' said ICE 
spokesman Tim Counts.
    The raid followed a months-long investigation into Agriprocessors, 
the largest kosher slaughterhouse in the world.
    ICE officials would not comment on whether company officials could 
face criminal charges. Telephone messages left with Agriprocessors on 
Tuesday were not returned.
    Of those initially arrested, officials said 56 were released on 
humanitarian grounds, typically because their arrest would leave a 
child with no custodian. A handful were released because of medical 
conditions.
    Men were being held at temporary housing at the National Cattle 
Congress Fairgrounds in Waterloo, where they are expected to be 
processed by Wednesday night and moved to other locations by Thursday. 
Women are being held at the Hardin County jail.
    The American Civil Liberties Union of Iowa condemned the raids in a 
statement Tuesday.
    ``It appears that detainees are not receiving adequate time to meet 
with their lawyers, and that defense attorneys are being overwhelmed by 
requests to represent far more clients than is advisable--or perhaps 
even ethical,'' said Ben Stone, the group's president. ``We are 
concerned that the sheer size of this raid is likely to result in 
numerous violations of the U.S. Constitution, which protects the due 
process rights of all persons in this country.''
    Counts said those arrested had and would have adequate time to meet 
with their attorneys.
    Everyone arrested Monday has been charged with immigration 
violations. So far 20 of them also have been arrested on a variety of 
criminal charges, including aggravated identity theft and false use of 
Social Security numbers, said Bob Teig, a spokesman for the U.S. 
attorney's office.
    Those facing criminal charges began appearing Tuesday afternoon in 
a makeshift federal court at the Cattle Congress grounds in Waterloo, 
said U.S. Attorney Matt M. Dummermuth.
    Anyone detained on a criminal charge will be placed in the custody 
of the U.S. Marshals Service. People charged only with immigration 
violations will remain in ICE custody before going through removal 
proceedings, including a hearing before an immigration judge. Those 
hearings will take place throughout the country, Counts said, depending 
on space.
    According to a search warrant application and affadavit dated May 
9, federal officials relied on a variety of sources, including former 
employees and at least one undercover source who wore a wire and became 
an employee of the plant at ICE's request.
    According to the search warrant application, the undercover source 
said that some employees were paid with cash, and that those workers 
wore specially colored work hats to denote their status. Other 
employees were paid with checks that did not bear Agriprocessors' name.
    Sources in the warrant application also said they saw what appeared 
to be underage workers at the plant.
    According to the company's Web site, Agriprocessors was founded in 
1987 by the Rubashkim family. The company's kosher and non-kosher 
products are found in many national supermarket chains.
                                 ______
                                 
    Mr. Wilson. Clearly, the article shows that steps are being 
taken to address humanitarian concerns we are looking at today, 
but the article also brings to light another issue that we are 
not considering today. For the same article, and I quote, 
``Everyone arrested Monday has been charged with immigration 
violations. So far, 20 of them also have been arrested for a 
variety of criminal charges, including aggravated identity 
theft and false use of Social Security numbers.''
    So while I appreciate the opportunity to examine these 
issues before us today, I would like to state for the record my 
disappointment at the majority's unwillingness to allow real 
action on immigration reform. Hearings will not divert the 
attention of the American people, and ignoring some of the most 
troubling side effects of our broken immigration system will 
not be enough. We need real action.
    Thank you, and I yield back.
    Chairwoman Woolsey. Thank you.
    I don't hear any objection. I would like to allow 
Congressman Hinojosa from Texas, the Chair of the Higher 
Education Subcommittee, to make opening remarks out of order. 
Without objection.
    Mr. Hinojosa. Thank you, Madam Chairman. Thank you very 
much. Thank you for allowing me to join this subcommittee 
today.
    I am deeply grateful to Chairwoman Woolsey and Ranking 
Member Joe Wilson for calling this hearing to highlight the 
terrible impact and the policy of stepped-up immigration raids 
is having on children and communities.
    Today, we must ask ourselves if our enforcement-only 
approach to immigration is worth it. It's estimated that there 
are approximately 4.7 million children who have an undocumented 
parent. Two-thirds of these children are U.S. citizens. Late 
last year, before the most recent round of raids and 
detentions, The New York Times reported that of at least 13,000 
children, one or both of their parents were deported in the 
last 2 years.
    Children are paying the highest price of all for broken 
immigration Federal policies. They are being torn from their 
families. They live with the constant fear that any moment 
their parents or loved ones will be sent away.
    Instead of working towards comprehensive immigration 
reform, this administration is now pursuing a policy of 
enforcement, no matter what the cost. Instead of pursuing a 
policy that addresses real threats to our Nation's security, we 
have reports of ICE agents staking out migrant and seasonal 
Head Start centers for enforcement. When we reauthorized Head 
Start, we included provisions to prioritize the expansion of 
migrant and seasonal Head Start to keep young children out of 
the fields.
    ICE, in targeting these programs for enforcement 
activities, has created an environment of fear and 
intimidation. As a result, families are avoiding these centers. 
Children are denied high-quality, safe, preschool opportunities 
and are often left with no option except to accompany their 
families to the fields.
    In April of this year, the Congressional Hispanic Caucus 
called upon ICE to immediately stop this practice and to issue 
guidance to their field offices that social service programs 
are not to be targets of enforcement activity. Public health 
and safety must take precedence over these activities. As of 
today, there has been no response to the Congressional Hispanic 
Caucus from ICE.
    Instead of requiring that immigrants legalize their status 
and putting the laws in place for them to do so, our policy is 
to arrest people, place them in detention camps and neglect 
their health needs and human rights. This represents a moral 
humanitarian crisis for this Nation.
    The only solution is to fix the problem. When laws are 
unjust, we change them. There's no justice in our current 
immigration policy, and it's time for change.
    Thank you, Madam Chairman; and I yield back.
    Chairwoman Woolsey. Thank you very much.
    I would like to introduce our very distinguished panel of 
witnesses, who are here with us this morning, in the order that 
they will be speaking.
    First, we will have James Spero, who is currently the 
Acting Deputy Assistant Director of the ICE Critical 
Infrastructure and Fraud Division. Prior to this assignment, 
Mr. Spero served as Unit Chief for the Identity and Benefit 
Fraud Unit at ICE headquarters. Before that, he was an Acting 
Assistant Special Agent in Charge of the ICE special agents in 
the District of Columbia. It's called the SAC/DC. Mr. Spero has 
an undergraduate degree in economics from St. John's University 
in New York City.
    Janet Murguia is President and CEO of the National Council 
of La Raza, a position she has held since January of 2005. Ms. 
Murguia began her career as legislative counsel for former 
Kansas Congressman Jim Slattery. She then worked at the Clinton 
White House, working her way up to the position of Deputy 
Assistant to the President. After leaving the executive branch, 
Ms. Murguia served as Deputy Campaign Manager and Director of 
Constituency Outreach for the Gore-Lieberman Presidential 
campaign. She received both her bachelor's and JD from the 
University of Kansas.
    Katherine Gibney is principal of San Pedro Elementary 
School in San Rafael, California. Approximately 96 percent of 
San Pedro's student population is Latino, with the largest 
cultural groups coming from Guatemala, El Salvador and Mexico. 
Prior to her position as principal of San Pedro school, Ms. 
Gibney served as K-5 summer school principal, new teacher 
adviser and K-8 literacy coach for the San Rafael elementary 
school district. Ms. Gibney holds a bachelor of arts degree in 
Spanish and a multiple subject teaching credential from the 
University of California, Irvine, and an administrative 
credential from San Francisco State University.
    Simon Romo is the Chief Children's Court Attorney for the 
New Mexico Children's Youth and Families Department. Mr. Romo 
manages the legal staff for the Protective Services Division 
throughout the State of New Mexico. He has 22 years of 
experience with the Children, Youth and Families Department and 
its predecessor agency. He is a certified national child 
welfare law specialist and member of the National Association 
of Council for Children and the American Bar Association. Mr. 
Romo has been a licensed attorney in many in New Mexico since 
1985. He also holds a master's degree in social work from New 
Mexico Highlands University.
    I welcome all of our witnesses.
    For those of you who have not testified here before us in 
the past, let me explain the lighting system. We have a 5-
minute rule. Everyone, including members, is limited to 5 
minutes of presentation or questioning.
    So the green light is illuminated when you begin to speak. 
When you see the yellow light, it means that you have 1 minute 
left. When the light turns red, then you are asked to conclude 
your testimony. We don't hang you out to dry mid-sentence. 
Don't worry about that. But if you have more to say, when--
during the question and answer period, feel free to add what 
you think you may have missed.
    First, now, we will begin with our first witness, and that 
is Mr. Spero.

  STATEMENT OF JAMES SPERO, ACTING DEPUTY ASSISTANT DIRECTOR, 
 OFFICE OF INVESTIGATIONS, CRITICAL INFRASTRUCTURE AND FRAUD, 
                              ICE

    Mr. Spero. Good morning, distinguished members of the 
subcommittee. I am pleased to appear before you today to 
discuss ICE's law enforcement operations.
    ICE is, first and foremost, a Federal law enforcement 
agency with the mandate of protecting national security and 
public safety by enforcing the Nation's immigration and customs 
laws. ICE conducts its law enforcement operations lawfully, 
professionally, and humanely and takes extraordinary steps to 
identify documents and act appropriately regarding humanitarian 
concerns of individuals encountered during law enforcement 
operations. In planning enforcement operations, ICE agents 
specifically plan for the possibility that individuals who are 
arrested may also be a sole caregiver or that their detention 
may otherwise place an undue hardship on their families.
    ICE strikes a balance between the operational objectives of 
enforcing the law and any humanitarian issues that may arise as 
a result of the enforcement operation. ICE has developed work 
site enforcement guidelines that field offices use when 
developing their operational plans to ensure that individuals 
who have been arrested and have unattended minors or family 
members with health factors are identified at the earliest 
possible point.
    During large work site enforcement operations, ICE 
coordinates with Public Health Service professionals to provide 
a sufficient number of personnel to assist in the medical and 
humanitarian needs of arrestees.
    In addition to PHS, when operationally possible, ICE 
coordinates with State and local social service agencies to 
assist with humanitarian screening.
    If ICE is contacted by a social service agency or an NGO 
and provided with additional information or details regarding a 
humanitarian concern after an arrestee has been processed and 
detained, ICE carefully evaluates the new information and, if 
appropriate, may modify the conditions of release. This may 
include the possibility of release from custody or an 
alternative to detention such as electronic monitoring. During 
large-scale operations, in an effort to provide reliable and 
timely information to family and friends regarding an 
arrestee's custody status and detention location, ICE has taken 
the unprecedented step of establishing a dedicated 24-hour 
toll-free information hotline.
    When making a custody determination, ICE considers any 
humanitarian issues raised by the PHS, a social service agency 
or contract support personnel and evaluates those in the 
context of other factors, including the arrestee's criminal 
record, immigration history or other relevant factors.
    We used a similar humanitarian plan on our most recent 
large work site enforcement operation. On May 12, 2008, ICE 
agents conducted an operation at AGRIPROCESSORS INC., a meat 
processing plant in Postville, Iowa. Agents executed a criminal 
warrant and a Blackies search warrant at the company. The work 
site enforcement operation resulted in the administrative 
arrest of 389 undocumented alien workers, 304 of whom were 
subsequently arrested for criminal violations.
    In this recent operation, as in all ICE law enforcement 
operations, extraordinary care was taken to determine if any 
arrestees were sole caregivers or had other humanitarian 
concerns. This process involved the direct questioning of all 
arrestees on the day of the enforcement operation and during 
interviews with PHS representatives. Detainees were questioned 
no less than three times about humanitarian issues such as 
child custody concerns. ICE arranged to have PHS professionals 
at the arrest site to immediately determine the needs and 
status of any children impacted by the operation. Through this 
comprehensive effort, 62 of those arrested were conditionally 
released for humanitarian purposes. Most were released from the 
arrest site while the operation was ongoing.
    Work site enforcement operations are not poorly planned, 
haphazard instances, but rather are professional law 
enforcement operations conducted by a professional law 
enforcement agency whose primary mission is the enforcement of 
the laws of the United States and the protection of the 
American people.
    ICE does, and will continue to, take great care with 
respect to the humanitarian concerns of aliens taken into 
custody during law enforcement operations and exercise 
discretion regarding custody when and if the exercise of such 
discretion is appropriate.
    On behalf of the men and women of ICE who place their lives 
at risk every day to enforce the laws of this Nation, making it 
a safer place to live and work, I would like to thank you for 
your continued support. These men and women have a difficult 
job to do in often dangerous circumstances, but they do so as 
consummate law enforcement professionals.
    Thank you for your time, and I look forward to answering 
your questions.
    Chairwoman Woolsey. Thank you.
    [The statement of Mr. Spero follows:]

 Prepared Statement of Hon. James C. Spero, Deputy Assistant Director, 
  Office of Investigations, U.S. Immigration and Customs Enforcement, 
                    Department of Homeland Security

Introduction
    Good morning, distinguished Members of the Subcommittee. I am 
pleased to appear before you today to discuss U.S. Immigration and 
Customs Enforcement (ICE) law enforcement operations. I want to thank 
the Subcommittee for its continued support of ICE, which has allowed 
the dedicated men and women of the agency to accomplish so much.
    ICE is first and foremost a federal law enforcement agency with the 
mandate of protecting national security and public safety by enforcing 
the nation's immigration and customs laws. ICE conducts its law 
enforcement operations lawfully, professionally, and humanely and takes 
extraordinary steps to identify, document, and act appropriately 
regarding humanitarian concerns of the individuals encountered during 
law enforcement operations. In planning enforcement operations, ICE 
agents specifically plan for the possibility that individuals who are 
arrested may also be a sole caregiver or that their detention may 
otherwise place an undue hardship on their families.
    When planning worksite enforcement operations, ICE strikes a 
balance between the operational objectives of enforcing the law and any 
humanitarian issues that may arise as a result of the enforcement 
operation. ICE has developed worksite enforcement guidelines that field 
offices use when developing their operation plans to ensure that 
individuals who have been arrested and have unattended minors or family 
members with health factors are identified at the earliest point 
possible. ICE takes this responsibility very seriously and these 
humanitarian factors are carefully taken into account when ICE makes 
custody decisions.
    During large worksite enforcement operations, ICE coordinates with 
Public Health Service (PHS) professionals to provide a sufficient 
number of personnel to assess the medical and humanitarian needs of 
arrestees. This assessment is then used by ICE to identify arrestees 
who may be considered for release from custody due to an urgent 
humanitarian concern. PHS personnel are given prompt access to all 
arrestees under safe and humane conditions on the day of the 
enforcement action. To the extent possible, PHS personnel are provided 
access on a ``rolling basis'' immediately after the processing of each 
arrestee.
    In addition to PHS, when operationally possible, ICE coordinates 
with state and local social service agencies to assist with 
humanitarian screening. Furthermore, after an operation begins, ICE 
proactively contacts the local social service agencies and local 
nongovernmental organizations to advise them of the operation and 
request their assistance in identifying any humanitarian issues that 
come to their attention. We provide these groups with contact 
information for an ICE representative who will immediately address any 
issues not previously identified.
    If ICE is contacted by a social service agency or an NGO and 
provided with additional information or details regarding a 
humanitarian concern after an arrestee has been processed and detained, 
ICE carefully evaluates that new information and if appropriate, may 
modify the conditions of release. This may include the possibility of 
release from custody or an alternative to detention such as electronic 
monitoring. During large scale operations, in an effort to provide 
reliable and timely information to family and friends regarding an 
arrestee's custody status and detention location, ICE has taken the 
unprecedented step of establishing a dedicated 24 hour toll-free 
information hotline.
    When making a custody determination, ICE considers any humanitarian 
issues raised by the PHS, a social service agency, or contract support 
personnel and evaluates those in the context of other factors, 
including the arrestee's criminal record, immigration history, and 
other relevant factors. Generally, aliens who are ordered detained by 
ICE can seek a bond re-determination hearing before an immigration 
judge who has authority to review and modify ICE's detention decisions. 
ICE also makes every effort to not transfer detainees out of the area 
where they are arrested; however, this is not always possible due to 
the limitations of detention locations.
    We used a similar humanitarian plan on our most recent large 
worksite enforcement operation. On May 12, 2008, ICE agents conducted 
an operation at AGRIPROCESSORS INC., a meat processing plant in 
Postville, IA. Agents executed a criminal search warrant and a Blackies 
search warrant at the company. This worksite enforcement operation 
resulted in the administrative arrest of 389 undocumented alien 
workers, 304 of whom were subsequently arrested for criminal 
violations.
    In this recent operation, as in all ICE law enforcement operations, 
extraordinary care was taken to determine if any arrestees were sole 
caregivers or had other humanitarian concerns. This process involved 
the direct questioning of all arrestees on the day of the enforcement 
operation and during interviews with PHS representatives. Detainees 
were questioned no less than three times about humanitarian issues such 
as child custody concerns. ICE arranged to have PHS professionals at 
the arrest site to immediately determine the needs and status of any 
children impacted by the operation. Through this comprehensive effort, 
62 of those arrested were conditionally released for humanitarian 
purposes; most were released from the arrest site while the operation 
was ongoing.
    ICE takes extraordinary efforts to ensure that its law enforcement 
operations are conducted in a safe, humane, and professional manner, 
including extensive preoperational planning and coordination. Worksite 
enforcement operations are not poorly planned, haphazard incidents, but 
rather are professional law enforcement operations conducted by a 
professional law enforcement agency whose primary mission is the 
enforcement of the laws of the United States and the protection of the 
American people.
    ICE does, and will continue to, take great care with respect to the 
humanitarian concerns of aliens taken into custody during law 
enforcement operations and exercise discretion regarding custody when, 
and if, the exercise of such discretion is appropriate.
Conclusion
    On behalf of the men and women of ICE who place their lives at risk 
every day to enforce the laws of this Nation making it a safer place to 
live and work, I would like to thank you for your continued support. 
These men and women have a difficult job to do in often dangerous 
circumstances but they do so as consummate law enforcement 
professionals. Thank you for your time and I look forward to answering 
your questions.
                                 ______
                                 
    Chairwoman Woolsey. Ms. Murguia.

 STATEMENT OF JANET MURGUIA, PRESIDENT, NATIONAL COUNCIL OF LA 
                              RAZA

    Ms. Murgia. Thank you, Madam Chairwoman Woolsey. Thank you, 
subcommittee members, and a special thank you to Congressman 
Hinojosa for your leadership. I appreciate you being here 
today. Thanks for doing this hearing and the opportunity for us 
to testify before you today about the challenges and impacts of 
immigration enforcement on America's children.
    I am particularly grateful that the committee is taking up 
one of these challenges, one that has reached crisis 
proportions in many communities around the country. There is 
substantial and growing evidence that the use of workplace 
raids as an immigration enforcement strategy is causing great 
harm to children, schools, child care centers and communities 
in a way that is harmful well beyond the immigrant population.
    Madam Chairwoman, I would like to be clear. NCLR believes 
that the United States can and should enforce our immigration 
laws. As with any set of laws, the Nation should enforce them 
wisely and well. This requires an examination of the costs and 
benefits of particular enforcement strategies to make sure that 
the priorities and tactics we choose are not undercutting other 
important laws, values and goals.
    The work of this committee is absolutely critical to 
inspiring that kind of conversation with respect to immigration 
enforcement. I very much appreciate the committee's attention 
to the impact of workplace raids on America's children.
    You have my detailed statement that will be submitted for 
the record; and I would like to make, though, this morning four 
key points.
    First, there is growing evidence that immigration raids are 
undercutting the very important priorities, other important 
priorities,including the protection and education of American 
children, as well as protecting children from labor law abuse. 
We saw this in Iowa.
    It is also clear that the increase in workplace raids is 
causing enormous strain on school systems, child care centers, 
churches and other community institutions. This is well 
documented in the report that NCLR and the Urban Institute 
published last year.
    Madam Chairwoman, I hope that you will allow us to put this 
in the record, also. It is a report that is called Paying the 
Price: The Impact of Immigration Raids on America's Children. I 
think it's very informative in terms of the overall impact.
    Chairwoman Woolsey. Without objection.
    [``Paying the Price: The Impact of Immigration Raids on 
America's Children,'' published by the Urban Institute, may be 
accessed at the following Internet address:]

         http://www.nclr.org/content/publications/detail/49166/

                                ------                                

    Ms. Murguia. School systems and child care centers are 
forced to mobilize on very short notice to provide protection 
for children whose parents have been detained. They must 
support children who are traumatized and terrified. As one 
school administrator told us in this report, the raid which 
took place in his community distracted the entire school system 
from doing its work in educating our children and truly making 
sure that no child is left behind.
    In Iowa last week, a massive raid created panic in the 
school and forced the Catholic parish of Saint Bridget's to 
mobilize to feed 450 migrants the first night of the raid and 
shelter 150 children who spent the night on mats and in pews. 
As we prepared this testimony, the church was still feeding and 
sheltering frightened families. Children are going to school 
from the church on buses and returning to the church after 
school.
    NCLR was particularly alarmed to learn that the employer in 
Iowa was under investigation by State and possibly Federal 
authorities for labor law violations, including employing 
children as young as 13.
    The investigation of these abuses has ground to a halt as a 
result of the immigration raid. As many as a dozen children, 
many of whom I understand were prepared to be witnesses against 
this employer, were detained and are now in removal 
proceedings. The employer, meanwhile, has regrouped and 
reopened the next day.
    We just heard from our ICE enforcement official here about 
how many undocumented immigrants were taken in that raid. But 
if we could have gotten one unscrupulous and abusive employer, 
that would have sent a much more powerful message if we are 
going to accomplish many of our enforcement goals.
    The second thing I would like you to know is that ICE has 
made an important effort to ameliorate some of the most 
disturbing problems resulting from these raids by issuing 
guidance governing the treatment of nursing mothers, juvenile 
detainees and other humanitarian concerns. While this is 
encouraging that ICE is responding to these severe humanitarian 
concerns, last week's raid in Iowa demonstrates that ICE's 
efforts have not been terribly effective.
    While some detainees were indeed released for humanitarian 
reasons, as we have heard, there is also evidence that ICE 
guidance was not always followed. NCLR has learned of at least 
two nursing mothers detained with little access to their food 
or their children for nearly 24 hours. Our associates in Iowa 
tell us that very few detainees were provided with access to 
telephones so that they could notify their families of their 
whereabouts and make arrangements for their children.
    Churches and school systems have been forced to guess as to 
the best way to provide supervision for the children who lose 
their parents suddenly this way. In our report we documented 
that, in previous raids, we saw the churches and schools have 
to fill important roles as that safety net.
    Third, I would just like to say that the committee's 
attention to the particular great concern with the presence of 
ICE authorities at Head Start centers, particularly those 
serving migrant workers, is very disturbing. We have seen a 
growing presence of ICE enforcement officials at day care 
centers, where they stop and drop them off. Then we have also 
seen them at different pickup times.
    During the reauthorization of the Head Start Act, NCLR 
worked with many of you in a bipartisan way to expand our 
efforts to deal with these migrant children. I would hate to 
see those efforts undercut by some of these enforcement 
efforts.
    Finally, Madam Chairwoman, I want to be as clear as we can 
be that we do support immigration enforcement where it needs 
to. We need to look at the strategies and weigh the costs and 
benefits, though, of our enforcement strategies. We are glad 
that you are here today making sure that is done.
    Thank you for the chance to testify.
    Chairwoman Woolsey. Thank you.
    [The statement of Ms. Murguia follows:]

   Prepared Statement of Janet Murguia, President and CEO, National 
                           Council of La Raza

I. Introduction
    Madam Chairwoman, subcommittee members, and members of the 
Congressional Hispanic Caucus, thank you for this opportunity to 
testify before you today about the impact of immigration enforcement on 
America's children.
    The National Council of La Raza (NCLR)--the largest national 
Hispanic civil rights and advocacy organization in the United States--
is a private, nonprofit, nonpartisan, tax-exempt organization 
established in 1968 to reduce poverty and discrimination and improve 
opportunities for Hispanic Americans. NCLR has a long history in the 
immigration debate; our work on this issue is focused on ensuring that 
we have an immigration system that functions in the best interest of 
the nation. Immigration to the United States should be orderly and 
legal, promote economic growth, sustain our families, and be 
implemented in a way consistent with our best values in the United 
States. As you know, the country is far from achieving that goal. My 
organization, our Affiliates, and our many coalition partners are 
dedicated to an effort to reform U.S. immigration laws in a way that 
promotes order, fairness, and above all legality. Until a major 
immigration reform is enacted, the country will continue to cope with 
challenges resulting from the presence of roughly 12 million 
undocumented immigrants in our workforce and in our communities.
    I am particularly grateful that the committee is taking up one of 
these challenges, one that has reached crisis proportions in many 
communities around the country. There is substantial, growing evidence 
that the use of workplace raids as an immigration enforcement strategy 
is causing great harm to children, schools, child care centers, and 
communities well beyond the immigrant population. Madam Chairwoman, let 
me be clear: NCLR believes that the United States can and should 
enforce its immigration laws. As with any set of laws, the nation 
should enforce them wisely and well. This requires an examination of 
the costs and benefits of particular enforcement strategies to ensure 
that the priorities and tactics we choose do not undercut other 
important laws, values, and goals. The work of this committee is 
absolutely critical to inspiring a reasonable conversation on 
immigration enforcement, and I sincerely appreciate the committee's 
attention to the impact of workplace raids on America's children.
II. Consequences of Immigration Enforcement for Children
            A. Report on Impact of Workplace Raids
    There has been a significant increase in interior immigration 
enforcement operations by the Department of Homeland Security in the 
last year and a half. In 2007, according to U.S. Immigration and 
Customs Enforcement (ICE), more than 4,900 arrests were made in 
connection with worksite enforcement investigations, representing a 45-
fold increase in criminal worksite arrests compared to fiscal year 
2001.\1\ This year, ICE has stepped up its enforcement actions by 
raiding individual homes as well as worksites; in April ICE conducted a 
five-state sweep of Pilgrim's Pride poultry plants last month, and just 
last week it raided Agriprocessors, Inc., a kosher meatpacking plant in 
Postville, Iowa, a raid which ICE has called the largest in history.
---------------------------------------------------------------------------
    \1\ See http://www.ice.gov/pi/news/newsreleases/articles/
080502sanfrancisco.htm.
---------------------------------------------------------------------------
    The impact of immigrant enforcement raids on children is often 
disregarded and poorly understood. For these reasons, NCLR commissioned 
the Urban Institute to conduct a study of three communities where 
large-scale worksite raids occurred in 2007. We had a strong interest 
in moving beyond the anecdotal accounts reported by the media to 
documenting the challenges that children face as a result of 
immigration enforcement actions. NCLR believes that the impact on 
children and communities must be considered when making decisions about 
immigration enforcement--or any law enforcement--strategy. We believe 
strongly that such a debate should be based on facts and empirical 
evidence as much as possible, which is why we invested in a thorough 
report. I request that the report be included in the official record of 
this hearing.
    NCLR released this report, Paying the Price: The Impact of 
Immigration Raids on America's Children, in October 2007. The findings 
confirmed the inevitability of hardship to children resulting from an 
immigration raid. There are approximately five million children in the 
U.S. with an undocumented immigrant parent, the vast majority of whom 
are U.S. citizens and under the age of ten. The Urban Institute 
researchers found that, for every two immigrants detained as a result 
of worksite raids, approximately one child is left behind. Further, the 
study shed light on the fact that many children slipped through the 
cracks as a direct result of ICE's enforcement protocols. For example, 
ICE did not provide detained immigrants with access to telephones. This 
meant that parents were unable to notify family members and coordinate 
alternative child care arrangements, forcing some children to stay with 
landlords or babysitters indefinitely or, worse still, home alone. ICE 
also failed to consider hardship to children when making custody 
determinations. Some children experienced the loss of both parents who 
had been placed in detention locally or in detention facilities out of 
state, which made it virtually impossible for these children to visit 
them.
    There were also accounts of ICE detaining nursing mothers, 
resulting in infants being forcibly weaned from breast milk. In a 2006 
raid in New Bedford, Massachusetts, an eight-month-old infant was taken 
to the emergency room to be treated for dehydration after her mother 
was detained. The infant's pediatrician appealed to ICE officials to 
release the child's mother, citing medical reasons for which the child 
needed to continue breastfeeding. NCLR and our sister organizations in 
the Latino community wrote to the Department of Homeland Security after 
this incident to raise concerns; we received a response stating that 
the incident never occurred, despite extensive evidence, including 
video footage of the child and interviews with the emergency room 
physician who treated her.
    In addition, the report found evidence of increased economic 
hardship, social stigma, fear, isolation, family separation, 
disruptions in schooling, and negative emotional and mental health 
consequences for children. Across the three communities examined in the 
report, teachers, caregivers, and mental health professionals 
consistently described children with symptoms of depression and other 
psychological disturbances such as sleep disturbance, loss of appetite, 
fearfulness, mood swings, and feelings of abandonment by their 
parent(s).
    Beyond the negative consequences to children's well-being resulting 
from worksite raids, the report provides evidence that our nation's 
social institutions--such as school and child welfare agencies--that 
are tasked with protecting and nurturing children are playing the role 
of first responders in the aftermath of a raid. For example, school 
officials interviewed for our report discussed steps they undertook on 
the day of the raid to ensure the well-being of children, such as 
instructing bus drivers to release children only at homes where there 
was an adult present, asking teachers to stay late to help care for 
children, and coordinating mental health services. In the days 
following the raid, school personnel visited homes and attended 
community gatherings reminding parents that schools were a safe place 
for children and urging their return to school. A school leader in 
Grand Island, Nebraska made a poignant statement regarding how the raid 
served as a diversion from the school's primary mission of ensuring 
that no child is left behind.
    Today, nearly every time there is a significant immigration 
enforcement operation, NCLR receives reports from the community similar 
to those noted above. There is a similar pattern with each raid: school 
systems and child care centers must scramble to find relatives or 
caregivers for children whose parents have abruptly disappeared. These 
institutions, along with community organizations, must grapple for days 
or weeks with an emergency situation in which families struggle to find 
the location of detainees, who are often unable to access legal 
services. Even since the implementation of ICE guidelines in response 
to these many problems, there are always cases of children left behind 
and nearly always cases of nursing mothers separated from their infants 
for long periods. Moreover, school systems and child care centers 
report enormous long-term challenges in meeting the needs of children 
whose families have been forcibly and suddenly separated in this way.
            B. Continuing Impact: Particular Concerns at Migrant Head 
                    Start Centers
    There is also growing alarm in our community about ICE's engagement 
in intimidation and enforcement tactics near our public schools and 
Head Start programs. For example, NCLR has several Affiliates who 
operate Head Start programs that serve the children of migrant 
farmworkers. Last spring, many of these programs began reporting the 
following incidents (see Attachment 1--MSHS Enforcement Chart):
    <bullet> ICE agents parking near migrant Head Start centers during 
drop-off and pickup times
    <bullet> ICE agents and local law enforcement following school 
buses carrying children under the age of five, beginning as early as 
4:00 a.m.; in some instances, ICE followed school buses for the entire 
route, as long as two hours
    <bullet> ICE agents and local law enforcement following migrant 
Head Start staff to and from the center during lunch breaks
    These actions on the part of ICE are having a chilling effect on 
the participation of migrant children in Head Start. Quite simply, the 
presence of ICE around Head Start centers is causing fearful parents to 
keep their children away from the program. In fact, the low rates of 
attendance registered by these programs has even garnered the attention 
of U.S. Department of Health and Human Services, Office of Head Start, 
which monitors Head Start enrollment and sanctions programs for failing 
to meet their enrollment targets. During the reauthorization of the 
Head Start Act, NCLR worked closely with this committee to ensure that 
migrant children benefit from greater access to Head Start. We were 
proud of this committee's bipartisan work to prioritize the expansion 
of migrant Head Start and its commitment to ensuring that migrant 
children exit the fields and enter classrooms where they can learn and 
grow. It is deplorable that the laudable goals of this committee have 
been virtually undone by the current immigration enforcement strategy 
of this Administration.
    We are also aware of instances in which ICE has actually entered 
private homes and school buildings to remove children. For example, in 
October 2007, a Honduran immigrant mother, who was in her Ohio home 
breastfeeding her nine-month-old infant when ICE agents entered her 
home, was taken into custody while ICE agents went to her children's 
school to remove her children.\2\ In another account, an NCLR 
Affiliate, HELP-New Mexico, Inc., contacted NCLR in September 2007 to 
report that ICE agents and local police entered their preschool 
program, located inside the Sunrise Elementary School in Chaparral, New 
Mexico, to remove children whose parents had been detained in a local 
sweep of Hispanic businesses and homes.\3\ One child, Virginia Ana 
Rodriguez, was released to her father, who was in the custody of four 
fully armed Otero County police officers at the time. The officers 
initially brought the father into the main office of Sunrise Elementary 
until the principal asked them to accompany her into the conference 
room so as not to alarm other students and staff. These same agents 
also entered the local middle and high schools to remove children of 
detained immigrants.
---------------------------------------------------------------------------
    \2\ See http://www.nytimes.com/2007/11/17/us/17citizen.html?fta=y.
    \3\ For more information, see http://www.aclu-nm.org/.
---------------------------------------------------------------------------
    In the immediate weeks following this incident, school officials at 
the Gadsden School District documented that approximately 200 students 
were absent and a small number returned to school during the remainder 
of the school year. The HELP-New Mexico preschool program also 
registered lower rates of enrollment in the ensuing weeks, and has yet 
to fully reach enrollment targets consistent with previous school 
years. A preschool teacher reports the challenges they now face in 
enrolling children in the program because parents remain afraid of the 
possibility that ICE agents will return to the center. Clearly, our 
current approach to immigration enforcement is instilling fear among 
our children and families and undermining our important social policy 
goals for children, and the programs designed to meet these goals.
III. Limitations of ICE Policies for the Protection of Children
    Many of the problems that are documented in the NCLR/Urban 
Institute report have also been the subject of media attention, 
litigation, and congressional inquiries. As a result of this pressure, 
during 2007, ICE developed and released three policy memoranda that 
consider children in the conduct of immigration enforcement actions. 
While these memoranda represent an improvement in ICE sensitivity to 
these important considerations, experience with immigration raids since 
the development of these policies suggests that they have significant 
limitations. The scope and the limitations of these guidelines are 
discussed as follows:
    (1) Guidelines for Identifying Humanitarian Concerns Among 
Administrative Arrestees for Worksite Enforcement Actions, November 16, 
2007. Following the New Bedford, Massachusetts raid in March 2007, 
Senators Edward Kennedy and John Kerry and Congressman William Delahunt 
worked with ICE to develop guidelines for quickly identifying persons 
arrested who are sole caregivers or who should be released from custody 
for other humanitarian reasons. The guidelines apply to larger worksite 
raids that result in the arrest and/or detention of more than 150 
immigrants. The guidelines stipulate that ICE will:
    <bullet> Develop a comprehensive plan for quickly identifying 
humanitarian issues among detainees.
    <bullet> Coordinate with federal health and/or state and local 
social services, including allowing these entities to serve as 
intermediaries to help screen and assess humanitarian issues among 
detainees.
    <bullet> Facilitate communication among detainees and their family 
members by providing access to telephones; ICE is also expected to 
coordinate with nongovernmental agencies (NGOs) and make information on 
detainees and ICE personnel available to these entities in real time, 
so that they can help to screen for humanitarian concerns.
    (2) Memorandum Outlining Prosecutorial Discretion for Nursing 
Mothers, November 7, 2007. In response to mounting accounts of infants 
forcibly weaned from breast milk as a result of enforcement actions, 
ICE released guidelines highlighting the importance of discretion when 
making arrests and custody determinations of nursing mothers. These 
guidelines call for the following:
    <bullet> Nursing mothers should be released on an Order of 
Recognizance or Order of Supervision, and the Alternative to Detention 
programs should be considered as an additional enforcement tool.
    <bullet> In situations where ICE determines that nursing mothers 
should remain in custody, field personnel should consider placement in 
Berks or Hutto Family detention facilities.
    (3) Memorandum Regarding Juveniles Encountered During Fugitive 
Operations, August 24, 2007. In March 2006, ICE agents raided a home in 
San Rafael, California and apprehended Kebin Reyes, a six-year-old U.S. 
citizen. ICE agents kept Kebin in detention for ten hours alongside his 
father, who repeatedly pleaded for access to a telephone to make 
alternative care arrangements for Kebin. The ACLU filed a lawsuit that 
led to the development of a memorandum concerning the treatment of 
minor children encountered during enforcement actions.\4\ The memo 
stipulates the following:
---------------------------------------------------------------------------
    \4\ For more information, see http://www.aclu.org/immigrants/
detention/29526prs20070426.html.
---------------------------------------------------------------------------
    <bullet> ICE should not take into custody a legal permanent 
resident or U.S. citizen minor child.
    <bullet> ICE should coordinate the transfer of a minor child to the 
nearest child welfare authority or local law enforcement agency. If 
these options are not feasible, ICE should document the parent's 
request for the transfer of the child to a third party.
    <bullet> To the greatest extent possible, ICE should coordinate 
with child welfare authorities prior to an enforcement operation.
    In general, ICE appears to have made attempts to adjust its 
enforcement policies to consider humanitarian issues, including 
hardship to children. There is even some evidence to suggest that ICE 
has adhered to its stated objective of promptly releasing nursing 
mothers. For example, recent large raids in Van Nuys, California and 
Postville, Iowa demonstrate that ICE has released nursing mothers with 
electronic monitoring devices. However, there is also anecdotal 
evidence that the release of these mothers can be significantly delayed 
and the conditions of their detention inappropriate. NCLR has learned 
that one nursing mother detained last week in Postville was not 
provided sufficient access to food over a nearly 24-hour period before 
she was released to care for her infant.
    However, the positive impact of ICE's guidance memoranda is 
severely limited with respect to providing any real assurances that 
children will be comprehensively and systematically protected in 
immigration enforcement activities. For example:
    <bullet> The policy guidelines noted above are nonbinding, as they 
are not regulations and are not codified.
    <bullet> There is no mechanism for holding ICE accountable for 
compliance with its own stated policies.
    <bullet> The humanitarian guidelines for worksite raids only apply 
to larger raids of more than 150 people. Thus, it is unclear whether or 
not ICE will attempt to apply these guidelines in raids yielding less 
than 150 detainees.
    <bullet> The guidelines noted above fail to address the undue 
burden placed on schools, early childhood centers, child welfare 
agencies, churches, and community-based organizations that are left to 
play the role of first responder in the aftermath of a raid.
    <bullet> The guidelines fall short of accounting for all of the 
situations and scenarios in which children could potentially be harmed 
in an enforcement action. Simply put, the guidelines do not stipulate 
that all children, regardless of any type of enforcement action of any 
size, will have their best interests taken into account.
    Unfortunately, there is substantial evidence that ICE does not 
consistently follow its own guidelines. For example, Immigration and 
Naturalization Services (ICE's predecessor) policy guidance dating back 
to 1993 strongly discourages immigration enforcement actions near 
schools.\5\ The policy states that agents are to ``attempt to avoid 
apprehension of and to tightly control investigative operations on the 
premises of schools, places of workshop, funerals, or other religious 
ceremonies.'' In 2004, the Bureau of Customs and Border Protection of 
the Department of Homeland Security reaffirmed the 1993 guidance. 
However, as noted above, there are mounting stories of ICE presence 
near schools and Head Start centers, providing clear evidence that ICE 
does not uphold the guidelines and is actively conducting enforcement 
operations in violation of them.
---------------------------------------------------------------------------
    \5\ See ``Enforcement Activities at Schools, Places of Worship, and 
at Funeral or Other Religious Ceremonies,'' U.S. Border Patrol, April 
2004, INS, June 2001& May 1993.
---------------------------------------------------------------------------
    Even if ICE were to execute all of its existing policy guidance 
perfectly and expand its scope to include all children who are affected 
by immigration raids, there would still be a profound dissonance 
between the goal of enforcing our nation's immigration laws and the 
equally important goal of protecting America's children and supporting 
the institutions that are charged with meeting their needs. Even if the 
federal government were to use great care and attention when removing 
parents from their workplaces, homes, families, and communities--which 
is far from the case now--our current enforcement strategy relies 
heavily on raids which undeniably and inevitably has an impact on 
American children and creates difficult challenges for schools, child 
care centers, and the child welfare system in meeting their needs.
IV. Impact of Last Week's Raid in Postville, Iowa
    Last week's workplace raid in Postville, Iowa provides the best 
evidence that, despite ICE's efforts to ameliorate some of the impact 
of enforcement actions on children, the negative effects of workplace 
raids on American children, school systems, and social service 
infrastructure can be catastrophic.
    A first major concern is that the raid itself appears to have 
undercut an investigation into the use of child labor at the 
Agriprocessors plant in Postville. There is substantial reason to 
believe that the employer in this case was highly problematic and was 
likely violating a number of laws in the treatment of his employees, 
including employing children--allegedly recruiting some of them from 
the local middle school. There is mounting evidence that state and 
possibly federal authorities were aware of labor law violations, 
including laws prohibiting child labor, in advance of the raid. State 
authorities have confirmed that they were conducting an investigation, 
and the United Food and Commercial Workers Union wrote to ICE to 
request that an immigration enforcement action not take place, citing 
fears that it would undercut the enforcement of labor laws intended to 
protect all of the workers at the plant.\6\ ICE appears to have 
disregarded this evidence; indeed, as many as a dozen child workers--
one as young as 13--who were evidently poised to provide information 
that would assist in an investigation of labor law violations, were 
instead detained for several days by ICE authorities. As a result, the 
investigation into labor law violations has ground to a halt.
---------------------------------------------------------------------------
    \6\ See coverage from WHO TV Des Moines: http://www.whotv.com/
global/story.asp?s=8332288.
---------------------------------------------------------------------------
    The employer in this case, who is widely reported to have been 
abusive and was almost certainly illegally employing children, was able 
to reopen operations the next day, while the workers whose stories 
could lead to prosecution have faced detention and likely removal from 
the country. Federal authorities missed an opportunity to prosecute 
abuse of workers--including children--which could have a profound 
impact on protecting workers in the state and in the meat processing 
industry well beyond the immigrant community. It is not only unjust 
that all of the penalties associated with this enforcement action have 
been borne by immigrant workers, rather than by the employer, it is 
also a clear example of how the actions of one federal agency enforcing 
one set of laws can undercut the enforcement of another important set 
of laws designed to protect all workers, including and especially 
children.
    There are also significant concerns about ICE officials failing to 
fully implement the ICE guidelines regarding nursing mothers. NCLR has 
learned that some nursing mothers were released for humanitarian 
reasons, however, in at least a couple of cases, there were substantial 
delays and inadequate nutrition provided to a mother in detention.\7\
---------------------------------------------------------------------------
    \7\ NCLR has spoken to Sister Kathy Thill of the Sisters of Mercy 
of Waterloo, Iowa. She recounted that her community was contacted in 
the middle of the night on the night after the raid to pick up a young 
mother who was being released. They were called multiple times between 
midnight until the mother was finally released at 4:00 a.m. The young 
woman had a small child she was still breastfeeding at night, and she 
was released because she voiced concerns over whether the child would 
be okay without her. While in detention, this young woman was given 
very little to eat and was not given access to a telephone to call her 
family. When she was finally picked up by Sister Kathy at 4:00 a.m., 
she had not eaten since 2:00 p.m. the previous day.
---------------------------------------------------------------------------
    In addition, two major provisions of ICE humanitarian guidelines 
specifically intended to protect children appear not to have been 
followed in Postville:
    <bullet> Access to intermediaries: ICE has said that it will allow 
for third-party intermediary entities--either federal health officials, 
or state and local social services, or other contracted third-party 
groups--to screen detainees for humanitarian reasons. This is important 
because many immigrants are reluctant to reveal to ICE that they are 
parents for fear that their children will also be detained. NCLR's 
contacts in Iowa have been unable to substantiate that any intermediary 
party assisted in screening of detainees.
    <bullet> Communication: ICE has said that it will facilitate access 
to free telephones. According to NCLR's contacts in Iowa, very few 
families have been able to communicate with a detained family member. 
This complicates the ability of parents in detention to make 
alternative arrangements for their children and considerably increases 
the stress on nondetained family members, including children. 
Similarly, it adds a layer of uncertainty for school systems, child 
care centers, and social service agencies that are dealing with issues 
of finding appropriate adult supervision for children whose parents 
have been detained.
    Finally, and perhaps most significantly, it is important for the 
committee to have a clear picture of what happens in a community like 
Postville when a worksite raid takes place. We have seen the same 
dynamics in nearly every major raid, both before and since ICE has 
changed its guidelines in the interest of protecting children.
    Specifically, as federal agents in trucks and helicopters descended 
on the plant in Postville, an uproar occurred in local schools, from 
which the helicopters were clearly visible, and students with immigrant 
parents were immediately affected, as were teachers and administrators. 
The situation for children in school was documented eloquently in the 
Des Moines Register by a teacher; I have attached it to this testimony.
    Almost immediately, as the raid was taking place, the local 
Catholic Parish--St. Bridget's--became a focal point for community 
activity. NCLR spoke with individuals at the church who described the 
scene as being chaotic. About 150 children (most of whom are U.S. 
citizens) spent the night there, and the church provided food to more 
than 400 children throughout the first 24 hours following the raid. 
More than 24 hours after the raid there were at least 150 people still 
at the church, where they attempted to match up every child with a 
relative. The burden of ensuring that children are matched up with 
relatives and other caregivers has fallen squarely on the shoulders of 
the church, school, and community.
    As this testimony was being prepared, there were still families 
seeking sanctuary in the church. Families have been afraid to go to 
their homes because of the continued ICE presence in Postville. The 
church was still feeding hundreds of children and families nearly five 
days after the raid. Children are being escorted on buses from the 
church to school and back. Church and school officials report that 
access to counselors and mental health professionals for children has 
emerged as one of many pressing unmet needs. In short, the disruption 
to the larger community in Postville, to its school system, churches, 
and community service infrastructure, has only just begun. As NCLR and 
the Urban Institute documented in the Paying the Price report, the 
impact of a major raid like this one is deep, long-lasting, and 
destructive.
V. Conclusion and Recommendations
    Madam Chairwoman, I want to be as clear as I can be that NCLR is 
not calling for a halt to immigration enforcement. We recognize that 
the nation can and should control its borders, and that it is 
reasonable to conduct interior enforcement activities. But it is also 
true that every enforcement agency must establish priorities and 
parameters for its work, and it is reasonable--indeed, essential--for 
these parameters to include consideration of other important policy and 
law enforcement goals.
    It is vitally important to the well-being of America's children and 
all communities that the federal government engage in a conversation 
that results in good judgments about how to enforce our immigration 
laws without undercutting other important goals, such as child 
protection, education, and worker protection. In the Postville raid, 
immigration enforcement clearly trumped an important labor law 
investigation in a way that may have lasting implications for the 
workers--including children--in the meatpacking industry. To place 
children in detention while their exploitative employer regroups and 
reopens within a day is a clear indication that our enforcement 
priorities need examination.
    In Postville, as in other raids which preceded it, school systems, 
child care centers, and the social service infrastructure have been 
left with a huge challenge of meeting the needs of children whose 
parents literally disappeared from one day to the next. The New York 
Times has estimated that some 13,000 American children have had at 
least one parent removed from the country;\8\ surely this merits a 
conversation about whether workplace raids are causing more harm than 
good. NCLR believes that this committee has an important role to play 
in such a conversation.
---------------------------------------------------------------------------
    \8\ New York Times, November 17, 2007.
---------------------------------------------------------------------------
    While NCLR is glad to see that ICE has responded to these concerns, 
there is clear evidence that the workplace raids conducted over the 
last two years, as well as the ICE presence near Head Start centers and 
schools, are undercutting a variety of important priorities under the 
jurisdiction of this committee. It is also very clear that even ICE's 
carefully constructed guidance to avoid these problems will be 
insufficient to address this larger challenge. This problem is really a 
collision between very important policy goals. I don't believe we can 
regulate our way out of this dilemma with guidance or other tweaks. We 
need to make policy choices, and all of the implications of these 
choices should be on the table.
    In closing, I know that the committee is aware that we are in a 
highly charged environment on the immigration issue. The longer that 
our immigration system remains broken and unaddressed by Congress, the 
longer that these and related problems--and the tensions surrounding 
immigration itself--will continue. Literally every day, NCLR uncovers 
new evidence supporting the misguided notion that any immigration 
enforcement is considered good enforcement, even if it does grave 
damage to our American citizens and our nation's most cherished values, 
and we have tolerated this environment for too long. Last week alone 
provided three examples of the ways in which ill-considered policy and 
enforcement judgments do great, if unintended, harm. Last week it 
became clear through extensive press coverage that the economic 
stimulus bill denies Americans, including military personnel, access to 
a new tax credit simply because they have immigrant family members. 
Just last week The Washington Post documented horrific abuses of 
immigrants in detention facilities, including denying critical medical 
care to some seriously ill detainees and injecting dangerous drugs into 
others. Again last week, NCLR and many others did what we could to 
support churches and community leaders in crisis in Postville in the 
aftermath of the ICE raid there. Every week the evidence mounts--
evidence that we need to exercise judgment in the application of our 
laws affecting immigrants to avoid doing harm that we will later 
regret.
    I urge the committee in the strongest possible terms to engage the 
Department of Homeland Security and the other congressional committees 
of jurisdiction to conduct serious assessments of the costs and 
benefits of workplace raids. NCLR believes that a thorough examination 
will inexorably lead to the conclusion that we need to change course in 
how we enforce our immigration laws.
    Thank you for the opportunity to present this testimony today.

 ATTACHMENT 1.--CHART OUTLINING IMMIGRATION ENFORCEMENT NEAR MIGRANT AND
                       SEASONAL HEAD START CENTERS
 [Prepared by the National Migrant and Seasonal Head Start Association]
------------------------------------------------------------------------
           Date                      Location               Incident
------------------------------------------------------------------------
April 2008                  Holley, NY                 Local Officers
                                                        parked near MSHS
                                                        center.
                                                       Local Officers
                                                        following staff
                                                        leaving MSHS
                                                        center.
------------------------------------------------------------------------April 2008                  Immokalee FL               MSHS staff
                                                        intervened on
                                                        behalf of MSHS
                                                        children when
                                                        parents were
                                                        detained and not
                                                        released even
                                                        when they
                                                        presented proof
                                                        of having young
                                                        children to ICE
                                                        officers and
                                                        leaving the
                                                        child without
                                                        proper care.
------------------------------------------------------------------------April 2008                  Bybee, TN                  ICE officers
                                                        parked a block
                                                        from the MSHS
                                                        center.
                                                        Families' fear
                                                        of being
                                                        detained and
                                                        separated from
                                                        their children
                                                        has forced
                                                        parents to make
                                                        a decision to
                                                        take their
                                                        children to the
                                                        fields. Recently
                                                        a couple of
                                                        young parents
                                                        made the
                                                        decision to take
                                                        their child with
                                                        them and TIED
                                                        the toddler in
                                                        the pick up
                                                        truck with the
                                                        doors opened and
                                                        the baby
                                                        actually hung
                                                        itself and died.
------------------------------------------------------------------------April 2008                  Meter, GA                  ICE Officials set
                                                        up road blocks
                                                        that block
                                                        access to the
                                                        MSHS center.
------------------------------------------------------------------------August 2007                 Winnemucca, NV             ICE Officials
                                                        parked near MSHS
                                                        center and
                                                        follow MSHS
                                                        school
                                                        transporting
                                                        children as a
                                                        result MSHS
                                                        centers removed
                                                        signage from
                                                        buildings and
                                                        buses.
------------------------------------------------------------------------June-October 2007           Hinton, OK                 ICE officials
                                                        questioning MSHS
                                                        staff checking
                                                        into hotels.
                                                        MSHS staff was
                                                        there to provide
                                                        training and
                                                        technical
                                                        assistance to
                                                        the local MSHS
                                                        center.
------------------------------------------------------------------------May-November 2007           Semmes AL                  ICE officers
                                                        parked outside
                                                        MSHS centers.
                                                        Families were so
                                                        fearful and
                                                        chose not to
                                                        register
                                                        children for
                                                        MSHS that the
                                                        center did not
                                                        open.
------------------------------------------------------------------------September 2007              Chaparral, NM              Sheriffs, with
                                                        ICE close
                                                        behind, were
                                                        doing raids of
                                                        homes and
                                                        businesses,
                                                        without
                                                        warrants,
                                                        finding excuses
                                                        to get people to
                                                        open their
                                                        doors, pulling
                                                        over Latinos for
                                                        traffic stops.
                                                        When they
                                                        determined that
                                                        folks spoke
                                                        Spanish, they
                                                        called ICE over
                                                        to ask for
                                                        papers. They
                                                        detained the
                                                        undocumented
                                                        folks, asked
                                                        them about their
                                                        kids, and then
                                                        took them to the
                                                        migrant HS
                                                        center, operated
                                                        by HELP New
                                                        Mexico Inc., to
                                                        retrieve them.
                                                        That center had
                                                        seven kids
                                                        removed from
                                                        Head Start y by
                                                        their parents,
                                                        with 3-4 armed
                                                        sheriffs
                                                        standing behind
                                                        each parent. The
                                                        also went to
                                                        local schools
                                                        with detained
                                                        parents to
                                                        remove children.
------------------------------------------------------------------------September 2007              Alamo, TN                  Since 2006 Alamo
                                                        parents were
                                                        afraid to attend
                                                        parent and
                                                        Policy Council
                                                        meetings because
                                                        immigration
                                                        enforcement
                                                        agents were
                                                        reputed to be
                                                        pulling over
                                                        Latino families
                                                        at road blocks
                                                        on the highway
                                                        leading to the
                                                        center.
------------------------------------------------------------------------September 2007              Summer City, TN            ICE officials
                                                        parking outside
                                                        of MSHS centers
                                                        and other social
                                                        service
                                                        providers (WIC,
                                                        food stamps,
                                                        Medicaid) has
                                                        forced parents
                                                        to make decision
                                                        about enrolling
                                                        their families
                                                        and children in
                                                        these federal
                                                        funded programs.
------------------------------------------------------------------------April 2006                  Immokalee and Nocatee, FL  ICE Officials
                                                        parked near MSHS
                                                        center and
                                                        follow MSHS
                                                        school
                                                        transporting
                                                        children. Within
                                                        a couple of
                                                        weeks, there is
                                                        an employment
                                                        raid where the
                                                        majority of MSHS
                                                        parents were
                                                        working. Parents
                                                        were detained
                                                        and the MSHS
                                                        staff worked to
                                                        get information
                                                        to the parents
                                                        regarding their
                                                        rights while the
                                                        MSHS centers
                                                        remained open
                                                        beyond regular
                                                        business hours
                                                        to care for
                                                        children.
------------------------------------------------------------------------

Publication Facts & Stats
            Currently 839 documents in library
    <bullet> White Paper: 26
    <bullet> Issue Brief: 19
    <bullet> Success / Human Interest Story: 8
    <bullet> Statistical Brief: 12
    <bullet> Research Report: 42
    <bullet> Background Memo: 11
    <bullet> Conference Proceedings: 6
    <bullet> Presentation: 23
    <bullet> Testimony: 51
    <bullet> Other: 313
    <bullet> Fact Sheet: 100
    <bullet> Annual Report: 8
                                 ______
                                 
    Chairwoman Woolsey. Ms. Gibney.

  STATEMENT OF KATHRYN M. GIBNEY, SAN PEDRO ELEMENTARY SCHOOL 
                           PRINCIPAL

    Ms. Gibney. Thank you, Chairwoman Woolsey and distinguished 
members of this panel. I very much appreciate you holding this 
hearing and inviting me here to testify today.
    My name is Katherine Gibney, and I am principal of San 
Pedro Elementary School in San Rafael, California. My school 
serves 400 kindergarten through fifth grade students, 96 
percent of whom are Latino, with the largest cultural groups 
coming from Guatemala, El Salvador and Mexico. These children 
and other students in our district have suffered severe trauma 
as a result of the ICE raids in the low-income Canal 
neighborhood of San Rafael.
    In the pre- dawn hours of March 6, 2007, Federal 
immigration officers pulled up in white vans in front of three 
large apartment buildings. Suddenly, without warning, agents 
identifying themselves as police stormed the three buildings 
and began pounding on doors, attempting to serve 30 warrants 
for people who had prior deportation orders. In the process, 
these agents used the warrants as rationale to sweep the 
neighborhood, sending ripples of fear throughout the community.
    They have shone bright flashlights in the faces of young 
children who were still asleep. They handcuffed parents in 
front of their children and took them away, threatening that 
they would soon be back for others. They left behind them a 
trail of fear.
    Traumatized by the vicious nature of the intrusions and 
terrified to take their children to the bus stop, many families 
held their children at home in hiding. Other parents, 
recognizing that school might be the safest place, enabled 
their children to go to school.
    One child, whose father had just been taken away, was told 
by her mother to pack some essentials in her backpack and leave 
it by the door so that if she returned home and found no one 
there she could go to her aunt's house just in case her mother 
was also seized and deported. Imagine this child's frame of 
mind when she left for school that day.
    Later that morning, my staff and I first learned of these 
events, as clearly shaken and crying students exited from 
school buses and blurted out their stories of what had happened 
earlier. On a day when we were scheduled to administer State 
exams, 40 students were absent, seven times the normal absentee 
rate. Throughout the day, muted and trembling voices asked 
teachers if agents would come to school and take them away. 
What would happen to their mommy or daddy or aunt or uncle and 
what would happen to them?
    During the next 2 weeks, the situation escalated as ICE 
threatened to hold more raids, as parents continued to be 
afraid to leave their homes, even to take their children to and 
from the bus stop, and as this fear took its mental and 
psychological toll on children, on families and on teachers and 
staff who worked long hours to ride buses and ensure that 
students were released safely into the care of an authorized 
adult.
    The San Rafael community responded with speed and 
compassion. The community launched efforts to discover the 
facts of what had taken place and express opposition to the way 
in which these raids were implemented.
    In one detailed response, ICE leadership in Washington, 
D.C., responded that although they avoid entering schools, 
places of worship or hospitals, they would do so if the 
situation warranted it. Consequently, we could no longer assure 
our children that schools were absolutely safe.
    In San Rafael on May 8, 2008, agents stopped a father 
walking his daughter to school at Bahia Vista Elementary 
School. Since agents were not able to communicate with the 
father, the second grade daughter had to serve as translator 
between her father and the agents, who ultimately took him 
away.
    The impact of these raids has been devastating. Absentee 
rates have soared. Test scores have dropped. Students who do 
make it to school remain distracted as they worry about whether 
their families will be home when they return. Families lose 
sleep at night as they worry about possible home 
interrogations. Families whose breadwinners have been seized 
are struggling to survive.
    Even when family members were successful in proving their 
right to be in the country and were allowed to return home, the 
memories remain, the memories of U.S. agents banging on the 
doors of their houses at dawn, shining flashlights in their 
faces and taking parents away in handcuffs.
    At San Pedro school, mental health services have been 
substantially increased to address the ongoing fragility of our 
students. Many of our children are American-born, full-fledged 
citizens with a right to a quality education and the rights 
guaranteed to all American citizens. They are America's 
children and the Nation's future workforce.
    Success in schools depends on a three-way partnership 
between students, schools and families. The current environment 
strains the family component. There must be a better way to 
execute a Federal mandate in a more humane manner.
    Thank you.
    Chairwoman Woolsey. Thank you.
    [The statement of Ms. Gibney follows:]

 Prepared Statement of Kathryn M. Gibney, San Pedro Elementary School 
                               Principal

    In the pre-dawn hours of March 6, 2007, families throughout the 
Canal neighborhood of San Rafael, California were just beginning to 
awaken. Unknown to them, outside their homes, federal immigration 
officers had already pulled up in white vans. Suddenly, while many were 
still asleep, agents identifying themselves as ``police'' began 
pounding on doors, attempting to serve 30 warrants for people who had 
prior deportation orders. In the process, they swept the neighborhood, 
taking individuals for whom they did not have warrants, leaving 
children and their families paralyzed with fear, and sending ripples of 
impact throughout the community. These raids were part of a campaign 
titled ``Operation Return to Sender.''
General Circumstances
    The key facts that were initially reported to us on March 6, 2007 
were:
    <bullet> Early that morning, white vans pulled up in front of three 
apartment complexes at 150, 220 and 400 Canal Street and individuals 
who reported themselves as police knocked on doors looking for people 
on a list of approximately 30 individuals for whom they had orders to 
seize. In some cases, if those individuals were not home, they 
questioned the individuals who answered the door and attempted to seize 
them. In the process of looking for these individuals, they sometimes 
woke children and shined flashlights in their faces, questioning them 
and frightening the children and their families.
    <bullet> Absences for that day included 77 students at Bahia Vista 
School, approximately 40 students at San Pedro School, and 
approximately 15 absences at San Rafael High. Smaller numbers of 
absences were reported at Davidson Middle School and Venetia Valley K-8 
School, although students were clearly anxious about the situation.
    <bullet> Known seizures that day included one Laurel Dell male 
parent, one Venetia Valley male parent, two San Pedro male parents, two 
Bahia Vista male parents, and one Coleman male parent and, because the 
Coleman parent was the sole adult in the house with the child and would 
not leave the child alone, both the parent and child were taken.
    <bullet> The seizures were carried out by Immigration and Customs 
Enforcement (ICE), which is the largest investigative branch of the 
Department of Homeland Security. The raids, part of a campaign titled 
``Operation Return to Sender,'' apparently began a week and a half 
prior to March 6, 2007, with seizures of adults on the street and at 
their businesses. On March 6, 2007, the raids increased in intensity 
and targeted people in their homes. Initial reports from individuals in 
the area were that approximately 70 to 100 San Rafael residents were 
seized, and that the raids were also taking place in Novato, the city 
immediately to the north of San Rafael.
    As soon as the school district learned of the situation that 
morning, staff took immediate action to determine what was taking place 
and to ensure the safety of students. Specifically:
    <bullet> The Bahia Vista Principal made a home visit in the morning 
to determine what actions were taking place and by whom.
    <bullet> The district was in contact with the San Rafael Police 
Department, the Canal Alliance, the Human Rights Commission, and the 
office of Marin County Board of Supervisors' President Steve Kinsey to 
determine where individuals who had been seized were being taken and 
what follow-up actions could be taken.
    <bullet> School site teachers, staff, and district staff planned to 
ride school buses and stand at school bus stops to ensure that students 
were safely transported to and from school. In addition, teachers 
planned to stay late and were informing students that, if they were 
uncertain that a parent or guardian was at their home, they should 
return to school.
Media Coverage
    This event immediately became a major community concern, as 
reported by local TV and news media.
    <bullet> ``30 Illegal Immigrants Targeted in Canal Neighborhood 
Raid,'' March 6, 2007 Marin Independent Journal (Attachment #1)
    <bullet> ``Canal Community Fearful after Immigration Raids,'' March 
8, 2007, Marin Independent Journal (#2)
    <bullet> ``Second Day of Immigration Raids Includes Novato and San 
Rafael,'' March 8, 2007, Marin Independent Journal (#3)
    <bullet> ``Fate of Detained Becomes Clearer,'' March 8, 2007 Marin 
Independent Journal (#4)
    <bullet> ``Immigration Raids Handled Poorly,'' March 9, 2007 Marin 
Independent Journal (#5)
    <bullet> ``Immigration Raids Draw Dawn Protest,'' March 9 
Independent Journal (#6)
    <bullet> ``March and Rally Draw Hundreds in San Rafael,'' March 13, 
2007 Marin Independent Journal (#7)
    <bullet> ``Marin Officials Rip Immigration Tactics,'' March 14, 
2007 Marin Independent Journal (#8)
    <bullet> ``65 arrested, 23 Deported in Raids, North Bay 
Congresswoman Says,'' March 15, 2007 Marin Independent Journal (#9)
    <bullet> ``Civic Leaders Prepare for Likelihood of Future Raids,'' 
April 4, 2007 Marin Independent Journal (#10)
    <bullet> ``ACLU Sues Over Seizure of Boy in Immigration Raid,'' 
April 26, 2007, Marin Independent Journal (#11)
    The Marin County school district superintendents co-authored and 
all signed a statement for the community, entitled ``Let's Put the 
Education of our Children First.'' (#12)
School Board Response
    Members of the San Rafael City Schools Board of Education co-
authored a letter, cited below, describing the impact of the ICE raids 
on our schools:
    ``Thank you for your attention to the recent Immigration and 
Customs Enforcement (ICE) program Operation Return to Sender and your 
interest in its impact on our schools and school children. The 
disruption to the educational program was immediate and will have 
lasting consequence.
    As trustees for San Rafael City Schools our charge is to provide a 
high quality equitable education for every child living in our 
districts without discrimination--without determining citizenship. 
Furthermore, we are responsible for the safety of every student--from 
the time they leave school until the time they reach their homes.
    The ICE raids sent our schools into a state of emergency. Teachers, 
support staff, principals, and district administrators were placed on 
buses and at bus stops to make sure children connected safely with 
adults in their homes. Students were given the phone numbers for their 
school in case no adult was at home, and staff stayed late to answer 
phones.
    Absentee numbers spiked as high as seven times the usual amount in 
one school and four times the normal rate at another school. Parents 
were afraid to walk with their children to and from the bus stops. 
Older siblings skipped sports, work and homework to tend to their 
brothers and sisters. Many students were and remain distracted from 
school work as they worry about their loved ones. Most of these 
children are by and large American-born, full-fledged citizens with a 
right to a quality education and to live in this country for the rest 
of their lives.
    Consider one family Principal Juan Rodriguez visited during the 
raids when he learned a parent had been taken from their home. As he 
walked into the living room he noticed student work decorating the 
walls; he saw a desk with a light in the room; and he noted the lack of 
a television set. The mother described the family's nighttime routine: 
the children do their homework at a desk in a well-lit, quiet room; the 
father reads with the children every night; and, before they go to bed, 
they discuss the day at school. These are the practices that teachers 
and school staff request of families to promote academic achievement. 
This family follows every suggestion and is suddenly without a father. 
How will these children perform in school now?
    Success in school depends on a three-way partnership between 
students, schools and families. The current environment strains the 
family partnership for documented and undocumented residents alike as 
the distinctions between the two are blurred by ICE tactics. People who 
look like they should have residency papers are lumped together with 
those who ignore deportation notices. It is hard for our teachers to 
assure children and their parents who are here legally that they are 
safe.
    We are not in the position to solve the complex issues surrounding 
immigration, but these problems need to be addressed away from schools. 
There must be a better way to execute the federal mandate in a more 
targeted manner. Please explore solutions, continue to shine a light on 
this matter, and ask the tough questions, keeping in mind the 
children--those who are born here, those who will stay here, those who 
will be future workforce and leaders.
            Sincerely,
                 Greg Knell, Jenny Callaway, Linda Jackson,
                           Jon Loberg, and Natu Tuatagaloa,
                       Board of Education, San Rafael City Schools.

    The letter from the San Rafael trustees was sent to Mayor Al Boro, 
Members of the San Rafael City Council, Congresswoman Lynn Woolsey, the 
Marin County Board of Supervisors, Assemblyman Jared Huffman, and 
Senator Carol Migden. (#13)
Community Response
    Marin County Superintendent of Schools, Ms. Mary Jane Burke, 
addressed a letter to Assistant Secretary Julie Meyers of the U.S. 
Immigration and Customs Enforcement Division, calling attention to the 
impact these types of actions have on schools and students. (#14)
    San Rafael Mayor Albert Boro addressed a letter to Senator Barbara 
Boxer, requesting assistance in obtaining information about detainees 
and about future raids. (#15)
    The issue continued to surface in articles, letters to the editor 
and community demonstrations by concerned citizens and members of the 
clergy as well as counter-protests by concerned citizens and by the 
Minutemen.
Specific School Site Circumstances
    In addition to the general description of the raids and community 
reaction to them as detailed above, the following sections detail 
specific incidents at school sites in San Rafael.
San Pedro Elementary School
    Kathryn Gibney, principal San Pedro Elementary School, wrote the 
following account of the events of the week:
    When ICE agents banged on doors, they demanded to see papers of 
whoever answered. They entered apartments even if the person for whom 
they had a warrant was not there. They shined bright flashlights in the 
faces of young children who were still asleep. They handcuffed parents 
in front of their children and took them away, threatening that they 
would soon be back for others. They left behind them a trail of fear.
    Traumatized by the vicious nature of the intrusions and terrified 
to take their children to the bus stop, many families held their 
children at home, in hiding. Other parents, recognizing that school 
might be the safest place, enabled their children to go to school. 
Still, there was much trepidation. One child whose father had just been 
taken away was told by her mother to pack some essentials in her 
backpack and leave it by the door so that if, when she returned from 
school she found no one at home, she could go to her aunt's home in 
case her mother was seized and deported. Imagine this child's frame of 
mind as she left for school that day.
    Later that morning, my staff and I first learned of these events as 
clearly shaken and crying students exited from school buses and blurted 
out their stories of what had happened earlier. On a day when we were 
scheduled to administer the State Testing and Reporting or STAR Writing 
Exam, forty students were absent--seven times the normal absentee rate. 
Throughout the day, muted and trembling voices asked teachers if agents 
would come to school and take them away, what would happen to their 
mommy or daddy or aunt or uncle, and what would happen to them.
    During the next two weeks, the situation escalated as ICE 
threatened to hold more raids, as parents continued to be afraid to 
leave their homes, even to take their children to and from the bus 
stop, and as this fear took its mental and psychological toll on 
children, on families, and on teachers and staff who worked long hours 
to ride buses and ensure that students were released safely into the 
care of an authorized adult.
    The San Rafael community responded with speed and compassion. 
Community leaders including the city mayor, county superintendent of 
schools, and elected state officials launched efforts to discover the 
facts of what had taken place and express opposition to the way in 
which these raids were implemented. In one detailed response to an 
inquiry asking if ICE officials were allowed to enter school campuses, 
ICE leadership in Washington, D.C. responded that although they avoid 
entering schools, places of worship or hospitals, they would do so if 
the situation warranted it.
    To this day, federal agents continue to use schools as a venue to 
help them seize immigrants. During the first week in May of this year, 
ICE vans parked adjacent to school campuses in Berkeley and Oakland, 
where they waited to seize parents. And again, in San Rafael, on May 8, 
2008, agents stopped a father walking his daughter to school at Bahia 
Vista Elementary School. Since agents were not able to communicate with 
the father, the second-grade daughter had to serve as translator 
between her father and the agents, who ultimately took the father away.
    The impact of these raids has been devastating. Absentee rates have 
soared. Test scores have dropped. Students who do make it to school 
remain distracted as they worry about whether their families will be at 
home when they return. Families lose sleep at night as they worry about 
possible home interrogations. Families whose breadwinners have been 
seized are struggling to survive. Even when family members were 
successful in proving their right to be in this country and were 
allowed to return home, the memories of children remain--the memories 
of U.S. agents banging on their doors at dawn, shining flashlights in 
their faces and taking their parents away in handcuffs. The health, 
well-being and performance of students have been and continue to be 
severely impacted. Mental health services have been substantially 
increased to address the on-going emotional fragility of San Pedro 
students.
    Many of our children are American born, full-fledged citizens, with 
a right to a quality education and the rights guaranteed to all 
American citizens. They are America's children and the nation's future 
workforce.
    Undeniably, the issues surrounding immigration are complex and we 
must find ways to address them. On behalf of San Pedro School, however, 
and schools across the country, I implore you to seek more humane ways 
to address them, away from our schools and from our children. These 
emotionally terrifying experiences undermine the trust and confidence 
in adults that teachers and school staff work diligently to establish 
with their students and families.
    Success in schools depends on a three-way partnership--between 
students, schools, and families. The current environment strains the 
family component of this partnership for documented and undocumented 
residents alike, as the distinction between the two is blurred by ICE 
tactics. People who look like they should have residency papers are 
lumped together with those who ignore deportation notices. They are 
treated as guilty before having opportunity to prove their innocence.
Venetia Valley K-8 School
    Pepe Gonzalez, principal of Venetia Valley K-8 School, wrote the 
following account of the events of the week:
    During the week of March 5th through the 9th, many students at 
Venetia Valley School were greatly affected by the raids that took 
place in the San Rafael area. The consequential aftermath created a 
heightened level of anxiety and fear among the families, students, and 
staff as a whole. Members of our school community were scared to leave 
their homes, attend jobs, and allow their children to attend school.
    As a district and a school site, administrators, teachers and 
community liaisons were driving through the neighborhoods telling 
parents that their children were safe at school. We were at bus stops, 
on buses and anywhere where we felt our children were at risk. The bus 
stops where parents once waited in groups to pick up their children 
were now empty. Parents were waiting in their homes until the bus 
arrived, then in a dash of panic they would run out of their homes to 
pick up their children and rush them back into their homes for safety. 
We felt that we had to be present in order to ensure that the children 
were being met and safely handed over to a responsible adult.
    Stories of families being broken up by immigration agents removing 
mothers and fathers from homes hit the media, increasing the sense of 
panic. What some were witnessing on television, others were actually 
living through the pain of being separated from loved ones.
    At Venetia Valley, we had dozens of school community members suffer 
from these consequences. One of our families was directly affected. A 
fifth grade student witnessed her father get handcuffed and taken into 
custody by immigration officers at 7:30 in the morning as she was 
eating breakfast and getting prepared for school. The father was taken 
to a holding facility for several days before being deported to 
Guatemala. The family was left without its main income provider, and a 
young girl without her father.
    On the morning of Wednesday, March 6th, we received a phone call 
from a man who was whispering over the phone. We were able to identify 
him and learned that he was whispering because immigration officers had 
entered the family's apartment at five in the morning and had taken one 
of their roommates. The father, mother, and son, who all slept in the 
same bedroom, did not want to leave the sleeping quarters in fear of 
being captured by immigration officials. They had spent part of the 
time with all three of them hiding under the bed. Our community liaison 
representative and I traveled to the apartment to see how we could help 
the family. We knocked on the door only to have no one answer. We 
called on the cell phone to assure the family that it was really school 
personnel at the door and not immigration officials. When they finally 
opened the door we were embraced with hugs and sighs of relief. We 
brought the student back to school with us, gave him breakfast and 
placed him into his classroom. The family gathered all of their 
belongings and moved to a different apartment complex the very next 
day. The trauma that the family went through was too much to handle.
    The calls throughout the week continued to pour in, as parents were 
concerned that the immigration officials would continue to enter homes 
and interrogate and take into custody individuals in our community. 
Throughout the week, school officials continued to be present in the 
neighborhoods to try to ease the tension and bring the community back 
to rest. Home visits were made by community liaisons bringing food to 
homes and personally driving students to and from school.
    We cannot expect to hold our students to the same academic rigors 
when their emotional states are hindered. The children and families of 
the San Rafael community suffered through extensive trauma as the fear 
of losing loved ones was present every day in that second week of 
March. They lost sleep in the evenings with concerns of possible home 
interrogations. They were not able to attend jobs and collect income to 
provide for their families. They could not leave their homes to buy 
groceries and essential living utilities. When a family and its 
children are forced to live in isolation, in fear to even open their 
front doors, making it impossible to perform even their daily routines, 
we still asked these students to follow through with the state writing 
tests.
    Our community was greatly affected and is still suffering from the 
events that took place.
Coleman Elementary School
    Ruth Reynolds, principal of Coleman Elementary School, with input 
from Martha Noguiera, School Linked Services Coordinator, wrote the 
following account of the events of the week:
    On the morning of March 6, 2007, behind one door in the Canal 
neighborhood of San Rafael, six-year-old Kebin Reyes, a first-grade 
student at Coleman Elementary School, was still sleeping when United 
States ICE officers stormed into the apartment where he lived with his 
father Noe Reyes. Noe told officers that Kebin was a U.S. citizen, 
asking permission to call a relative to care for Kebin while Noe was 
detained on suspected immigration violations. They refused. Instead, 
they made Noe wake up Kebin, who watched as officers handcuffed his 
father. Telling Kebin to put his hands behind his back, the officers 
took father and son to the ICE booking station in San Francisco. 
Instead of being in school, Kebin spent 10 hours locked in a room with 
his father, crying and hungry. ICE agents never allowed Noe to call 
someone to pick up Kebin. It was only when a relative heard what 
happened and came to the ICE facility that Kebin was able to leave.
    After one day, Kebin, who has excellent school attendance, returned 
to school while living with his aunt. This year, he is in the second 
grade and lives with his father, who was not deported but who was 
detained for 45 days last year in Santa Clara. Kebin saw his father 
once during that detention. The father is going to court this June to 
ask for work permission for two years. Kebin's mother and sister remain 
in Guatemala and they hope to join the family shortly in the United 
States. Kebin started to see a Spanish speaking therapist after the 
raid and continues to see the therapist every two weeks. Kebin's father 
attends all school conferences, parent meetings and workshops. He is 
very supportive of his son doing well in school.
    At Coleman School, children were frightened and needed to be 
reassured that they were safe in school. The teachers and I met with 
them privately and in small groups. They asked questions. One seven 
year-old child was afraid to come to school. She feared that when she 
returned home her parents would not be there to meet her at the bus. 
Some of the children asked questions about passports.
    Immediately following the ICE raids, parents reported that the 
entire family slept in one bedroom and would not answer the phone or 
the door. They also would do their grocery shopping for one month. They 
were afraid to go out and leave the house.
    One year later, parents in the Latino community are still 
frightened. One difference noted by parents this year is that in the 
past ICE would go to an apartment and ask for a specific person but 
would also take anyone in the apartment that could not prove residency. 
Now parents tell us that ICE is more specific. If they ask for someone 
and he/she is not in the apartment they do not take anyone else. This 
has eased some tension.
Laurel Dell Elementary School
    Bob Marcucci, principal of Laurel Dell wrote the following account 
of the events of the week:
    Laurel Dell was affected by the ICE raids much in the same way that 
other San Rafael schools were. There was fear, confusion, anger, and 
sadness written on the faces of many students. Because many of our 
students are bussed from the Canal area, we dealt with the fear and 
uncertainty of student and parent safety while at the stops in the 
morning and afternoon. Teachers rode the buses to make students feel 
more secure. We provided hours of counseling to students who just 
needed someone to talk to. There were students who stayed at home 
because their parents were afraid to leave the house to bring them to 
school. I personally picked up a number of students and brought them to 
school myself so that they wouldn't miss out on projects and 
assessments happening at the time. During the raid, two families at 
Laurel Dell were affected in a major way. In each family, one of the 
parents was detained and deported. The students spent months worried 
about the safety of their mother or father. Staff wrote letters of 
support for each family in the hopes of convincing authorities that 
these were positive members of the community. The students were 
provided with counseling.
Bahia Vista Elementary School
    Juan Rodriguez, principal of Bahia Vista School wrote the following 
account of the events of the week:
    When the raids took place, we asked teachers to let us know about 
their students and how they were reacting. Within a few days I began 
receiving reports from teachers about their students' fears. One second 
grade girl was sleeping with her clothes on and her backpack with her. 
She also insisted on sleeping under her sister's bed. She told her 
mother she wanted to be ready to go with her if the police took her 
away in the night. She also kept her backpack on all day at school. 
This student continues to suffer from symptoms of trauma. She regularly 
wets her pants, has trouble concentrating on simple tasks, and is far 
below grade level in reading and math.
    Another boy, also in second grade, was terrified to be away from 
his mother. He began to have severe reactions to the trauma of his 
uncle being taken by the ICE police. This boy would see faces in the 
windows when there was no one there. He continues to have severe 
anxiety and symptoms of the trauma one year later. He is suffering from 
nightmares and anxiety on a daily basis.
    Children were afraid to come to school, not knowing if their 
parents would be at home when they returned. Two young students in 
kindergarten have had severe behavior problems throughout this past 
year because their mothers were sent back to Guatemala. These young 
boys don't have the language to be able to talk about their fears or 
separation anxiety, but they are acting it out every day in school and 
are not able to learn what they need to in class.
    The other reaction we saw from most of the students in the school 
was a fear of the police in general. They didn't understand the 
difference between the ICE police and the regular San Rafael police. 
They saw them all as wanting to take their parents or other family 
members away. Some children also thought that if someone was taken by 
ICE, they would be killed. Many families were not able to leave their 
houses for several weeks, kept lights off at night, and lived in hiding 
and fear. The general feeling was that the community was under attack.
Partner Community Agency Response
    Balandra Fregoso, coordinator of San Rafael School Linked Services, 
wrote the following regarding the response of community agencies, who 
work closely with San Rafael City Schools:
    The Marin Community Foundation convened and supported the 
development of an Immigration Task Force after the March 2007 raids, 
with the specific intent for community agencies to support families in 
crisis. Prior to this convening, the communities throughout Marin 
County worked independently from one another, providing many resources 
to the immigrant community including academic supports, basic need 
support, ESL classes, parent education, etc.
    With the advent of the raids, it was discovered that there was no 
central place for information sharing and that resources were 
inadequate to the task at hand. After many meetings, it was decided to 
make sure the schools, faith community, county resources, legal 
community, and community based organizations were connected in some way 
so all resources of the County could be used to the best advantage, on 
behalf of families.
    Consequently three subcommittees were created:
    <bullet> A Tool Kit Committee collected and organized pertinent 
materials and documents, such as how to apply for citizenship, how to 
provide for guardianship of children whose parents are detained, etc. 
The members of this committee then provided trainings for support 
providers, including school administrators, school office staff, family 
advocates, and organizations throughout the county.
    <bullet> A Community Education Committee began trainings for 
parents as well as youth. They were designed to bring families out of 
hiding and to learn how to best conduct themselves in these times.
    <bullet> A Public Policy Committee brought the legal community and 
faith based community together with others to have direct conversation 
with law enforcement officials, the County Board of Supervisors, and 
state and federal representatives to both understand their stands on 
the raids and to make clear that there is a group watching how people 
are being treated.
    Through this Task Force, many groups are kept abreast of what is 
happening across the county. ICE raids are still happening, on a 
smaller scale, during the early morning hours, and they continue to 
effect families in Marin County regularly. The Task Force is working to 
separate fact from fiction and to keep everyone aware of current 
activities as they occur. Some themes are consistently reported to the 
Task Force:
    <bullet> Families that once shared housing are less willing to do 
so for fear that their roommates are undocumented and will draw 
attention to ICE.
    <bullet> Children are learning that if they are documented, they 
are ``better'' than their friends and family that are not documented. 
Families are being physically separated because of the ICE raids. They 
are being separated on a social/emotional level as well.
    <bullet> Teachers, coordinators, counselors, and others who work 
with families and children who are affected by the ICE raids are 
suffering, too. Not only is there a feeling of hopelessness, but many 
of these service providers are immigrants themselves and working with 
the immigrant population may bring up the trauma and stress that they 
suffered around their own immigration.
Additional Activity around Schools
    ICE raids continue in the San Francisco Bay Area. On Tuesday, May 
6, just a little more than one year after the first raids in San 
Rafael, similar ICE activity took place in Berkeley and Oakland. Two 
days later, ICE agents returned to San Rafael and are known to have 
approached and taken at least two Bahia Vista parents when they were 
walking their children to school. In one case, because the ICE agents 
and father were not able to communicate, the child--a second-grader--
was put in the position of have to translate and negotiate with ICE 
agents. The father was taken away in front of the child.
    This issue continues to be one that affects schools and families. 
Below is an article from the San Francisco Chronicle describing the 
raids in Berkeley and Oakland.

       [From the San Francisco Chronicle, Wednesday, May 7, 2008]

             ICE Raids on Homes Panic Schools, Politicians

      By Jill Tucker, Jaxon Van Derbeken, Chronicle Staff Writers

    Oakland--Immigration arrests at homes in Berkeley and Oakland on 
Tuesday sent a wave of panic among parents in both cities, as 
authorities mistakenly believed immigration agents were raiding 
schools.
    U.S. Immigration and Customs Enforcement officers were in both 
cities Tuesday, performing routine fugitive operations, spokeswoman 
Virginia Kice said. Teams go out virtually every day looking for 
specific ``immigration fugitives,'' she said.
    Officers arrested four family members at a Berkeley home and a 
woman at an Oakland residence. They were not at schools.
    Yet, within the next few hours, rumors of raids circulated 
throughout the communities.
    In Berkeley, school district Superintendent Bill Huyet sent out an 
automated phone message to all parents notifying them that a Latino 
family had been picked up and assuring them that the district would 
``not allow any child to be taken away from the school.''
    In Oakland, Mayor Ron Dellums and three school board members 
converged at the end of the school day on Stonehurst Elementary School 
along with immigration rights advocates, saying they believed ICE 
agents ``would return.''
    ``In my view, that is the ugly side of government,'' Dellums said. 
``No way children should ever be treated to that kind of harassment and 
fear.'' He said police officers will be posted at the campus Wednesday 
to ensure that federal immigration officials don't come onto school 
grounds. He added that federal officials have assured him they will not 
be at schools. Initially, Oakland district officials said federal 
agents were at Stonehurst and denied entry by school staff. By late 
afternoon, they rescinded that, saying that an ICE vehicle was seen 
nearby. Berkeley officials also said no agents were at local schools.
    Still, state Senator Don Perata, D-Oakland, got involved.
    ``There should be an immediate freeze on ICE raids directed at 
school children while legislation aiming to fix immigration is 
considered,'' he said in a statement.
    Later, immigration advocates said they believed ICE vans were 
circling schools and intimidating the community, noting that ICE 
officers accompanied a mother onto an Oakland school campus in December 
before questioning her in a workplace investigation.
    Kice said Tuesday's rumors took on a life of their own.
    In most cases, ICE fugitive operations take place at residences or 
sometimes at places of employment, she said. ``A school is not a place 
we would routinely conduct an enforcement operation for a variety of 
reasons,'' Kice said.
    The fear across the communities, however, was real.
    ``People are terrified,'' said Berkeley Unified spokesman Mark 
Coplan. ``There is a lot of speculation.''
    Larry Bensky's fifth-grade daughter came home from Berkeley's 
LeConte Elementary School on Tuesday saying she had no homework because 
it was ``ICE week,'' which meant ``they'' were going after the families 
of the Latino children.
    ``She doesn't know what ICE is,'' Bensky said. ``She doesn't know 
what targeted is. You can imagine it's very disturbing for children 
that from one day to the next that a child they sit next to could be 
kidnapped, arrested and deported.''

                      Copyright 2008 SF Chronicle

    The information provided in this narrative demonstrates the 
emotional climate of the town, the school, and particularly of students 
and their families. Students were crying, fearful, distraught and/or 
totally preoccupied with worry and anxiety, which we believe this had 
and continues to have an impact of student academic performance.
A Call for Protection of America's Children
    Undeniably, the issues surrounding immigration are complex and we 
must find ways to address them. Nevertheless, we ask that ways be found 
to address them away from schools and away from children.
    These children are, for the most part, American-born citizens with 
a right to a quality education and the rights guaranteed to all 
American citizens. They are America's children and the nation's future 
workforce.
    Even when family members are successful in proving their right to 
be in this country and return home, the memories of children remain--
the memories of U.S. agents banging on the their doors at dawn, shining 
flashlights in their faces, and taking their parents away in handcuffs.
    There must be a better way to execute a federal mandate in a more 
targeted manner. On behalf of America's children, the San Rafael City 
Schools asks you to explore solutions, continue to shine a light on 
this matter, ask the tough questions, keeping in mind the children--
those who are born here, those who will stay here, those who will be 
our future workforce and leaders.
                                 ______
                                 
    [Additional submissions of Ms. Gibney follow:]

     [From the San Rafael, CA, Independent Journal, March 7, 2007]

       30 Illegal Immigrants Targeted in Canal Neighborhood Raid

                             By Mark Prado

    Armed with 30 arrest warrants, federal immigration officers swept 
into the Canal neighborhood in San Rafael at dawn Tuesday and arrested 
illegal immigrants.
    ``They went right into buildings and pulled people from their 
homes,'' said Edgar Hernandez of the sweep, which began about 5 a.m. 
and lasted until 8:30 a.m. ``These are just working people, not 
criminals. Everyone in the Canal is now afraid.''
    Caught up in the sweep was 7-year-old Kevin Reyes, an American 
citizen, who was with his family in an apartment on Belvedere Street 
when officers made the arrests, according to his uncle, Rey Reyes.
    ``They put handcuffs on him, he is only 7,'' Reyes said through an 
interpreter.
    At Bahia Vista Elementary School, Principal Juan Rodriguez reported 
two students were separated from their parents because of the raid and 
that 77 children did not come to school, likely out of fear. On a 
typical day, eight to 10 students are absent.
    The sweep was part of a stepped-up Immigration and Custom 
Enforcement program called Operation Return to Sender, which aims to 
arrest people in the country illegally.
    The effort is part of the Department of Homeland Security's plan to 
secure borders and reduce illegal immigration. Since it was launched in 
June 2006, Operation Return to Sender has resulted in more than 18,000 
arrests nationwide.
    The 30 people targeted in the Canal sweep had been ordered 
deported, immigration officials said. They did not say exactly how many 
people were arrested.
    ``These are people who are here illegally,'' said Lori Haley, 
immigration spokeswoman. ``Our first priority is to find these people 
who have ignored their final order of deportation.''
    But if officers incidentally find other illegal immigrants in their 
sweeps, they are arrested as well. Haley said the program ``normally'' 
targets adults, but had no further comment.
    The raid in the Canal was one of many that have occurred throughout 
the country in recent weeks, Haley said.
    Haley wouldn't disclose how many officers were involved in the 
operation, but residents counted as many as 15 green-and-white 
immigration vans. San Rafael police were not involved.
    In the past year, immigration officials have nearly tripled the 
number of fugitive operations teams from 18 to 52 nationwide, and the 
number is expected to grow to 75 by the end of the year. There are now 
two teams in the Bay Area.
    ``This is an ongoing operation,'' Haley said.
    Word of the sweep spread quickly in the close-knit Canal.
    ``Everyone is panicked,'' Hernandez said. ``They do not want to be 
out onto the streets. They do not want to go to their jobs.''
    Tom Wilson, director of Canal Community Alliance, was disturbed.
    ``This is horrible and inhumane treatment,'' he said. ``The fact 
they go in and they take people incidentally is reprehensible at best. 
They used to pick people from the street and now they go right into 
people's homes. Some people were taken out in their boxer shorts into 
the cold without a chance to put clothes on.''
    Rodriguez called the raids ``an emotional type of terror'' that 
separated families and upset the education process at school.
    ``How can the kids take tests?'' Rodriguez asked. ``All they can 
think right now is `will my parents be taken?'
    ``And these children are American citizens.''
                                 ______
                                 

     [From the San Rafael, CA, Independent Journal, March 8, 2007]

            Canal Community Fearful After Immigration Raids

                           By Jennifer Upshaw

    It was around 7 a.m. Wednesday when Fernando Quezada first spotted 
the red Chevrolet Impala with no license plates at the corner of 
Larkspur and Alto streets in San Rafael's Canal neighborhood.
    Snapping pictures of the scene with his digital camera, Quezada, a 
community leader and local business owner, watched as immigration 
officials went to work.
    ``He just walked up to a guy, he didn't ask him any questions, and 
he pulled him out of his truck and hauled him away,'' Quezada said.
    ``He said, `Are you taking pictures of me?''' Quezada recalled 
saying to the immigration official. ``I said, `I'm part of the 
community here and we want to know what's happening. We don't know why 
you're doing this.' He didn't say anything.''
    The incident was part of a flurry of reports surrounding a two-day 
roundup of dozens of Canal area residents by federal Immigration and 
Custom Enforcement officials. The raids, and another one in Novato, are 
part of a stepped-up campaign dubbed Operation Return to Sender to send 
illegal immigrants home.
    ``It is complete chaos in the community,'' said Douglas Mundo, head 
of the Canal Welcome Center, who said he worked until midnight Tuesday 
after he said an estimated 40 people were detained. He returned to pay 
house calls and reopen the center at 5 a.m. Wednesday after just a few 
hours' sleep.
    Many have not left their homes since the raids began, he said. Some 
are without food. Many that called on the Welcome Center--about 50 by 
mid-afternoon Wednesday--were crying, Mundo said.
    ``We feel impotent,'' Mundo said. ``We'd like to do something. What 
can we do?''
    Over at Pickleweed Park Community Center, the halls of the 
typically bustling neighborhood gathering spot were silent.
    ``Everyone is so scared,'' said Jeannette Sotomayor as she staffed 
the reception desk in the silent lobby. ``The center is usually full of 
people.''
    An English-as-a-second-language class with 20 students had two 
participants on Wednesday, she said. One student who takes a computer 
class at the center has a brother who was taken, she said.
    The rack that holds brochures and fliers is normally stocked with 
leaflets about immigrants' rights. On Wednesday it was close to empty.
    Sotomayor is ``mad, frustrated, very frustrated, because there 
isn't anything I can do about it. It's like a feeling like you don't 
belong anywhere. * * * We're not criminals. We're workers.''
    Children are feeling the pressure as well.
    At Kid's Club, an afterschool program run by Catholic Charities 
CYO's Canal Family Support Program, officials said the kids are 
spooked, too.
    ``It's affecting the children a lot,'' afterschool teacher Maria 
Stein said. ``They don't concentrate as well as they usually do.''
    ``What we are trying not to do is add fuel to the fire,'' program 
director Carlos Garcia said. ``They are definitely anxious. They have 
wild imaginations, they probably imagine the worst because of what they 
see on TV. We just try to keep the kids calm.''
    At Bahia Vista School, many of the 76 students absent Tuesday 
returned to the classrooms the next day, leaving only 11 missing, 
Principal Juan Rodriguez said.
    In addition to meeting with the roughly 20 children directly 
affected by the raids, school representatives and community members 
were escorting students from their front doors to the classroom, he 
said.
    ``We continue to believe school is a safe place for them,'' he 
said. ``To me it is inhumane that they would disrupt this educational 
process. It's disturbing their right to get a free and appropriate and 
safe education.''
    Also on Wednesday, city officials told residents at a meeting of 
the Pickleweed Park Advisory Board they and county Supervisor Steve 
Kinsey planned to meet with ICE officials to air the community's 
concerns.
    Mayor Al Boro told a crowd of about 50 that he understood ICE 
officials have a job to do, but he disagreed with the methods they've 
used, such as entering homes early in the morning and creating a 
climate of community fear.
    Many are concerned that Canal residents will mistake federal 
enforcement officials for local officers, shattering years of trust 
both sides have worked to establish.
    ``There is a difference between and ICE officer and a San Rafael 
police officer,'' Boro said.
    City leaders assured residents they were uninvolved in the federal 
deportation dragnets. Police do cooperate with ICE officials on gang 
and white collar crime, city officials said.
    ``Your police department is not going to be picking people up for 
immigration status,'' police Chief Matt Odetto said.
    Resident Alberto Martinez said the children were scared and the 
parents unsure how to comfort them. Concern also was raised about 
leaving children to fend for themselves if a parent is detained.
    ``We are here to hear some comments from you to assure us and make 
them feel safe,'' he said.
    ``I just think people will not stop making noise about this. People 
will be asking tough questions,'' Pamela Torres said.
    She said the community was looking to the city ``to have the 
confidence to say it's OK to our kids. I think you guys should take 
that responsibility very, very seriously and I know you guys will.''
    Snatching people off the street with no word on who they are or 
where they are headed has sent a chill as well, many noted.
    ``That's called disappearing people and it's a dangerous 
approach,'' said longtime Canal resident Dorothy Vesecky, a member of 
the advisory board. ``I'd like to know how many people, their ages and 
who is gone.''
    Resident Olivia Beltran called for a list to establish ``who was 
taken and where they were taken.''
    ``At this moment it's calling to their human side,'' she said of 
federal officials. Halting a process that made people vanish into thin 
air is ``breaking that cycle of our ancestors,'' she said.
    City leaders said they will seek answers.
    ``We will find out who the people are and we'll find out what the 
procedure is to notify the community,'' Boro said of the missing 
residents. ``We will ask these questions.''
                                 ______
                                 

        [From the Marin, CA, Independent Journal, March 8, 2007]

     Second Day of Immigration Raids Includes Novato and San Rafael

                          By Richard Halstead

    Federal immigration officers were back in San Rafael and Novato 
Wednesday to make another round of arrests.
    San Rafael police received a call from Immigration and Customs 
Enforcement, the largest investigative branch of the Department of 
Homeland Security, about 5 a.m. indicating they would be making 
additional arrests, said San Rafael police spokeswoman Margo 
Rohrbacher.
    On Tuesday, ICE agents swept into San Rafael's Canal neighborhood 
at about 5 a.m. and arrested an unspecified number of people--rousting 
some from their homes.
    Novato police Chief Joseph Kreins said his department was tipped by 
ICE that they would be serving arrest warrants in Novato on Wednesday.
    An ICE truck was spotted outside the Marin Square shopping center 
in the Canal between 10:30 and 11 a.m., said Tom Wilson, director of 
Canal Alliance.
    Federal authorities told San Rafael police on Tuesday they had 
warrants to arrest 30 illegal immigrants. ICE also arrests other 
illegal immigrants it identifies in such raids.
    ``We're not releasing daily arrest statistics,'' said Lori Haley, 
an ICE spokeswoman. ``It is an ongoing initiative.''
    The arrests are part of Operation Return to Sender--an initiative 
launched by the Department of Homeland Security in June 2006 to 
identify and arrest immigrants who have been ordered deported. Since 
the operation began, ICE has made more than 18,000 arrests nationwide. 
Two of ICE's 52 national teams are based in the Bay Area.
    Wilson expressed outrage at the way in which some Marin arrests 
have been made. In some cases, ICE agents have arrested whomever is 
residing at the address of an individual they are seeking, Wilson said. 
He said ICE agents have sometimes failed to provide for the care of 
children when their parents were arrested.
    Kevin Reyes, a 7-year-old San Rafael resident who was swept up in 
an ICE raid Tuesday, was later released.
    Rick Oltman of Novato, a longtime advocate of tighter controls on 
immigration, said he was glad to see some enforcement of immigration 
laws but added, ``It would be better if they spent their time on the 
employers. They're the ones that are attracting people.''
    Marin Supervisor Steve Kinsey, whose district includes San Rafael's 
predominantly Latino neighborhood, and Supervisor Judy Arnold, whose 
district encompasses Novato, were bombarded by calls and e-mails from 
concerned constituents.
    Panic caused by the arrests caused many children in the San Rafael 
school system to miss school, which could pose an economic impact on 
San Rafael city schools, Kinsey said. He said he was working with San 
Rafael Mayor Al Boro to arrange a meeting with ICE officials to express 
concerns.
    ``I'm distressed by the reckless manner in which the federal 
government is pursuing its legitimate law enforcement duties,'' Kinsey 
said. ``The collateral damage is showing up everywhere.''
    Supervisor Arnold said she has asked Sen. Dianne Feinstein to find 
out ``what protocol if any there is for these raids.''
    Haley, the ICE spokeswoman, said people can obtain information 
regarding family members who have been taken into custody by calling 
844-5526. Haley said the information is provided in written form at 
arrest sites.
    But Kinsey said he has been getting a different story from 
constituents.
    ``We're hearing no information is being left at the houses,'' 
Kinsey said. And if family members lacking adequate documentation go to 
the Santa Clara facility where the ICE prisoners are taken, those 
family members are taken into custody, he said.
    On Wednesday, Ron Rentner and Pamela Griffith-Pond, pastors at the 
All Saints Lutheran Church in Novato, distributed brochures outlining 
immigrants' legal rights to restaurants and markets frequented by the 
Latino community in Novato.
    ``There are a number of people who are interested in making sure 
that people at least know their rights,'' Rentner said.
    The handouts explain that people do not have to let immigration 
agents or police officers into their homes unless they have a search 
warrant, and anyone who is arrested may refuse to answer questions 
until they've had a chance to talk to a lawyer.
    ``But when you're cornered and there is somebody big and powerful 
yelling at you, it's very, very difficult to maintain your right to 
remain silent,'' said Margo Dunlap, executive director of the 
International Institute of San Francisco, which serves immigrant and 
refugee families.
                                 ______
                                 

        [From the Marin, CA, Independent Journal, March 8, 2007]

                    Fate of Detained Becomes Clearer

                          By Richard Halstead

    Some of the undocumented immigrants arrested in San Rafael and 
Novato this week may have been deported the same day, a federal 
immigration official said Thursday.
    As federal immigration officers returned to San Rafael for a third 
consecutive day Thursday, the picture of what happens to the people 
they arrest became clearer.
    Police were notified that Immigration and Customs Enforcement 
agents would be making arrests near the downtown area of San Rafael on 
C Street between 7 and 8 a.m., said police spokeswoman Margo 
Rohrbacher.
    Novato police Chief Joseph Kreins said he was not contacted by ICE 
Thursday and knew of no arrests in Novato since Wednesday.
    ICE is the largest investigative branch of the Department of 
Homeland Security. The arrests are part of Operation Return to Sender--
an ambitious initiative launched by the Department of Homeland Security 
in June 2006 to identify and arrest undocumented immigrants who have 
been ordered deported.
    ICE officials have declined to say how many people have been 
arrested in Marin since the organization began its raids on Tuesday. 
ICE told San Rafael police on Tuesday that it had warrants to arrest 30 
undocumented immigrants. It is difficult to say how many people have 
been detained because ICE also arrests other undocumented immigrants it 
identifies in such raids.
    Between Oct. 1, 2006, and Jan. 26, ICE arrested 838 undocumented 
immigrants in Northern and Central California, ICE spokeswoman Lori 
Haley said. More than a third of them, 338, were taken into custody in 
the process of pursuing the other 500, whom a judge had ordered to be 
deported. Since Operation Return to Sender began, ICE has made more 
than 18,000 arrests nationwide.
    On Thursday, Haley provided some information about what happens to 
people after they are arrested. All those apprehended initially are 
taken to ICE's facility at 630 Sansome St. in San Francisco for 
processing. After that, Haley said, the procedure differs depending on 
whether a judge has previously ordered the arrested immigrant be 
deported.
    If there is no deportation order pending against the individual, 
ICE offers the person the choice of signing an agreement that commits 
them to leaving the country voluntarily. Once they sign the agreement, 
they are released.
    Haley said, ``A lot of people take voluntary departure so they can 
legally (re-enter) the country if they so choose. It's not a 
deportation.''
    But immigrant advocates take a different view.
    ``My understanding is that people are being offered things to sign 
that are basically giving up all of their rights, period. It could 
affect their immigration status in the future,'' said Paul Cohen, 
executive director of Legal Aid of Marin.
    ``Many times, they intimidate people into signing these voluntary 
departure agreements,'' said Evelyn Sanchez, a spokeswoman for the Bay 
Area Immigration Rights Coalition in Oakland. ``What they're doing is 
expediting the deportation of immigrants without any due process 
procedures whatsoever.''
    If the arrested immigrant has an outstanding deportation order or a 
criminal conviction, they are typically kept at nearby county jails 
while they await deportation or further judicial review. Sanchez said 
anyone arrested should receive a new hearing because their residency 
status may have changed since the deportation order was issued.
    Haley, however, said these people have already received due 
process. Jails that have been used include the Santa Clara County Jail, 
the Santa Rita County Jail in Dublin and the Yuba County Jail in 
Marysville, Haley said. Family members of those arrested can call 844-
5526 to find out where their loved ones have been sent. But some 
immigrants are jailed farther away.
    But some immigrants are jailed farther away. Some are sent to an 
ICE facility in Eloy, Ariz., Sanchez said.
    ``That is literally the layover before you get deported to your 
country of origin,'' Sanchez said.
    ``People can be sent to any of our facilities if they're being held 
in custody, anywhere in the country,'' Haley said. ``It depends on bed 
space.''
    Haley said ICE has detention facilities in Texas and Arizona where 
families, including children, are housed together.
    ``In some cases, if there is a deportation order pending against an 
immigrant, the person is transported out of the country the same day 
they are arrested,'' Haley said.
    ``Many times, Mexican immigrants are bused to the border,'' Haley 
said. ``They can also be taken by plane. We have planes that go to 
various places. It isn't just to the southern border. People are 
deported back to countries all over the world.''
                                 ______
                                 

     [From the San Rafael, CA, Independent Journal, March 9, 2007]

                    Immigration Raids Handled Poorly

    The Heavyhanded tactics used by federal immigration agents in Marin 
this week simply were not appropriate.
    Federal officers, armed with 30 arrest warrants and a fleet of 
green-and-white immigration vans, swept through the Canal area of San 
Rafael early Tuesday and Wednesday mornings. More arrests were made in 
Novato.
    Federal officers, as part of Operation Return to Sender, used those 
warrants to arrest illegal immigrants who have been ordered deported. 
There have been 18,000 such arrests nationwide since June.
    The illegal immigrants named on the warrants were arrested in 
houses and apartments--along with any others suspected of being in this 
country illegally. In San Rafael, those put in handcuffs and taken away 
apparently included a 7-year-old boy who is a U.S. citizen.
    Local activists have expressed outrage at what they viewed as 
unacceptably harsh tactics.
    They have reason to be angry.
    The immigration raids have created a climate of fear in the Canal 
neighborhood. This is wrong.
    San Rafael officials have worked hard over the past several years--
including building a new Pickleweed Park Community Center--to earn the 
trust of the densely populated neighborhood that many immigrants call 
home.
    City leaders are justifiably fearful that these raids, which they 
had nothing to do with, will make Canal residents wary of all 
officials, including local police officers.
    That will make it harder for cops to control and solve crime and 
make it easier for
    Canal residents to be victims.
    San Rafael officials, including Mayor Al Boro and Police Chief Matt 
Odetto, met with residents and activists Wednesday night at the 
Pickleweed center to reassure them that the city had nothing to do with 
the raids.
    At Bahia Vista Elementary School, where many Canal children attend, 
76 students were absent Tuesday, compared with eight to 10 on a typical 
day. Two students had parents swept up in the raids. The school's 
principal worried about the palpable sense of fear among the children.
    The raids achieved one goal: Illegal immigrants who had been 
ordered deported were taken into custody. Federal officials, however, 
have declined to tell the IJ how many arrests were made, saying that 
daily totals are not being released.
    Marin residents deserve to know how many people were detained. 
Refusing to release such basic information just adds to the cloak of 
secrecy that has surrounded these sweeps. It is understandable why 
residents of the Canal and other parts of Marin, even those who are 
U.S. citizens, are afraid.
    Immigration and Customs Enforcement officials, who are part of the 
Department of Homeland Security, say the sweeps are necessary to find 
people who are here illegally and who have ignored their final 
deportation orders.
    We agree that those who are here illegally and have ignored their 
final deportation orders should be arrested and face the consequences. 
That's the law.
    We simply don't think it was necessary to deliberately terrorize an 
entire neighborhood and disrupt the lives of so many Marin families to 
arrest a small number of people, including a small boy who happens to 
be an American citizen.
    Illegal immigration is a difficult and divisive issue facing this 
country. These kinds of raids do nothing to create any consensus.
                                 ______
                                 

     [From the San Rafael, CA, Independent Journal, March 9, 2007]

                  Immigration Raids Draw Dawn Protest

                             By Jim Staats

    About 75 community members and clergy leaders clogged San Rafael's 
Canal district sidewalks at dawn Friday to offer solidarity for the 
community--with plans to continue morning protests until the 
immigration raids which began this week are stopped.
    Protesters gathered at the Country Club Bowling Alley on Vivian 
Street at 5 a.m. Friday, many with candles in hand, and dispersed to 
various intersections throughout the neighborhood for a three-hour 
morning vigil in support of immigrants in the Canal neighborhood.
    Marinwood resident Bob Owen, 67, who arrived at 5 a.m. with his 
wife Jill, said he was moved by the stories he heard from talking with 
people who live in the Canal area.
    ``A woman who has a child here was crying as she told me about what 
has been going on,'' he said. ``It's been so terrible for them. They're 
afraid to go to school, to the store. They're being told not to answer 
the door. I'm here out of a feeling of solidarity.''
    ``We know people have been feeling afraid and we want them to know 
they're not alone,'' said Jill Owen, 63.
    Agents from the Immigration and Customs Enforcement, the largest 
investigative branch of the Department of Homeland Security, have swept 
into the Canal neighborhood in the early morning hours this week and 
arrested an unspecified number of people, many rousted from their 
homes, as part of a stepped-up campaign dubbed Operation Return to 
Sender to send illegal immigrants out of the country.
    The Rev. Carol Hovis, executive director of the Marin Interfaith 
Council, which organized the protest, said the early-morning arrival 
was timed to meet the early-morning raids by officials of the 
Immigration and Customers Enforcement.
    ``We wanted to be here to say to the children and families it's 
safe,'' she said.
    Marjorie Delgadillo, 23, a counselor at the Marin Childcare Council 
in San Rafael and Petaluma resident, arrived at 5 a.m. to show her 
support for community members with whom she lived shortly after 
arriving from Nicaragua at the age of 5.
    ``I feel that it could have easily been me,'' said Delgadillo, who 
earned her residency at the age of 16. ``I could have been one of the 
residents of the Canal who went through this horrible ordeal. It just 
hit so close to home for me. I'm a kid from the neighborhood.''
    Though raids have also taken place in Novato this week, Hovis said 
protesters came to the Canal ``because this neighborhood is such a 
close-knit neighborhood.
    ``It means a lot but it also means this has become a target,'' she 
said.
    The protesters who planned to remain through 8:30 a.m. did not see 
any immigration officials arrive on Friday.
    Hovis said they will return at 5 a.m. every weekday morning next 
week.
    As people congregated below on the sidewalks of the Medway Drive 
and Canal Street intersection, residents in surrounding apartment 
buildings peered down from their balconies and the occasional driver 
tooted a horn in support.
    The Rev. Julianne Stokstad, pastor of the First Congregational 
Church in San Rafael, stood on the sidewalk with candle in hand and 
fully adorned in her religious garments.
    ``I understand our laws but the methods are wrong,'' she said. ``I 
don't approve of the methods used particularly with the children. I'm 
here to show my solidarity and support.''
    Julie Long, owner of Bellam Produce Market at the corner of Bellam 
Boulevard and Belvedere Street, said the raids have created a ghost 
town out of the neighborhood and dropped her daily sales from $3,000 a 
day to about $700.
    ``I've been here 10 years and it's the worst I've ever seen it,'' 
she said. ``It's pretty scary. There's nobody on the streets and I 
don't have one single person in my store right now.''
    ``This is just the beginning,'' said Sister Marion Irvine, of the 
Dominican Convent in San Rafael. ``We're going to be here until ICE 
decides this is not the place to be.''
                                 ______
                                 

     [From the San Rafael, CA, Independent Journal, March 13, 2007]

              March and Rally Draw Hundreds in San Rafael

                           By Jennifer Upshaw

    Hundreds of protesters chanting slogans in Spanish filled the 
streets of San Rafael on Monday before attending a community gathering 
that served as a rallying cry against recent immigration raids in 
Marin.
    More than 200 people gathered at St. Raphael's church on Fifth 
Avenue for the march to Pickleweed Park Community Center, where more 
than 500 packed a hall to hear from elected leaders, activists and 
community leaders.
    ``I can't believe they're here now, in 2007,'' said Tom Wilson, 
Canal Alliance executive director, moments before the march began. 
``Having this kind of demonstration, I thought we were way beyond this. 
It's something you would expect from a third-world country.''
    Federal Immigration and Customs Enforcement agents conducted a 
series of raids in San Rafael last week, as well as one in Novato. No 
raids were reported over the weekend, Wilson said. The arrests are part 
of Operation Return to Sender--an initiative launched by the Department 
of Homeland Security in June 2006 to identify and arrest undocumented 
immigrants who have been ordered deported.
    Immigration officials have not released how many people have been 
detained since the raids in Marin began, saying such data is not broken 
down by county.
    ``Our ICE officers are sworn to enforce immigration laws,'' ICE 
spokeswoman Lori Haley said. ``They're doing their jobs.''
    ``I don't get it. I'm really old, and I still don't get it,'' said 
Woodacre resident Veta Jacqulin, 70, who participated in the march. ``I 
think if we have laws I don't understand in the first place, there's a 
better way to carry them out.
    ``I'm sad,'' she said. ``It hurts my heart what we do.''
    ``The fact that the children are scared, that parents are afraid to 
leave their homes--I feel kind of mad about it, also sad at the same 
time. They're too scared to go back home; they're too scared to go to 
school,'' said Rebecca Coleiro, 17, a senior at San Rafael High School 
who lives in the Canal.
    ``It's sad. I'm very sad,'' said Isabella Mendoza, a Spanish 
teacher at Terra Linda High School. Pointing to her placard, which 
read: ``Take our papers, not our families.''
    ``The sign, it breaks my heart,'' Mendoza said.
    San Rafael resident Edith Yates carried as many signs and placards 
as she could hold. A native of Mexico who immigrated 17 years ago, 
Yates said she wanted the legal process for those detained to move more 
quickly.
    ``We are immigrants,'' she said. ``We have feelings.''
    Lead at times by a young man waving an American flag, the throng of 
marchers was greeted with occasional honks and waves, even from 
motorists traveling on the freeway as the group moved down East 
Francisco Boulevard.
    Police maintained a subtle presence on the periphery: A California 
Highway Patrol helicopter hovered above, following the group during the 
roughly 2.3-mile journey. Once in the neighborhood, marchers were 
observed by many dozen residents, many of whom watched the display from 
balconies with children in their arms.
    ``It feels so good that you're with your people,'' Luis Mejia, 15, 
a student at San Rafael High School, said as he cooled down at 
Pickleweed after marching in the record heat. ``We're hoping President 
Bush will get the message and give us papers so we have the same 
rights.''
    The marchers were joined by hundreds more demonstrators at a 
community meeting Monday evening.
    News photographers were kept out, barred from taking photographs 
during the public event.
    Dignitaries, some of whom participated in the march, included 
Assemblyman Jared Huffman, D-San Rafael; county schools chief Mary Jane 
Burke; Marin Community Foundation President Thomas Peters; county 
Supervisor Steve Kinsey; author Isabel Allende; Mayor Al Boro; Vice 
Mayor Paul Cohen; and City Manager Ken Nordhoff.
    Organizers urged people to send letters to their senator. Sign-up 
sheets on the walls solicited people's help with public relations, 
crisis management, legal assistance and other issues stemming from the 
raids.
    Many elected leaders took to the podium to calm fears and empower 
the community.
    ``The city of San Rafael has no control over what (ICE) does,'' 
Boro said. ``The city of San Rafael will not enforce immigration 
laws.''
    The crowd, wildly energized at times, broke into frequent applause 
and chanted ``si se puede,'' or ``yes we can,'' several times during 
the program.
    ``I've just driven almost 100 miles from Sacramento to be with 
you,'' Huffman said. ``I would have driven another 100 miles to show my 
support for this community and my outrage at the tactics being used to 
enforce our immigration laws.
    ``You don't enforce the laws by sending armed agents into our homes 
to terrorize our community,'' he said.
    Kinsey said that, as sad as the situation was, he was proud the 
events united the community.
    ``We will make change happen,'' he said.
    Author Allende recalled her experience immigrating from Chile.
    ``I lived in fear,'' she said.
    Still, her message was upbeat, urging Canal residents to continue 
to tell their stories.
    Despite the recent raids, Allende said ``the U.S. is still the land 
of opportunity.''
    ``Each one of you is a treasure,'' she said.
Meeting
    A youth forum aimed at hearing from children and youth on the 
recent immigration raids is at 4 p.m. Wednesday at the Marin Youth 
Center at 1115 Third St. in San Rafael.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


     [From the San Rafael, CA, Independent Journal, March 15, 2007]

    65 Arrested, 23 Deported in Raids, North Bay Congresswoman Says

                           By Jennifer Upshaw

    Immigration agents arrested 65 people and deported 23 in raids 
conducted last week in San Rafael and Novato, congressional officials 
said Thursday.
    An aide in Rep. Lynn Woolsey's office met with U.S. Immigration and 
Customs Enforcement officials, who released the figures at her request, 
spokesman Chris Shields said.
    It was not clear if a list of those detained and their locations 
would be forthcoming, he said.
    ``I know she's asked for it, I don't know if she's received it,'' 
Shields said.
    Last week, federal officials conducted a series of raids in San 
Rafael, and one in Novato as part of a national crackdown dubbed 
Operation Return to Sender, which aims to send illegal immigrants home.
    ``I wish I could trust it,'' Canal Alliance Executive Director Tom 
Wilson said of the figures. ``The way they've been operating, the way 
they've been holding back information and the way they've been refusing 
to give information to elected officials up to this moment--I don't 
trust it.
    ``For every one they picked up, 12 are not named on the warrant. 
That means it's more about people not named in the warrant,'' he said. 
``That's really scary--that tells me they're just using the warrant as 
a way to get in a door into a house.''
    An ICE spokeswoman did not return a call seeking comment.
    Raid proponents said the actions are legal and justified.
    ``The numbers aren't the issue--it's the activity, it's the arrests 
that are important,'' said Novato resident Rick Oltman, spokesman for 
Santa Barbara-based Californians for Population Stabilization.
    He said he has heard a lot of rhetorical remarks, such as an 
assertion by Supervisor Charles McGlashan during a public hearing 
Tuesday that likened ICE enforcement actions to tactics used in Nazi 
Germany in the 1930s.
    ``It's bad enough that community activists need to sensationalize 
legitimate law enforcement by comparing it to the death squads, but 
when public officials compare law enforcement officers to Nazis, this 
is just pure sensationalism,'' Oltman said. ``This is a legitimate law 
enforcement operation. It leaves me speechless that elected officials 
would be so ill-informed.
    ``It's really unbelievable how far we have sunk,'' he said.
                                 ______
                                 

     [From the San Rafael, CA, Independent Journal, April 5, 2007]

          Civic Leaders Prepare for Likelihood of Future Raids

                            By Tad Whitaker

    Top managers from San Rafael's city government and schools held an 
informal meeting this week to discuss ways to win back the trust of 
Hispanic families and limit the strain on children during future 
immigration raids.
    Ideas discussed by Mayor Al Boro, San Rafael schools Superintendent 
Laura Alvarenga and close to a dozen others included creating a 
campaign that would help parents set up notarized guardians who could 
be responsible for children if their parents are deported.
    Although local officials can't prevent future raids, several said 
they had an obligation to help children--legal or not--before the next 
round.
    ``It's like a terrorist attack,'' said Greg Knell, president of the 
San Rafael Board of Education. ``It's not if, it's when.''
    Federal agents with Immigration and Customs Enforcement conducted 
raids targeting illegal aliens in Marin beginning at 5 a.m. March 6 and 
7. They arrested 65 people and deported 23 from San Rafael and Novato.
    Local school attendance suffered and school officials said the 
raids came at a particularly bad time, because officials were 
administering standardized tests that week.
    At Bahia Vista Elementary School in San Rafael, 79 students skipped 
school one day, compared with the usual 10 or so on a normal day. At 
Laurel Dell Elementary, 25 out of 150 students were absent.
    ``When these types of things are going on, it's hard to take tests 
and study,'' Knell said.
    Others who attended Wednesday's meeting included City Manager
    Ken Nordhoff, Police Chief Matt Odetto, Associate Superintendent 
Becky Rosales, schools trustee and city planner Linda Jackson, and 
representatives from the Pickleweed Park Community Center.
    Cindy Fox, director of Pickleweed Children's Center, said the two 
most important developments were creating the notarized guardian 
program and helping undocumented parents obtain passports for their 
children. She said children whose parents are deported can't leave the 
country without a passport and they can't obtain one without parents.
    ``It's pretty important,'' she said.
    San Rafael spokeswoman Lydia Romero said the city has a particular 
need to rebuild the image of the police department among Hispanics.
    She said city leaders are considering school tours by police 
officers who could explain they did not cause the raids or participate 
in them. As part of the tours, officers would also show students how 
their uniforms and cars differ from those worn by federal agents.
    ``Nobody knows who to trust anymore,'' Romero said.
                                 ______
                                 

     [From the San Rafael, CA, Independent Journal, April 26, 2007]

           ACLU Sues Over Seizure of Boy in Immigration Raid

                             By Mark Prado

    San Francisco--The American Civil Liberties Union filed a lawsuit 
Thursday on behalf of a 7-year-old San Rafael boy who was taken from 
his bed as part of an early-morning Immigration and Custom Enforcement 
sweep of the Canal neighborhood last month.
    The father of Kebin Reyes said Thursday that Kebin, an American 
citizen born in Greenbrae, has nightmares from the incident.
    ``Kebin is still showing signs of trauma,'' Noe Reyes said through 
an interpreter at a press conference at ACLU offices. ``He always needs 
to be next to his dad or another adult.
    ``What I want is justice so this doesn't happen to any other 
child.''
    In its suit, the ACLU alleges Nancy Alcantar, the U.S. Immigration 
and Customs Enforcement (ICE) San Francisco field office director, and 
officers under her command violated the boy's constitutional rights.
    The suit, filed in U.S. District Court in San Francisco, 
specifically cites the Fourth and Fifth amendments, the right to be 
secure in one's home against unreasonable search and seizure, and that 
no person shall be deprived of liberty without due process.
    ACLU attorneys allege the federal government did not have a search 
warrant for the boy's home. But an ICE spokeswoman said warrants are 
obtained for all arrests.
    Armed with dozens of arrest warrants, federal immigration officers 
swept into the Canal neighborhood in San Rafael at dawn March 6 and 
arrested illegal immigrants.
    Caught up in the sweep was Kebin, who was with his family in an 
apartment on Belvedere Street when officers made the arrests. Agents 
were targeting Noe Reyes, who was in the United States illegally from 
Guatemala and had been ordered deported in 2000, according to ICE.
    Noe Reyes gave the ICE agents his son's U.S. passport identifying 
Kebin as a U.S. citizen, according to the ACLU. An ICE agent then told 
Noe to wake up his son, saying they would take them in for only an hour 
or two. Noe Reyes asked several times to make a phone call to arrange 
for a family member or family friend to care for Kebin. Each of the 
requests was denied, and Kebin was forced to watch as his father was 
handcuffed and taken away.
    Immigration officers then told Kebin to place his own arms behind 
his back, like his father's, but he was not put in handcuffs. The pair 
were taken to San Francisco, according to the ACLU.
    ICE officials said they took Kebin to San Francisco for his well 
being until a relative could pick him up.
    ``He was not arrested,'' said Lori Haley, immigration spokeswoman. 
``We didn't want to leave that little boy alone.''
    The agency's policy on dealing with children is to allow the adult 
being detained to make arrangements for the minor's care. If that's not 
possible, the arresting officer's supervisor makes arrangements that 
vary according to the situation.
    At the ICE processing center in San Francisco, additional requests 
to make a phone call were denied, and the boy and his father were 
placed in a locked room for about 10 hours and given bread and water, 
according to the ACLU.
    Kebin was released that evening after his uncle learned about the 
incident from neighbors. The uncle had to wait several hours before 
Kebin was finally released, ACLU attorneys said.
    ``ICE's treatment of children is not in line with American values 
of decency and fairness,'' said Julia Harumi Mass, staff attorney with 
the ACLU. ``In addition to Kebin's case, we have heard reports of 
children left without care after their parents are detained, 
immigration agents targeting areas around elementary schools, and 
children too upset to participate in class after witnessing early-
morning raids in their communities. The human cost of these tactics is 
unacceptable.''
    The suit seeks unspecified damages, and would require federal 
immigration officials to develop a policy on caring for children they 
might find during enforcement so cases like Kebin's aren't repeated, 
attorneys said.
    The sweep was part of a stepped-up Immigration and Custom 
Enforcement program called Operation Return to Sender, which aims to 
arrest people in the country illegally.
    Immigration attorneys and others said Kebin's case is the most 
serious example of how children are being harmed by immigration policy.
    About 18,000 people have been detained by this enforcement action 
since it began last year. From Massachusetts to Colorado and 
California, children have been left without their parents when the 
adults were seized, civil rights attorneys said.
    Noe Reyes is dealing with his immigration issue in court and has a 
hearing set for June. Kebin's mother lives outside the country.
    Kebin's citizenship does not give his parents any legal standing as 
residents in the United States, ICE officials said.
    ``Having a child here is a risk people take, and then they are 
faced with decisions,'' Haley said.
                                 ______
                                 
    Chairwoman Woolsey. Mr. Romo.

   STATEMENT OF SIMON ROMO, CHIEF COUNSEL, NEW MEXICO CHILD 
                      PROTECTIVE SERVICES

    Mr. Romo. Chairwoman Woolsey, distinguished members of the 
subcommittee, thank you for allowing me to be here this morning 
testifying on behalf of the children, youth and families of New 
Mexico.
    A little bit of context, from 2000 to 2005, the foreign-
born population grew in New Mexico 28 percent. The national 
average for the same period was approximately 18 percent.
    In New Mexico in 2005, the total population of the State 
was 1,887,200 people. Foreign-born residents numbered 168,000, 
or roughly 9 percent, of whom approximately 115,000, or 6 
percent, were noncitizens. In 2005, only 10.5 percent of the 
foreign-born population of New Mexico was under 18, while more 
than half of that at the time, 53 percent, almost 54 percent, 
was of childbearing age, between the ages of 18 and 44. The 
great majority, almost 80 percent, was of working age.
    Today, of the foreign born in New Mexico, an estimated 40 
to 55,000 are undocumented. The majority of children in New 
Mexico who have noncitizen parents were, themselves, born in 
the United States; and it is therefore likely that the majority 
of children affected by immigration and enforcement operations 
are, in fact, U.S. citizens.
    Children of immigrants are at high risk for entering into 
the child welfare system. They are more likely to live in 
linguistic isolation, live in a single-parent family, have a 
mother with a less than high school education and be 
economically deprived.
    The Children, Youth and Families Department currently has 
18 noncitizen children in protective custody, a figure that has 
remained pretty much constant throughout the past several 
years. The Department has not been able to reliably track 
citizenship status of parents in our data system, but of the 
2,300 children in care in New Mexico, it's estimated that a 
significant number have at least one parent who is not a U.S. 
citizen. Given the high percentage of foreign nationals of 
child-bearing age living in New Mexico, it is unknown how many 
of these children came into care as a result of their parent 
being deported.
    Immigration raids and enforcement activities in New Mexico 
have been documented, though CYFD has not been notified to 
respond, nor have any children come into custody as a direct 
result of these activities. The Department is not informed of 
enforcement operations before they happen, and so is not able 
to respond to children and assess for their safety in a timely 
manner. Instead, relatives, neighbors, friends and community 
agencies have been absorbing the responsibility of caring for 
children left without parents.
    This lack of initial involvement of the State agency 
responsible for assuring the safety, permanency and well-being 
of children places those who were separated from their parents 
at an additional risk of entering into the system later, as 
they are often shuffled around in unstable situations with 
minimal support and minimal resources.
    On November 16, 2007, the Office of Immigration and Customs 
Enforcement in the Department of Homeland Security released 
guidelines for identifying humanitarian concerns among 
administrative arrestees when conducting work site operations. 
The new humanitarian guidelines put into ICE's policies 
regarding notifying appropriate social service agencies of work 
site raids targeting more than 150 employees, but this has had 
a minimum effect on enforcement activities and may not be 
implemented effectively in New Mexico, given that it's 
primarily a rural State.
    The Department has not been contacted before or after any 
work site operations in New Mexico to identify individuals 
requiring assistance, as spelled out in the guidelines.
    Of particular concern to the Department is trauma to 
children. The limitation of the humanitarian guidelines on the 
identification of individuals who have dependent children 
places these children at particular risk. While we have had few 
raids that have detained approximately 20 to 30 immigrants at a 
time, the most common practice that we see by ICE in New Mexico 
is that it's operating on a smaller scale with increased 
presence in homes and on the streets of certain communities 
such as border towns and high population centers in which 
Latino families have been targeted.
    The times when children are most vulnerable to experiencing 
trauma as a result of immigration enforcement operations are 
those when a parent goes to a store and never comes back or 
when parents are taken away from their homes.
    The disruption of a safe holding environment and the 
separation of children from their caretakers can severely and 
permanently damage a child. Traumatic experiences such as these 
frequently lead to further negative relational behavioral and 
educational outcomes. The Department does not generally find 
out about enforcement activities until after the fact; and it 
is, therefore, not able to respond to mitigate the negative 
effects on children.
    In terms of our recommendations, CYFD supports keeping 
immigrant families together if at all possible when there are 
no active signs of abuse or neglect. Immigration enforcement 
operations are inherently traumatic for children, and they need 
support.
    Immigrant enforcement activities are especially problematic 
in the child welfare system when the children are of an 
undocumented worker who is deported is a U.S. citizen. Existing 
ICE guidelines that emphasize keeping families together if the 
parent in question is a sole caretaker or if the child has 
special needs are not being uniformly implemented in New 
Mexico.
    The Department believes that notice of enforcement 
operations should be required in all instances, regardless of 
the size of the employee workforce to avoid causing trauma to 
even one child.
    Thank you very much, Chairwoman Woolsey.
    Chairwoman Woolsey. Thank you very much.
    [The statement of Mr. Romo follows:]

 Prepared Statement of the Simon Romo, Chief Counsel, New Mexico Child 
                          Protective Services

Immigration in New Mexico
    From 2000-2005, the foreign born population grew in New Mexico by 
28.2% (the national average for the same period was 17.9%). In New 
Mexico in 2005, the total population was 1,887,200. Foreign born 
residents numbered 168,640, or 8.9%, of whom 115,119, or 6.1%, were 
noncitizens. In 2005, only 10.6% of the foreign born population in New 
Mexico was under 18,1 while more than halfat that time(53.7%) was of 
childbearing age, between ages 1844, and the great majority (79.1%) was 
of working age (1864).
    Today, of the foreign born in New Mexico, an estimated 40,000 
55,000 are undocumented immigrants. The majority of children in New 
Mexico who have noncitizen parents were themselves born in the U.S. It 
is likely, therefore, that the majority of children affected by 
immigration enforcement operations are U.S. citizens.\1\
    Children of Immigrants Children of immigrants are at high risk for 
entering into the child welfare system. They are more likely to live in 
linguistic isolation, live in a singleparent family, have a mother with 
less than a high school education, and be economically deprived 1. CYFD 
currently has 18 noncitizen children in protective custody, a figure 
that has remained consistent over the past several years.\2\ CYFD has 
not been able to reliably track citizenship status of parents in our 
data system, but of the 2,300 children in care, it is estimated that a 
significant number have at least one parent who is not a US citizen, 
given the high percentage of foreign nationals of childbearing age 
living in New Mexico.\1\ It is unknown how many of these children came 
into care as a result of their parent being deported.
    Lack of CYFD Involvement in Immigration Enforcement Operations in 
New Mexico Immigration raids and enforcement activities in New Mexico 
have been documented, though CYFD has not been notified to respond nor 
have any children come into custody as a direct result of these 
activities.\3\ CYFD is not informed of enforcement operations before 
they happen, and so is not able to respond to children and assess for 
their safety in a timely manner. Instead, relatives, neighbors, 
friends, and community agencies have been absorbing the responsibility 
of caring for children left without parents.\4\ This lack of initial 
involvement of the state agency responsible for assuring the safety, 
permanency and wellbeing of children places those who are separated 
from their parents at an additional risk of entering into the system 
later, as they are often shuffled around unstable situations with 
minimal supports/resources.\5\
    On November 16, 2007, the Office of Immigration and Customs 
Enforcement (ICE) in the Department of Homeland Security released 
Guidelines for Identifying Humanitarian Concerns among Administrative 
Arrestees When Conducting Worksite Enforcement Operations.\6\ The new 
humanitarian guidelines put into ICE's policies regarding notifying 
appropriate social service agencies of worksite raids targeting more 
than 150 employees has a minimal effect on enforcement activities, and 
may not be implemented effectively in New Mexico. CYFD has not been 
contacted before or after any worksite operations in New Mexico to 
identify individuals requiring assistance as spelled out in the 
guidelines.
    Critique of Ice Strategies and Guidelines: Trauma to Children CYFD 
questions the limitation of the humanitarian guidelines to the 
identification of individuals who have dependent children to worksite 
operations targeting the arrest of more than 150 people. The current 
provisions for notice of enforcement activities are largely irrelevant 
to the situation in New Mexico, a rural state whose economy does not 
support large worksites as described in the ICE guidelines. While New 
Mexico has had a few raids that have detained 2030 immigrants at a 
time, the most common practices by ICE here are seen on a smaller scale 
in their increased presence in homes and on the streets of certain 
communities, such as border towns and high population centers, in which 
Latino families have been targeted.
    The times when children are most vulnerable to experiencing trauma 
as a result of immigration enforcement operations are those when a 
parent goes to the store and never comes back, or when parents are 
taken away from their homes. The disruption of a safe holding 
environment and the separation of children from their caregivers can 
severely and permanently damage a child. Traumatic experiences such as 
these frequently lead to further negative relational, behavioral, and 
educational outcomes. CYFD does not generally find out about 
enforcement activities until after the fact, and is therefore not able 
to respond to mitigate the negative effects on children.
    Child welfare agencies do not limit the reports we respond to based 
on the number of children allegedly involved in a case. Whether the 
number of children involved is one or one hundred fifty, every single 
child and every single case are important. The notice of immigrant 
enforcement operations to child welfare agencies should be required in 
all instances regardless of where they take place and regardless of the 
size of the employer workforce to avoid causing trauma to every child.
    State Child Welfare Agency Needs to Respond to Immigration 
Enforcement Activities CYFD is the agency responsible for the safety 
and wellbeing of children in our state. In only one documented case has 
ICE notified CYFD when detaining a parent.8 When children come into 
custody because their parents are detained/deported, the attempt to 
reunify families places a great strain on they system. These 
circumstances frequently involve emergency interventions, emergency 
relative searches, collaboration with foreign government agencies, and 
the use of other placement resources.
    CYFD has also struggled with cases of parents whose children are in 
CYFD custody and are involved in a reunification plan when they are 
deported.\9\ These circumstances significantly delay permanency, demand 
extra staff time and resources to alter the plan, locate the parent and 
transfer services, and makes the transition extremely difficult for 
children and parents.
    CYFD Recommendations CYFD supports keeping immigrant families 
together if at all possible where there are no signs of active abuse/
neglect. Immigration enforcement operations are inherently traumatic 
for children, and they need support. Immigration enforcement activities 
are especially problematic in the child welfare system when the 
children of an undocumented worker who is deported are U.S. Citizens.
    Existing ICE guidelines that emphasize keeping families together if 
the parent in question is the sole caretaker, or if a child has special 
needs, are not being uniformly implemented in New Mexico. CYFD believes 
that notice of enforcement operations should be required in all 
instances regardless of the size of the employer workforce to avoid 
causing trauma to even one child.
    Additional federal monies should be allocated to ensure that state 
welfare agencies have the necessary resources to address the additional 
challenges involved in working with children whose parents may be in 
the U.S. without appropriate documentation.
                                endnotes
    \1\ Immigration in New Mexico. A KID'S COUNT Special Report. 
October 2007.
    \2\ CYFD PS 301 Report, May 2008.
    \3\ There have been several raids documented. Operation ``Return to 
Sender'', conducted from Feb.26-28, 2007, arrested thirty undocumented 
individuals throughout Santa Fe, in workplaces, apartment complexes and 
trailer homes. Only 2 of the detained had criminal charges, one for DUI 
and the other for drug possession (La Voz, 3/2/2007). On September 10, 
2007, ICE raids at the Chaparral schools resulted in 28 people 
deported. Eleven were children taken by Sheriff's deputies and Border 
Patrol (El Paso Times, 9/15/07; Over Raided, Under Sieged. National 
Network for Immigrant and Refugee Rights. January 2008). On December 
10, 2007, ICE raided Proper Foods Inc., in Deming, and arrested 22 
undocumented workers (Las Cruces Sun, 12/12/2007; Over Raided, Under 
Sieged. National Network for Immigrant and Refugee Rights. January 
2008).
    \4\ According to the Religious Order of the Assumption, based in 
Chaparral, on September 10,2007, Francisco Rodriguez and his wife were 
detained and deported by local county law enforcement, and handed over 
to immigration enforcement., forcing them to leave their 5 children 
with a neighbor. (http://www.aclunm.org/PDF/COMPLAINT--FILED--10--17--
07.pdf) The neighbor contacted their church, and a member of their 
congregation took in all five children, who had lived in the U.S. their 
whole lives. The parents signed over guardianship to this congregation 
member so that the children, who were excelling in school, could remain 
together in their community. The guardian started taking the children 
to Juarez to visit their parents, a place unknown to them before then. 
Before long, the two youngest children, who wanted to stay with their 
parents, moved to Mexico, while the older three remained with the 
guardian in Chaparral to continue their studies. When the middle child, 
the 12 year old, began getting into trouble at school and acting out at 
home, the guardian decided he could no longer handle her. She was sent 
to live in Mexico with her parents, and missed the majority of the 
2007-2008 school year. The two oldest children remain with the guardian 
in Chaparral attending school, separated from the rest of their family. 
(Over Raided, Under Siege. National Network for Immigrant and Refugee 
Rights. January 2008)
    \5\ FACTS 466104 Law enforcement gave CYFD custody of a 3-year-old 
US citizen child on April 18, 2008. A passerby had found the child 
walking on the street wearing only a diaper. The child had been staying 
with a paternal aunt, and the home was extremely dirty and possibly 
unsafe for a child. Both of the child's parents had been deported soon 
after the child's birth, and are believed to be in Juarez, though exact 
whereabouts are unknown. The aunt believes the parents were deported 
because they didn't have documentation of residence in the U.S. The 
aunt placed the child with another sister temporarily until the home 
situation was remedied. The family is now receiving In Home Services.
    \6\ The guidelines dictate that prior to conducting a worksite 
enforcement operation targeting the arrest of more than 150 persons, 
ICE should develop a comprehensive plan to identify, at the earliest 
possible point, any individuals arrested on administrative charges who 
may be sole care givers or who have other humanitarian concerns, 
including those with serious medical conditions that require special 
attention, pregnant women, nursing mothers, parents who are the sole 
caretakers of minor children or disabled or seriously ill relatives, 
and parents who are needed to support their spouses in caring for sick 
or special needs children or relatives.
    \7\ Where practical, at the direction of the Assistant Secretary, 
ICE will continue to implement these guidelines in all smaller worksite 
enforcement operations.
    \8\ FACTS 459768 & 459769. Immigration enforcement raided a motel 
and found several adults and 2 children. The children were 1 month and 
6 years old. Several adults were arrested and deported for not having 
documentation in the U.S. One of the adults arrested was the father of 
the baby and uncle to the six year old. The father of the baby reported 
to immigration that the mother was residing in Taos, as well as the 
parents of the 6 year old, and we were able to obtain their contact 
information. Immigration wanted CYFD staff to tell them when the other 
parents arrived in Deming, and when staff refused, they said that they 
would not give CYFD custody of the children. CYFD informed immigration 
that they could keep custody of the children, and they then changed 
their minds and turned over custody of the children to CYFD. The 
children came into custody on a 48 hour hold and were put into foster 
care. The parents, who were in Taos, were contacted and they came to 
Deming the following day to pick up the children.
    \9\ FACTS 404939-Two children came into care in Las Cruces on 
October 12, 2006. Mother was incarcerated at the time the children were 
placed into custody. She had voluntarily placed the children with her 
sister at the time of her incarceration . At time of this report, 
maternal aunt wasn't caring for the children nor meeting the needs of 
the children. The father of the children was incarcerated in Estancia 
due to re-entry into the US. The children's service plan included 
release to the father upon his release from prison. However, upon his 
release from incarceration on June 17, 2007, he was deported to Mexico. 
The case plan had to be altered for the father to be able to work the 
plan from Mexico, and permanency of the children was delayed. The 
father was ordered to move from Tijuana to Juarez so that he could work 
reunification plan with his children. the father is currently working 
successfully with CYFD's counterpart in Mexico, attends treatment 
reviews by phone, contacts his children by phone and the children are 
taken to visit with him at port of entry on weekends.
                                 ______
                                 
    Chairwoman Woolsey. I thank all four of you.
    This has been very informative. I have so many questions I 
don't even where to start, but I will begin, and we might have 
a couple rounds of questions unless we get everything covered 
to the best of our ability.
    First, I would like to ask you, Mr. Acting Deputy Assistant 
Director Spero, is an ICE agent a police officer?
    Mr. Spero. Congresswoman, an ICE agent is--an ICE special 
agent with the Office of Investigations is a criminal 
investigator. We have Federal agents, criminal investigative 
special agents, and we also have deportation officers as well.
    Chairwoman Woolsey. Then, ``knock, knock, knock, police'', 
is that accurate? Or is that calling themselves something that 
they are not?
    Mr. Spero. Congresswoman, in many cases, if an ICE officer 
identifies themselves as police, it's to make the person aware 
that they are law enforcement. In some cases, the person may 
not understand what ICE is, but it's an ICE policy to quickly 
identify themselves as an Immigration and Customs Enforcement 
agent.
    Chairwoman Woolsey. But they really aren't police. Okay.
    Now here is another question. If they have a document for 
somebody that they want to do knock, knock, I came to get so 
and so, and that person is not in the house, in the facility, 
can they pick anybody they want out of that apartment or that 
house and take them with them?
    Mr. Spero. Congresswoman, I was invited to talk to you 
about work site enforcement issues. I believe that if we are 
talking about things that happen outside of the work site, that 
might be something that I would prefer to answer in writing.
    Chairwoman Woolsey. Okay. Well, I would like to hear back 
from you about the fact that if they aren't invited into the 
apartment, into the house, they really have no right to go in, 
if that individual they are looking for is not in there. So we 
can talk about that later.
    Okay, Ms. Murguia, this has to cost--these kinds of actions 
have a huge cost on our communities. I mean, there's no 
question, the costs to our schools, our churches, the faith 
organizations, the foster care system, and to the psychological 
well-being of these young children. Would you like to take more 
time and talk about that?
    Ms. Murgia. Thanks, Chairwoman Woolsey.
    I think, you know, what we highlighted in this report was 
really an effort to document what some of those costs might 
look like. I think it's fair to say that we ought to be looking 
at more data to look at the impacts.
    You can set aside the emotional and mental trauma and 
distress that this causes in the short term. But in the long 
term, you know, there are latent effects on these children that 
I think have to be not only impacting their ability to learn, 
to concentrate, to focus in these school systems. To keep them 
in these systems where something like this has happened is a 
broader social cost.
    But then there are the actual physical and mental costs 
that we see that occur on these children in the short term and 
in the long term and just how disruptive this is to communities 
overall when you have the social safety net of faith-based 
institutions or churches and schools having to pick up the 
pieces when we have come in and seen some of these raids occur.
    I just think it's fair to say you can look at the benefits 
of when you do any sort of enforcement action, but you should 
also look at the cost, and not just the immediate cost of that 
enforcement action, but the broader costs on those communities. 
And there are many, and we have attempted to try to document 
what those costs might be to us as society. But certainly in 
the short term and in the long term, when you see traumatic 
effects not just not on the children and what's in the best 
interests of the children being placed in question, and we 
shouldn't offset one enforcement action certainly with another.
    That's what we saw happening in Iowa, when you had a labor 
enforcement action superseded or trumped by another related 
action. What would have been the better payoff there?
    So there are all kinds of costs, and there are costs and 
benefits. I appreciate trying to weigh those.
    Chairwoman Woolsey. Thank you.
    Ms. Gibney, talk about the cost of assimilating into the 
community after young people and their families have been 
traumatized. What impact does that have on gangs that come 
along later?
    Ms. Gibney. Well, I am not an expert on that, but I do know 
that our students are fearful of gangs, our families are 
fearful of gangs, and that it's a burgeoning presence in the 
Canal community. I can't assure you of this, but I doubt very 
much the gang members were the ones who were seized during 
those raids. I think they are really good at hiding.
    But the children talk to me about parks they can't play in 
or, you know, there's the color issue of the red and the blue 
and that sort of thing. So, really, the element that we deal 
with at our schools are the families that are working hard to 
establish their lives here in this country.
    Chairwoman Woolsey. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you all for being here. I appreciate your 
sincerity.
    Director Spero, from your testimony I understand that ICE 
works with Federal and State agencies and, I would assume, 
County and State DSS, with foster care review boards, family 
courts that may have interest in any enforcement action that 
the agency undertakes. Do you find these diverse agencies are 
cooperative with your efforts? Are there any impediments to 
ensure that each agency is working with you?
    Mr. Spero. Thank you, Congressman.
    We, to every extent possible, we do work with both State 
and, in some cases, local social services as well.
    The majority of our experience has been, our partnership 
and relationship with both the social services and the NGOs, 
has been beneficial. It has helped us get our word out, 
essentially alleviate fears in the community as to what, 
exactly, what the nature of the operation that ICE is 
conducting. So if we are conducting a targeted work site 
enforcement operation, the community can understand that we 
aren't going out into the community and knocking on doors. It 
is a work site enforcement operation.
    Social services, the State governments, have been helpful 
in assisting us in getting those words out, getting that word 
out.
    Mr. Wilson. Additionally, in the instance where an 
individual caught in a sweep is released for humanitarian 
reasons, can you explain what ICE does to ensure the person 
returns for legal processing of their case? Do you have 
statistics on what happens to these individuals?
    Mr. Spero. Congressman, I don't have statistics with me, 
and I think that we would be happy to provide that in writing. 
But, in general, what ICE does is on a case-by-case basis make 
a determination to ensure--a Customs determination to ensure 
that the person will show up for their--any subsequent 
immigration proceedings. That may include releasing an 
individual on their own recognizance or an alternative to 
detention, such as electronic monitoring.
    Mr. Wilson. Do you have any situation where persons could 
be under the care or control of another person?
    Mr. Spero. Such as third-party custodian?
    Mr. Wilson. Yes.
    Mr. Spero. That is typically not one of the conditions that 
we would release someone into. It's a bond determination, 
electronic monitoring or release on their own reconnaissance.
    Mr. Wilson. How common is electronic monitoring?
    Mr. Spero. It is fairly common. I think that that would 
actually be maybe a better question for my colleagues on our 
deportation side, and we would be happy to provide that in 
writing.
    Mr. Wilson. With the advances in technology, it's very 
unobtrusive. I have seen it work for other issues. It's 
respectful of people but also understanding that we have laws 
that should be enforced or can be enforced. So I am actually 
happy to hear there is an effort at electronic monitoring.
    With the technology and GPS technology we have today--it's 
phenomenal--it can be done, being respectful of a person's 
rights but yet not making a mockery of notice of appearance to 
return?
    Mr. Spero. That is correct, Congressman. One thing that I 
can say with certainty is that we are increasing our capacity 
to use the alternative to detention such as the electronic 
monitoring.
    Mr. Wilson. Can you outline again what ICE considers an 
humanitarian exception for detainment? Are there instances 
where this would not be honored, for example, if the detainee 
was also found to have committed crimes other than the 
immigration violations for which they have been retained?
    Mr. Spero. Some circumstances would be if the individual 
has a criminal history that would affect or have an impact on 
our custody determination. In other instances, the individual 
may not be arrested solely for administrative immigration 
charges, but for Federal felony violations as well.
    Mr. Wilson. I yield back the balance of my time.
    Chairwoman Woolsey. Mr. Hare.
    Mr. Hare. Thank you, Madam Chair.
    Mr. Spero, just a couple of things maybe you can clear up 
for me. I have heard stories of ICE vans being parked outside 
of schools and ICE agents entering Head Start facilities. I 
also have heard of two cases last year, one in Ohio and one in 
Tucson, where agents went on campuses to remove specific 
students. I am troubled by the idea that these children might 
be used as bait to capture parents who are undocumented and the 
intimidation that ICE presence on school campuses causes.
    What is the ICE's policy regarding agents entering schools?
    Mr. Spero. ICE has issued guidance to remind our field 
offices to remind our agents that schools are considered 
sensitive institutions, as are other institutions; and to 
whatever extent possible, if an agent is to go to a school, 
that they brief up their chain of command and get concurrence 
from senior field leadership.
    I have also heard recently about events where potentially 
agents were staking out schools or performing surveillance on 
schools, and for the most part, we weren't necessarily able to 
track that back or lend any validity to it.
    One of the things I will tell you, when we are conducting 
surveillance, for the most part we are trying to be covert, 
like any other law enforcement agency. So we wouldn't or 
shouldn't be, necessarily, in any kind of marked vehicles. The 
majority of our vehicles, both in the Office of Investigations 
and our Deportation Section, are unmarked.
    Mr. Hare. So you are not aware of any ICE agents entering 
any Head Start facilities?
    Mr. Spero. I am not aware of any ICE agents entering a Head 
Start facility. That's correct, I'm not aware of that, 
Congressman.
    Mr. Hare. Given the high number of mixed families across 
the United States, how do ICE agents make sure that they don't 
apprehend children who are actually U.S. Citizens or permanent 
residents or in lawful status?
    When agents raid a home, let's say during predawn hours, 
how do you determine the child's status? Do you demand birth 
certificates, naturalization certificates, or other 
documentation? And what happens if the parent can't locate or 
produce the documentation? Do they presume the children have 
unlawful status and apprehend them?
    Mr. Spero. ICE has several different ways to attempt to 
determine alien or immigration status of adults and children. 
Some of them are on direct questioning, and others are 
reviewing case files or alien registration files.
    For the most part, if someone does claim to be a U.S. 
citizen, the ICE officer in the field would make every effort 
to determine the validity of that claim; and sometimes it is 
also done with the help of consular officers from their home 
country.
    Mr. Hare. Ms. Gibney, what are the lasting effects on the 
emotional well-being and academic performance of the kids in 
your school now, 1 year after the San Rafael raid?
    Ms. Gibney. Well, I would say that it is a very heavy 
presence in our school, both for staff and children and 
families.
    One of the things that families most want help with is 
immigration status, support around that, among many other 
things they want to help their children with. And it is really 
difficult to ascertain in numbers and percentages exactly how 
profoundly our children are affected because they verbalize a 
lot of fear and concern on a regular basis. So what we do is 
give them the opportunity to speak with a counselor, with 
teachers, to write about their fears, draw about their fears, 
but try to keep them focused on academics at the same time.
    Mr. Hare. Mr. Romo, what sort of impact do these raids have 
on the community at large? What could we be doing differently?
    Mr. Romo. There is a State senator from Dona Ana County, 
which is a border county in southern New Mexico, who in 
November of last year, when asked that question, expressed her 
concern for the fear of communities being terrorized by raids. 
There was a raid in an adjacent county, in Chaparral, which I 
have footnoted in my testimony to the subcommittee. The long-
lasting impact of this, from what we are learning from the 
brain science on child development, can be extremely traumatic. 
It is a basis for post-traumatic stress disorder; the residue, 
if you will, the silent little bombs that go off as children 
develop and reach varying developmental milestones can be 
extremely traumatic and contribute to all kinds of relational 
problems--that impact, not just on children, but the impact on 
families and the impact on communities, the fear, the distrust, 
the failure to reach out for help and the failure to achieve 
potential, the failure to integrate.
    The reality is, particularly in border areas, in New 
Mexico, for example, the integration of individuals into their 
communities is highly dependent on their willingness and 
ability to trust, and reach out for help when they need it and 
be able to maximize their contributions.
    So these kinds of activities are extremely problematic, 
particularly when we have 60 percent of the children being 
American citizens, to have their parents removed. One of the 
things that we have learned in child protective services, when 
we have parents arrested or incarcerated for any period of 
time, children need to see their parents. The fact that they 
are told that they are okay isinsufficient. They need to see 
them, and when you remove a parent from the life of a child and 
you leave the child wondering, and you set off these little 
bombs that will go on throughout their development and into 
their adulthood, we are creating very problematic situations in 
our communities, not just in our border areas, but throughout 
the State and, I believe, throughout the country.
    This is extremely problematic policy enforcement, if we are 
looking at it solely from an enforcement standpoint.
    Mr. Hare. Thank you.
    Chairwoman Woolsey. Mr. Kline.
    Mr. Kline. Thank you, Madam Chair, and ladies and gentlemen 
for being here and for your testimony and for your patience.
    Director Spero, I noticed that Ms. Gibney was somewhat 
alarmed that ICE agents would show up suddenly and without 
warning. ICE agents are law enforcement officers, right, trying 
to enforce the law?
    Mr. Spero. That is correct, Congressman.
    Mr. Kline. I am trying to think of a case where law 
enforcement officers wouldn't show up suddenly and without 
warning, and it doesn't come to me.
    If we could go to the May 12 raid in Iowa, I believe you 
said, Director, you gave a number of 389 arrests?
    Mr. Spero. That's correct, 389 administrative arrests.
    Mr. Kline. And of those, 304 were criminal violations, that 
is, violation of immigration law or other laws? What is in that 
304?
    Mr. Spero. The 304 individuals were charged with criminal 
Federal violations in the Northern District of Iowa, with 
various felonies, such as aggravated identity theft and 
possession of fraudulent documents.
    Mr. Kline. I see. And 85, presumably, then, were properly 
documented?
    Mr. Spero. I'm sorry?
    Mr. Kline. I'm going to get the numbers. There were 389 
administrative arrests; 304 were criminal violations and 85 
presumably had correct documentation?
    Mr. Spero. I'm sorry, the other 85 were arrested solely on 
immigration administrative violations. They were either 
presented and not accepted for lack of evidence to the U.S. 
attorney for Federal criminal prosecution or released on 
humanitarian--with humanitarian issues.
    So they were arrested. They did not have proper 
documentation, and were arrested for being illegally in the 
United States.
    Mr. Kline. Okay. I think I understand.
    In that raid there were 62 released for humanitarian 
purposes. So again I just want to understand the process 
because what this hearing is about is ICE workplace raids and 
their impact on children and families and communities. We are 
focusing on the workplace raid.
    In this workplace raid you made 389 administrative arrests; 
304 had criminal violations and 62 were released for 
humanitarian purposes. And so your agents talked to each of the 
389 to make these determinations, as to which would be released 
for humanitarian purposes?
    Mr. Spero. That's correct. On no less than three 
occasions--well, on one occasion, our agents would speak to the 
aliens to determine if there were any humanitarian concerns. We 
had also--Public Health Services as well asking humanitarian 
screening questions. So that totaled--on three separate 
occasions we attempted to ascertain any humanitarian concerns, 
including sole-caregiver issues.
    Mr. Kline. Thank you.
    The La Raza study is highly critical of ICE not making 
public guidelines and procedures related to workplace raids. 
Why don't you? Is there a concern that these documents would 
prejudice other or compromise future operations?
    Mr. Spero. The guidance itself is public. But as far as 
making prenotifications to the public prior to conducting any 
enforcement operation, it would potentially cause fear in the 
community, and it would certainly be a danger to our officers.
    Mr. Kline. I see.
    Thank you, Madam Chair. I yield back the balance of my 
time.
    Chairwoman Woolsey. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you, Madam Chair. I appreciate the 
opportunity to be here, and I want to thank our witnesses.
    Mr. Spero, over 300 workers were arrested in one form or 
another at the raid at Agriprocessors?
    Mr. Spero. 389, yes.
    Mr. Bishop. How many owners or people associated with the 
operation of the plant were arrested?
    Mr. Spero. I believe that every one of those people that we 
arrested were workers in the plant.
    Mr. Bishop. Is it not reasonable to assume that if over a 
third of the workforce employed at this plant violated labor 
law in one form or another that management has to have some 
complicity in those violations?
    Mr. Spero. Congressman, I can't comment on a potential 
ongoing investigation.
    One thing I can tell you from listening to my counterparts 
on the panel, I would like to make clear that when we are 
conducting work site enforcement operations, they are not 
haphazard. We are not out in the community. The goal for our 
work site enforcement operations is to target and develop cases 
against egregious employers who are committing violations.
    Mr. Bishop. This clearly appears to be an egregious 
employer, someone who has a long history of violating various 
of our laws, including labor laws, at several of their 
facilities.
    I am just curious. We clearly as a country have adopted, I 
would say by default, an enforcement-only immigration policy. 
My own view is, that policy is very unwise, but to the extent 
we are pursuing enforcement only, why is it that so much of our 
enforcement focuses on the workers and doesn't focus in an 
equal fashion on those who are profiting from the work of those 
that they employ?
    And is this within your purview or is this within the 
purview of another agency within Homeland Security, or is this 
Department of Labor?
    Mr. Spero. With respect to work site enforcement, I can 
tell you that our focus is on egregious employers. But in many 
cases our investigations into egregious employers take time to 
develop. Sometimes they are comprehensive, full-scale 
investigations, and we look at all of the potential violations 
when we are conducting these investigations.
    A perfect example is, recently we have conducted an 
investigation into a company called RCI. We arrested several 
hundreds of their workforce, and then it was some time later 
on, months later down the road, that we were able to make and 
develop a case against the owners.
    Mr. Bishop. Do you know in this--in the Postville case, do 
you know if any employment records were seized?
    Mr. Spero. In the Postville case, we served two search 
warrants, a criminal and a civil search warrant; and as part of 
the criminal search warrant, we seized many documents with 
regard to the company.
    Mr. Bishop. So is it reasonable to assume that charges may 
be forthcoming at some future point against management and 
ownership?
    Mr. Spero. I couldn't say.
    Mr. Bishop. I certainly hope so. Not that you can't say, 
but that charges will be forthcoming.
    This may be beyond what you were asked to come here to 
testify on, but as I said, by default it seems, because of the 
inability of this Congress to agree on a way forward in terms 
of comprehensive reform, we have adopted an enforcement-only 
strategy. I will just cite one example.
    I am from New York. The Farm Credit Bureau of New York, not 
exactly MoveOn.org, has conducted a study in which they 
estimate that the pursuit of an enforcement-only immigration 
policy will result in over 800 farms in New York State going 
out of business at a loss of approximately 25,000 jobs.
    Is this kind of issue something that is being discussed 
within your department? Is there some broader concern that we 
may be pursuing a strategy that is not in our broader national 
interest?
    Mr. Spero. Congressman, I can only speak for Immigration 
and Customs Enforcement, and that is the enforcement arm of the 
Department, and we are charged with enforcing the laws. And 
among those, the immigration and customs laws that we enforce 
are laws pertaining to work site enforcement.
    I can tell you that we do just that; we enforce the 
Nation's immigration laws as they are written.
    Mr. Bishop. My time has expired. Thank you, Madam Chair.
    Chairwoman Woolsey. I would like to introduce Mr. McKeon, 
who is the ranking member of the education and workforce 
committee, the full committee, and offer time for questions, if 
you have any.
    Mr. McKeon. Thank you, Madam Chair.
    I appreciate your calling this hearing. This is a very 
important issue in my district at home, and I am sure it is a 
very important issue for the Nation.
    I understand that the topic of this hearing is ICE 
workplace raids, their impact on U.S. children, families and 
communities. Do you all agree that if someone is in the 
country, that has entered the country illegally without proper 
documentation, or overstayed the limit of the documentation 
that they enter the country with, they are breaking the law? Do 
you all agree with that?
    Mr. Romo. Congressman, clearly, in terms of the law itself, 
there is violation there. The question from our perspective, as 
the Child Protective Services Division----
    Mr. McKeon. I would just like to get the fact, do you 
agree, if someone enters the country illegally or overstays 
their legal status, they are breaking the law? Can you just 
answer that yes or no?
    Mr. Romo. Yes.
    Mr. McKeon. Thank you.
    Ms. Gibney. Yes, I would say so.
    Ms. Murguia. Yes.
    Mr. Spero. Yes, Congressman.
    Mr. McKeon. One of the things that seems to bother my 
constituents is, to this point in time, we seem to have been 
ignoring any breaking of that law.
    For instance, if a person runs a red light and there is a 
policeman there, I have never known of an instance where they 
don't stop them and probably give them a ticket; and we would 
probably all agree that is correct enforcement of the law, is 
that correct? But it seems like we totally look the other way 
when it is pretty apparent that an immigration law has been 
broken.
    Now I understand that a raid may cause some real turmoil, 
some real problems with the children, who may be here legally. 
They may have been born here and may be citizens. But if we go 
back to where this first starts, a person that enters the 
country illegally or overstays their legal status, they are 
really the ones that are putting those children in jeopardy by 
their own actions, and they should take those children into 
account, I would think.
    We have seen lots of publicity recently on the raids of the 
polygamist compound in Texas, and I looked at that and my wife 
and I, talking about it, have great concern for those children 
who are torn from their parents through no fault of their own. 
It came from apparent illegal action on the parents' part, 
still causes much turmoil for the children, much as the cases 
we have heard about today; and I think we all have compassion 
for the children.
    The thing that bothers my constituents is, we are not 
enforcing the law or we are selectively enforcing the law. So 
when pressure was put on ICE to enforce the laws that are 
currently on the books, how else would you expect them to 
enforce the law?
    I mean, it seems to me that they made the raid. I think the 
point was made by one of the members earlier, that's how law 
enforcement works when they think that a law has been broken. 
They don't give advance warning that they are going to show up 
and check; they show up. That is how we find out if laws have 
been broken; and if they have been broken, they make arrests. 
Then we have other agencies that are responsible for what 
happens after that arrest.
    Are there other ways that you would suggest that they 
perform their responsibilities of carrying out the law?
    Ms. Murguia. I would like to respond. Thank you, 
Congressman McKeon.
    You point out what I think a number of people see when they 
see a system in this country that has a broken system with 
regard to immigration. It creates a lot of frustration and 
anxiety. Everyone wants to see our laws better enforced. We 
start first by reforming our immigration law system.
    Mr. McKeon. Let me state this, and then I will give you a 
chance to finish. We do have a bill that was introduced. 
Granted, there was earlier failure to get a bill passed, a 
comprehensive reform, but we have a bill right now introduced 
by a member of the majority party that we have put a discharge 
petition out on because we would like to bring it forward. And 
we have 187 Members who have signed that.
    If we could get the Members who have sponsored that bill to 
sign it, we could bring that to the floor and move forward on 
that bill. It is being held up by the majority leadership. I 
think that it is time that we get to really working on this 
issue.
    Ms. Murguia. There are several bills that have been 
introduced. I certainly believe that. Congressman Gutierrez has 
also offered a bill, and there are several bills that offer a 
solution. But you are talking about what to do now without that 
kind of effort.
    I guess I would like to put a broader context on another 
perspective. That is, there are people who come here and who 
are desperate and they feel like coming to this country is one 
of the few answers they have. They don't have a means by which 
they can legally come here to this country.
    Mr. McKeon. There are people who are desperate and rob 
banks.
    Ms. Murguia. I am not making the same comparison. The 
reason they are here is because they are desperate, and they 
want to make sure that those children are taken care of. They 
want to make sure that their children have better lives and 
have an opportunity to be taken care of. But I don't think 
anybody is suggesting we should punish these kids for the 
actions of their parents.
    We need to make sure that we look at not whether we enforce 
our laws; it is how we enforce our laws. That is really the 
issue today.
    What I had mentioned was, we had a law enforcement effort 
under way in Postville through a labor law investigation, 
through labor law authorities, and I guess I would question, 
are we asking our agencies to better coordinate so that we can 
optimize the impact of having an enforcement action and dealing 
with the root of the problem?
    But why is it that in 2007 we have seen that, in fact, 
there are 7 million undocumented workers. There are 6 million 
employers in the United States, and in 2007, DHS fined a grand 
total of 17 employers. During that same year, 98 percent of all 
workplace arrests were of employees, not employers. We are 
suggesting, there needs to be balance, and as we look at how we 
enforce those laws, we should measure the benefits and the 
costs.
    But no one is suggesting, certainly not me or my 
organization, that we shouldn't enforce our laws. We are 
suggesting that we take a hard look at how we enforce our laws.
    Mr. McKeon. I agree totally. It should be the employer. It 
is difficult many times for somebody to tell, if somebody 
brings forged documents, that they are here legally. But where 
that can be found, the enforcement should be across the board. 
I have no problem with that. That is the only way we are going 
to stop the magnet.
    Chairwoman Woolsey. Thank you, Mr. McKeon.
    Mr. Payne.
    Mr. Payne. That was the concern I had. I was looking at the 
fact that there seem to be very few employers who are arrested. 
First of all, people don't make their way to a particular plant 
just by mistake.
    Mr. Spero, is there any concern about the employer who is 
actually the magnet for people? If we are talking about how bad 
illegal people are and that it should be stopped, has ICE ever 
thought about the employer, the one that sort of invites them 
in? Are there certain firms that seem to have a 
disproportionate number of illegal workers?
    Mr. Spero. Sir, removing the magnet of employment, of 
illegal employment, is the primary target of work site 
enforcement; and work site enforcement, our strategy, does 
include and is focused primarily on targeting egregious 
employers.
    Mr. Payne. Okay, how many have you arrested?
    Mr. Spero. I'm sorry?
    Mr. Payne. How many of those egregious employers have you 
arrested?
    Mr. Spero. The distinction we have to make, being in 
Immigration and Customs Enforcement, is that some of our 
arrests are for criminal Federal felonies and others are for 
administrative arrests.
    Our criminal Federal arrests made last year totaled 863, 
out of which, I believe, over 90 were people who were not 
merely workers of the companies.
    Mr. Payne. I really have no idea what you said.
    Who are these teams? You have--what are they called, 
fugitives? See, in New Jersey we have some fellows--and do they 
work for ICE, the fugitive operations teams? What are they?
    Mr. Spero. Fugitive operations teams do work for us. They 
are officers who do work for ICE. They are assigned to our 
Deportation Removal Operation Section.
    Mr. Payne. And they are primarily supposed to be finding 
criminal--they are more looking for criminal actors? That is 
why they are sort of specialists?
    Mr. Spero. They are specialists in that their primary 
mission is to look for people who have been ordered removed by 
an immigration judge.
    Mr. Payne. I have information that they are supposed to go 
after people who they think are criminal, you know, first of 
all, people who may have stolen identities and things of that 
nature. From what I understand, anyway in New Jersey, teams 
arrested 2,079 people last year, twice as many as they did the 
year before.
    From what information we were able to get, they were 
supposed to be going after the criminal element. However, 88 
percent of the people that they arrested had no criminal 
histories. So, therefore, I am misled to feel that this special 
posse are supposed to go after the hardened criminal.
    Mr. Spero. Congressman, I do understand that they do 
prioritize. Our Deportation Section does prioritize their 
workload, and among top priorities are aliens who have been 
convicted of crimes.
    Mr. Payne. So they are pretty unsuccessful?
    Mr. Spero. They are aliens convicted of crimes and 
subsequently ordered removed by an immigration judge.
    Mr. Payne. Well, they are 88 percent; if they were baseball 
players, they would be batting 100. As you probably know my 
alma mater, Seton Hall Law School, has filed a suit regarding 
the U.S. Constitution violations. In New Jersey, they pick up 
almost anyone--legal residents up in North Bergen arrested by 
an agent, did not ask to check their paperwork, detained for 24 
hours without food or water. Another ICE agent and police from 
Penns Grove stormed into a house, guns drawn, looking for a man 
ICE had to deport 2 years earlier.
    In New Jersey, the raids are conducted by four fugitive 
operations teams as part of a nationwide program. It is to 
round up illegal immigrants, but it is supposed to be the 
criminal element.
    The thing that is annoying, and we all believe people 
should abide by the law, but I just am appalled by the way that 
justice is meted out. The magnets, the ones that are 
encouraging the people to break the law, walk away--sort of 
curbside justice. In inner cities, people are just taken down 
to the precinct, and in communities of affluence they are 
driven home and told to stop driving drunk.
    So we have a difference in the way that laws are applied, 
and I think that if your agency is going to have any kind of 
respect, you ought to have a level playing field and take those 
business people who are abusing, in some instances, illegal 
people, and put them in handcuffs with the cuffs behind their 
backs and some ankle chains, like they do the illegals--do that 
to them, too; and maybe then they won't do that, and we can 
come up with some kind of immigration policy that makes sense.
    My time has expired.
    Chairwoman Woolsey. Thank you.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you. My first question is to James 
Spero. Thank you for your participation.
    On April 29, the Congressional Hispanic Caucus sent a 
letter to Assistant Secretary Julie Myers of Immigration and 
Customs Enforcement, asking to stop the action on reported 
enforcement activities near migrant and seasonal Head Start 
centers.
    I would like to ask you--and, in fact, Madam Chair, I would 
like to ask unanimous consent that this letter be made a part 
of the record.
    Chairwoman Woolsey. Without objection.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Mr. Hinojosa. Thank you.
    I would like to ask you, please share with me how and when 
ICE plans to respond to our letter?
    Mr. Spero. Congressman, I would like to be able to respond 
to that question in writing.
    Mr. Hinojosa. In writing, okay.
    Then I will move on to Ms. Janet Murguia. As president of 
one of the top ten nonprofit corporations in the Nation, your 
participation in this congressional hearing is very important.
    In your testimony you give a number of specific instances 
of ICE enforcement activities at Head Start programs and 
schools. We have a long and growing list of reports of 
enforcement, near and around migrant and Head Start programs in 
many locations across the Nation. We have also seen that the 
humanitarian guidelines have been woefully inadequate to ensure 
that the children are adequately protected and cared for.
    What recommendations do you have for us, for 
recommendations or legislation to put Federal policies in place 
that will protect our children?
    Ms. Murguia. Thank you, Congressman Hinojosa. In my longer 
testimony, we cite, according to the National Migrant Head 
Start Association, about a dozen instances where we have seen--
--
    Mr. Hinojosa. I have studied them. They include 2008 and 
2007?
    Ms. Murguia. Right. We had one of our affiliates located in 
New Mexico, called HELP, that documented a particular instance 
where ICE enforcement agents entered that migrant Head Start 
program accompanying a parent, four agents, taking that child. 
It was a very traumatic experience there.
    We would like to see those incidents be responded to, and I 
appreciate the leadership of the caucus. But what we would like 
to see today is, one, those guidelines are not enforced on a 
consistent basis. Your continued oversight as a committee is 
extremely important in making sure that we are holding our 
agencies accountable for enforcing these guidelines in a 
consistent way. That is important.
    We may want to look at strengthening those guidelines and 
perhaps creating legislation that would put them in place in a 
way that they would strictly adhered to, and not in a 
discretionary way. We want to see the opportunity to make sure 
that humanitarian guidelines are consistently followed, and 
that there may be legislation that is comprehensive that would 
allow for the systematic interest of the child to be protected 
in any of these types of incidents.
    We are seeing burdens on the churches and schools. We 
should clarify what exactly those roles can be, but also what 
are the resources that are going to be necessary when those 
particular institutions have to step up.
    So I do think that there is an opportunity to strengthen 
those guidelines, in addition to making sure that they are more 
consistently enforced, and maybe seeing legislation that comes 
of it.
    Mr. Hinojosa. I hope other Members of Congress hear that 
response that you gave because it strengthens the need for 
comprehensive immigration reform legislation.
    I would like to ask Ms. Gibney from San Pedro Elementary 
Schools--you provided compelling testimony. Please describe for 
us how the immigration raids have affected your ability to 
carry out your responsibilities in the education settings and 
in the child welfare setting.
    Ms. Gibney. Thank you, Congressman.
    That is a many layered response I would give. I would like 
to use an example of how it has affected me and my staff when 
we were compelled to drive buses to deliver children safely to 
their homes. Our workload is completely shifted when these 
events occur, and all of our focus, all of our time, all of our 
energy is put on the welfare of the children.
    So we rode buses until 6 at night three days in a row. This 
was my entire staff. They put aside preparatory time to be 
prepared for their classes, and after-school programs became 
something more of a huge counseling session than actual 
instruction.
    I would say that the whole system is broken, and our 
children are suffering terribly for it, as are we. It is so 
difficult for us to see the absolute impacts on our children in 
terms of their learning and their proficiency; and I think the 
level of anxiety for myself and my staff is profound as we try 
to seek ways to support our students better and still give them 
an adequate education.
    I am not sure that I answered your question very well.
    Mr. Hinojosa. No. I can understand how frustrating it must 
be to carry out your responsibilities and those who work under 
your guidance, the teachers, and so I sympathize on how 
difficult it must be.
    My time has run out because this is certainly informative 
and necessary that we share with our Members of Congress so we 
can expedite and move forward with the issue of immigration 
reform, so we can give you some relief.
    Thank you, Madam Chair, for letting me ask my questions.
    Chairwoman Woolsey. I yield to Mr. Wilson for a request.
    Mr. Wilson. Thank you, Madam Chair.
    The Immigration and Customs Enforcement has published its 
2007 accomplishments, which can be picked up at www.ice.gov; I 
would like to introduce these accomplishments for the record, 
and I would like to quote from it regarding work site 
enforcement.
    This shows there is a significant effort against employers, 
not just employees, and particularly the subsection 
Strengthening Work Site Enforcement. ``ICE's more aggressive 
work site enforcement strategy targeted the jobs magnet that 
attracts illegal aliens seeking employment in the U.S. In FY07, 
ICE dramatically increased penalties against employers whose 
hiring processes violate the law, securing fines and judgments 
of more than $30 million while making 863 criminal arrests and 
4,077 administrative arrests.''
    Thank you, Madam Chair.
    Chairwoman Woolsey. Without objection, we will enter that 
into the record.
    I want to thank all of our witnesses for an excellent 
hearing. Thank you for coming and for being open and honest 
with us. You have confirmed what we all know, we need to do 
better by our children. The administration must take the 
necessary steps to ensure that these raids are conducted in a 
humane fashion, and they are protective to kids, not harmful; 
which apparently won't happen until humanitarian guidelines 
become mandatory instead of voluntary, because despite initial 
hopes that discretionary guidelines would help, they are not 
being followed on a consistent basis.
    I commend Senators Kerry and Kennedy and Representative 
Delahunt for their initial actions in negotiating these 
guidelines, and I look forward to working with them to 
strengthen the measures. Senator Kerry and Representative Solis 
have introduced the Families First Enforcement Act. This 
legislation, which I cosponsor, takes an excellent first step. 
It mandates that a workplace raid targeting 50 or more people 
consider the release of detainees on age-, medical- or family-
related humanitarian grounds. It also requires that ICE give 
State agencies advance notice of raids and afford detainees 
access to social service agencies to determine if medical risks 
or risks to families exist.
    We need to take action and do it now, and we need to 
protect our kids. With all of us working together, I am 
confident that we can come up with the best solution and a 
solution that is much better than what we have now.
    Thank you for being part of informing us what you think 
would be a better solution.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with majority staff within 14 days.
    [The information follows:]
    [Additional submissions of Ms. Woolsey follows:]

      Prepared Statement of the American Psychological Association

    On behalf of the 148,000 members and affiliates of the American 
Psychological Association (APA), we thank you for convening the May 20, 
2008 hearing to investigate ICE workplace raids and their Impact on 
U.S. children, families, and communities. APA advocates and promotes 
efforts to increase the availability of and access to educational, 
health, mental health, and social services for immigrant children, 
youth, and families.
    APA is the largest scientific and professional organization 
representing psychology in the United States and is the world's largest 
association of psychologists. Comprising researchers, educators, 
clinicians, consultants, and graduate students, APA works to advance 
psychology as a science, a profession, and as a means of promoting 
health, education and human welfare. Psychologists play a vital role in 
our society's understanding of the cognitive, social, and emotional 
development of children. As such, we appreciate the opportunity to 
share our comments regarding this important issue with members of the 
Subcommittee.
    The American Psychological Association (APA) is concerned about the 
potential impact of Immigration and Customs Enforcement (ICE) raids on 
children and families. ICE raids are a method of enforcement of United 
States immigration laws through the detention of undocumented 
immigrants who are then placed into removal proceedings. These ICE 
raids have resulted in the involuntary separation of children from 
parents/caregivers indicted for violating immigration laws. The 
potential implication of these situations can result in an adverse 
impact on the family unit, and can also have a detrimental effect on 
childhood growth and development, health, and education.
    Prior to experiencing potential ICE raids, children constantly fear 
not finding their families when they return home from school, which can 
be detrimental to their mental and physical health. It has been 
reported that intimidation and fear are frequently utilized methods 
during ICE raids. Reported use of excessive physical force against 
parents/caregivers during raids can also result in an adverse 
psychological impact on children and adolescents. Overwhelming distress 
associated with trauma subsequent to ICE raids has the potential to 
cause long-term adverse psychological affects on children's mental 
health.
    Nationwide, 4.7 million children currently have at least one 
undocumented parent. Of those 4.7 million children, 66% are U.S 
citizens. In 2005 alone, the ratio of children to undocumented adults 
was 53 percent, meaning that the number of children affected by ICE 
raids would equate to half (or more when multiple children are affected 
in each family) the number of detained adults. In this regard, numerous 
children who are U.S. citizens have been and continue to be effected by 
ICE raids. As a result, many of children throughout our nation's 
communities have been consistently found to be suffering from anxiety, 
depression, and post-traumatic stress disorder (PTSD).
    APA believes it is imperative to address the many biopsychosocial 
implications that raids could have on children and their families. 
Workplace arrests of undocumented parents/caregivers place children and 
adolescents at-risk of family separation, psychological and economic 
distress, poor health, and developmental delays. Specifically, ICE 
raids can increase children's vulnerability resulting from abrupt 
events that hinder their dependence on adults for psychological, 
physical safety, and stability.
    Raids can impact children on many levels. Infants, toddlers, and 
preschoolers' development can be negatively impacted by workplace 
arrests due to lack of caregivers attending to their biological needs 
(i.e., breastfeeding, medication) while parents/caregivers are in 
detention. For youth and adolescents, academic performance and 
matriculation can also be impacted by the raids. These circumstances 
have the potential to create poor outcomes for children by increasing 
the likelihood of their involvement in at-risk behaviors such as 
delinquency and dropping out of school. This not only negatively 
impacts the individual but also society at-large due to poor quality of 
life and the inability to effectively contribute economically to 
society.
    APA understands and appreciates ICE's main objective to uphold the 
security of our nation. However, it is essential to address ongoing 
gaps in ICE internal control standards regarding the enforcement of 
humanitarian procedures when conducting raids that may help eliminate 
traumatizing children and communities. While on November 16, 2007 ICE 
placed voluntary guidelines to ensure humanitarian procedures when 
conducting raids, ICE officials are not encouraged to implement them 
effectively and consistently. Policies and procedures permit ICE 
officers to exercise their discretion throughout the detainment and 
removal process. According to the Government Accountability Office, 
officers have indicated their use of discretion when encountering 
undocumented immigrants who have humanitarian circumstances. However, 
numerous reports regarding stranded children after ICE raids is 
indicative that officers do not utilize humanitarian procedures 
consistent with ensuring that no children are left unattended during 
ICE raids.
    APA promotes and supports public policies that recognize and 
provide for the psychosocial needs of immigrant children, youth, and 
families. Updated ICE standards that require appropriate coordination 
of child care with social service agencies that will be implemented and 
consistently enforced are essential. In addition, measures such as 
having detention of immigrants in nearby facilities are important to 
preserve the family unit and to meet basic biological needs of 
vulnerable infants and caretaking of special needs children.
    In closing, the APA would like to thank Chairwoman Woolsey for the 
opportunity to share our comments on the impact of ICE raids on the 
health of children, families and communities. We appreciate the 
Subcommittee's ongoing commitment to addressing the health, education, 
and psychological needs of all children and look forward to serving as 
a resource and partner as you work on this and other important issues 
affecting immigrant families.
                                 ______
                                 

       APA Resolution on Immigrant Children, Youth, and Families

    Whereas the largest proportion of the population of the United 
States of America is composed of people whose ancestors immigrated to 
this country from other lands (Fix & Passel, 1994);
    Whereas immigrants to the United States, categorized as foreign-
born in the U.S. Bureau of the Census reports, are a diverse group 
including both documented and undocumented individuals who make up 8 
percent of the current population (U.S. Bureau of the Census, 1993) and 
include 2.1 million foreign-born children who together with second-
generation immigrant children constitute the fastest-growing segment of 
the U.S. population under age 15 (Fix & Zimmerman, 1993; U.S. 
Department of Health and Human Services, 1996);
    Whereas the experience of immigration has immediate implications 
for the psychological and social well-being of individuals and families 
(Beiser, 1988; Westermeyer, Williams, and Neguyen, 1991) which are 
especially intense for children, people of color, people of the 
impoverished socioeconomic classes (Fix & Passel, 1994), as well as 
women (Yee, 1997; Yee, Huang, & Lew,1998), lesbian, gay, and bisexual 
persons (Espin, 1997; Patterson, 1995), and individuals with 
disabilities;
    Whereas immigrants to the United States experience unique stresses, 
prejudice, and poverty and can be considered at-risk subpopulations for 
health, emotional and behavioral problems (Eisenbruch, 1988; Williams & 
Berry, 1991) as well as, in the case of children, learning and academic 
difficulties (Rousseau, Drapeau, and Corin, 1996);
    Whereas 23.4 percent of all foreign-born residents including 
children and youth, who entered the United States from 1980 to 1990 are 
now at or below the poverty level, as compared to 9.5 percent of the 
native (i.e., U.S.-born) population (U. S. Bureau of the Census, 1993);
    Whereas, in addition to poverty, the challenges of exploitation and 
isolation are faced by some immigrants, such as service workers from 
Asia and Haiti (Andersen, 1997; Amott & Matthaei, 1991); and migrant 
farm workers from Mexico and Central or South America (Olivera, 
Effland, & Hamm, 1993) whose children often leave school to enter the 
migrant stream to work with their parents, since few states set minimum 
age limits for child farm labor (Fuentes, 1974; DiPerna, 1981; 
Martinez, Scott, Cranston-Gingras, & Platt, 1994; Wilk, 1986);
    Whereas mental health-related issues, particularly stress 
associated with trauma, acculturation to language, economics, health 
care, education, religion, as well as encounters with both individual 
and institutional bias, are faced consistently by foreign-born 
residents of this country (Kraut, 1994; Portes & Rumbaut, 1996) and 
differential degrees of acculturation within immigrant families can 
negatively affect family communication and even evoke conflict, 
particularly between parents and their adolescent offspring (Pedersen, 
Draguns, Lonner, and Trimble, 1996; Ponterotto, Casas, Suzuki, and 
Alexander, 1995);
    Whereas health, disease-specific prevention--particularly HIV 
prevention and treatment (Ryan, Tapscott, Carde, Havenner, Keene, 
Smith, & Bell , 1992)--mental health, and social services are under-
utilized by foreign-born resident populations (Beiser, 1988), 
especially refugees (Beiser, 1988), migrant workers, and undocumented 
immigrants (Wilk, 1986), and such services are unavailable in many 
locations;
    Whereas foreign immigration has periodically evoked in the 
citizenry negative perceptions and feelings that find expression in 
executive and legislative initiatives that attempt to limit immigrants' 
civil rights and access to public benefits such as education and other 
human services for children, youth, and families (Board on Children and 
Families, 1995; Degler, 1970; Goldenberg, 1996);
    Whereas a review of the literature in American psychology journals 
shows scant attention to these issues while policies and programs for 
immigrant children, youth, and families are being established despite 
the paucity of scientific data on this population (Board on Children 
and Families, 1995);
    Therefore, be it resolved, That the American Psychological 
Association, an organization that is committed to promoting the 
psychological well-being of children, youth, and families:
    (1) advocates for the development of a scientific data base 
concerning the adaptation, development, education, health, and mental 
health, as well as the social impact and contributions, of immigrant 
and refugee populations;
    (2) supports efforts to increase funding for research about the 
adaptation, development, education, health, and mental health of 
diverse immigrant children, youth, and families;
    (3) promotes and facilitates psychologists' acquisition of 
competencies, including relevant cultural knowledge, attitude, and 
skills in providing services to and conducting research on immigrant 
children, youth, and families;
    (4) advocates and promotes efforts to increase the availability of 
and access to educational, health, mental health, and social services 
for immigrant children, youth, and families; and
    (5) promotes and supports public policies that recognize and 
provide for the psychosocial needs of immigrant children, youth, and 
families. (Levant, in press).
                               references
Andersen, M.L. (1997). Thinking about women: Sociological perspectives 
        on sex and gender. Boston: Allyn & Bacon.
Amott, T.L., & Matthaei, J. A. (1991). Race, gender, and work: A 
        multicultural history of women in the United States.
Boston: South End Press.
Beiser, M. (1988). After the door has Opened: Mental health issues 
        affecting immigrants and refugees in Canada. Ottawa: Health and 
        Welfare Canada.
Board on Children and Families, Commission on Behavioral and Social 
        Sciences and Education, National Research Council, Institute of 
        Medicine (1995). Immigrant children and their families: Issues 
        for research and policy. The Future of Children, 5, 72-89.
Degler, C. (1970). Out of our past: The forces that shaped modern 
        America. New York: Harper & Row.
DiPerna, P. (1981, July 27). The lethal cloud of indifference. The 
        Nation, 786-789.
Eisenbruch, M. (1988). The mental health of refugee children and their 
        cultural development. International Migration Review, 22, 282-
        300.
Espin, O. (1997). Crossing borders and boundaries: The life narratives 
        of immigrant lesbians. In Greene, B. (Ed.), Psychological 
        perspectives on lesbian and gay issues: Vol. 3. Ethnic and 
        cultural diversity among lesbians and gay men (pp.191-215) 
        Thousand Oaks, CA: Sage.
Fix, M., & Passel, J. S. (1994). Immigration and immigrants: Setting 
        the record straight. Washington, DC: The Urban Institute.
Fix, M., & Zimmerman, W. (1993). Educating immigrant children: Chapter 
        1 in the changing city. Washington, DC. The Urban Institute.
Fuentes, J. A. (1974). The need for effective and comprehensive 
        planning for migrant workers. American Journal of Public 
        Health, 64, 2-4.
Goldenberg, C. (1996). Latin American immigration and U.S. schools. 
        Social Policy Report, Society for Research in Child 
        Development, 10, (1). Ann Arbor, MI: Society for Research in 
        Child Development.
Kraut, A. M. (1994). Silent travelers: Germs, genes, and the 
        ``immigrant menace.'' New York: Basic Books.
Levant, R.F. (In press). Proceedings of the American Psychological 
        Association, Incorporated, for the year 1998: Minutes of the 
        meeting of the Council of Representatives, August 14 and 17, 
        1997, Chicago, IL, and February, 20-22, 1998, Washington, DC. 
        American Psychologist.
Martinez, Y. G., Scott, J., Cranston-Gingras, A., & Platt, J. S. 
        (1994). Voices from the field: Interviews with students from 
        migrant farm worker families. Journal of Educational Issues of 
        Language Minority Students, 14, 333-348.
Olivera, V., Effland, J. R., & Hamm, S. (1993). Hired farm labor use on 
        fruit, vegetable, and horticultural specialty farms. 
        Washington, DC: U.S. Department of Agriculture.
Patterson, C.J. (1995). Sexual orientation and human development: An 
        overview. Developmental Psychology, 31, (3-11).
Pedersen, P. B., Draguns, J. G., Lonner, W. J., & Trimble, J. E. 
        (1996). Counseling across cultures (4th ed.). Thousand Oaks, 
        CA: Sage.
Ponterotto, J. G., Casas, J. M., Suzuki, L.A., & Alexander, C.M. 
        (1995). Handbook of multicultural counseling. Thousand Oaks, 
        CA: Sage.
Portes, A. & Rumbaut, R. G. (1996). Immigrant America: A portrait 
        (2nd.ed.) Berkeley, CA: University of California Press.
Rousseau, C., Drapeau, A., & Corin, E. (1996). School performance and 
        emotional problems in refugee children. American Journal of 
        Orthopsychiatry, 66, (2), 239-251.
Ryan, C., Tapscott, J., Carde, H., Havenner, S., Keene, D., Smith, M., 
        & Bell, D. (1992). Language, cultural and psychological 
        barriers to access. Agency for HIV/AIDS, District of Columbia 
        Comprehensive HIV/AIDS Plan 1992-1996. p.3-3. Agency for HIV/
        AIDS: District of Columbia.
U. S. Bureau of the Census (1993, July). The foreign-born population in 
        the United States, 1990 census of the population. Washington, 
        DC: U.S. Department of Commerce.
U.S. Department of Health and Human Services (1996). Trends in the 
        well-being of America's children and youth: 1996. Washington, 
        DC: U.S. Department of Health and Human Services, Office of the 
        Assistant Secretary for Planning and Evaluation.
Westermeyer, J., Williams, C. L., & Neguyen, A. N. (1991). Mental 
        health services for refugees. DHHS Publication No. [ADM] 91-
        1824). Washington, DC: US Government Printing Office.
Williams, C. L. & Berry, J. W. (1991). Primary prevention of 
        acculturative stress among refugees: Application of 
        psychological theory and practice. American Psychologist, 46, 
        632-641.
Wilk, V. A. (1986). The occupational health of migrant and seasonal 
        farm workers in the United States (2nd edition). Washington, 
        DC: Farm worker Justice Fund, Inc.
Yee, B. W. K. (1997). The social and cultural content of adaptation of 
        aging among Southeast Asian elders. In J. Sokolovsky (Ed.), The 
        cultural context of aging, 2nd Edition, New York: Greenwood 
        Publishers.
Yee, B. W. K.; Huang, L. N. & Lew, A. (1998). Family Socialization. In 
        L. L. Lee & N. Zane (Eds.), Handbook of Asian American 
        Psychology, Vol. I, pp 83-136. Newbury Park, CA: Sage 
        Publications.
                                 ______
                                 

  The Protection of Children During Immigration Enforcement Actions: 
             Lessons From Recent Large Scale Worksite Raids

 By Randy Capps, Rosa Maria Castaneda, Ajay Chaudry and Robert Santos, 
                          The Urban Institute

    There are now an estimated 12 million migrants living in the United 
States without legal authorization. Recent large scale migrations to 
the United States--particularly from Mexico and Central America--have 
brought to light the incapacity of the country's current immigration 
system to adequately address this growing problem. While there is some 
consensus that current immigration policies should be revised, there is 
a lack of political consensus about how to do so--especially regarding 
whether the unauthorized migrants should be allowed to remain in the 
country. This unsettled policy environment has contributed to an 
increasingly hostile social and political climate for unauthorized 
migrants, including stepped up enforcement of immigration laws by U.S. 
government authorities.
    There are about 5 million U.S. children who live with at least one 
unauthorized parent, and in the current enforcement climate, these 
children are increasingly vulnerable. Researchers at the Urban 
Institute have been focusing on the health, well-being and social 
rights of children in U.S. immigrant families over the past several 
years. In a recent study we described the experiences of some of the 
most vulnerable children--those with parents arrested in U.S. 
immigration raids. We also made recommendations on how the U.S. federal 
government, state and local government agencies, civil society, and 
migrants' home country consulates could work to protect children in 
these troubling circumstances.
2007 Urban Institute Study of Worksite Raids
    During Spring 2007 Urban Institute researchers visited three 
locations where the U.S. governments' Immigrant and Customs Enforcement 
(ICE) agency had arrested large numbers of unauthorized migrants 
working in manufacturing plants. We visited New Bedford, Massachusetts; 
Greeley, Colorado; and Grand Island, Nebraska, between two and six 
months after the raids took place. In each of these sites, we spoke 
with arrested immigrants, their family members, consular staff, 
immigration lawyers, public and private service providers, and others 
in the community. The research focused on the raids' short-term impacts 
on families with children.
    Across the three sites, for every two persons arrested, about one 
child was directly affected. Altogether, 900 migrants were arrested, 
including parents of over 500 children. Two-thirds of these children 
are U.S. citizens by birthright. The majority of children in these 
sites were also young--two thirds were ages 10 or under; almost three-
quarters of the children affected in New Bedford were age five or 
under. Most children lived with both parents prior to the raids.
    In New Bedford, most of those arrested were Central Americans--the 
largest group from Guatemala's Maya Kiche people. Many had fled 
Guatemala's poverty and civil unrest. Most were young families, and in 
some cases, those arrested were single parents. In Greeley and Grand 
Island most arrested migrants were from Mexico, but there were also a 
significant number from Guatemala.
Consequences of the Raids for Migrant Parents
    According to lawyers and consular officials interviewed for the 
study, a large number of arrestees were deported within a few days, in 
some cases without contact with families, lawyers or home country 
consulates. Mexican migrants were more likely than those from Central 
America to sign ``voluntary'' departure papers because they knew they 
would be deported to the U.S.-Mexico border. For instance in Greeley, 
over 100 arrested migrants were deported to the Arizona-Sonora border 
within 48 hours, before the Mexican Consulate could reach them.
    Other arrestees were held in detention for days or weeks, and in a 
few cases there were still people in detention when we visited two of 
the sites six months after the raids. We were told that most 
Guatemalans appealed their deportation. Because of dire home country 
conditions, they attempted to remain in the United States as long as 
possible.
    Most long-term detainees were moved out of the state in which they 
were arrested, for instance from Massachusetts to Texas, or Nebraska to 
Georgia. Arrested migrants were not allowed to make phone calls on the 
day of the raid, and those held for longer periods had difficulty 
gaining access to telephones. As a result, it was difficult for them to 
get into contact with their children and other family members.
    In all three sites ICE released small numbers of migrants on the 
day of the raids or within a few days because they were single parents 
or parents of very young or sick children. ICE has stated that their 
policy was one of ``humanitarian release'' in these cases, but at the 
time of our research there was no written policy, and we found the 
policy implemented inconsistently across the sites. Indeed for the New 
Bedford raid, it required the intervention of the Governor of 
Massachusetts, two U.S. Senators, and over 30 social workers to obtain 
the release of 21 parents who fit the humanitarian criteria based on 
ICE's statement but who instead had been transferred to Texas.
    Some parents had also been afraid to divulge to ICE officers that 
they had children for fear that the children could be taken away or 
deported. They were more likely to reveal this information to consular 
officials, lawyers or social workers.
Impacts on Migrants' Children
    Our research focused on the short-term impacts of these three 
worksite raids on children; follow-up work we are conducting will 
examine longer-term outcomes. The children in the study experienced a 
variety of challenges, including separation from parents, significant 
economic hardship, emotional difficulties, isolation, and social 
stigma.
    Family Separation. Most of those arrested came from two-parent 
homes, which are a particular strength of migrant families in the 
United States. But since many parents were detained for a long period 
of time, children went from living with two parents to living with one. 
Many arrested immigrants were in detention for up to six months after 
the raids, during which time the remaining parents often had difficulty 
maintaining the household independently. For example, some spouses did 
not have access to or familiarity with bank accounts or other financial 
resources.
    In other cases, both parents or a single parent was arrested, and 
children wound up living with relatives, close acquaintances, or even 
babysitters for a period of days, weeks or months. Many children felt 
abandoned and could not understand why a parent had simply 
``disappeared.''
    Economic Hardship. Because many families lost the adult with the 
better job, household incomes plunged. For instance, the meat-packing 
jobs in Greeley and Grand Island paid more than $10 per hour, were 
full- or overtime unionized jobs, and offered full benefits. With the 
arrest of a working parent, families fell back on savings, and 
assistance from social service agencies, churches, informal networks in 
the community, and informal jobs.
    For a while, these sources provided economic support while extended 
families helped provide child care, thus keeping the majority of 
children from living without supervision or becoming homeless. Other 
than three adolescents who were themselves arrested at the New Bedford 
work site, no children wound up being referred to child protective 
services or taken into foster care.
    Over time, however, these sources of support weakened and families 
increasingly needed assistance from public or other private sources. 
Most families received some form of community assistance for three or 
four months after the raids. By about six months, most of the forms of 
community assistance raised from private or public funds had expired. 
Some families lost their homes, utilities were temporarily cut off for 
some families, and many experienced difficulty affording food. Some 
other families moved in with other families, which tended to lead to 
crowded housing conditions.
    Fear and Social Isolation. The raids created a climate of fear--
especially in Grand Island where ICE continued to conduct follow-up 
raids in people's homes for over a week. (ICE returned to the worksites 
to arrest a small number of migrants in both Greeley and Grand Island 
more than a year after the initial raids.) Researchers spoke to 
families that hid in their homes for days or weeks; some hid in closets 
or basements. Many were fearful of seeking help--even at trusted 
locations such as churches. Some would not open the doors for people 
who brought food baskets and other assistance.
    Social Stigma. Parents and caregivers struggled to explain to 
children what had happened. It was especially difficult for younger 
children to understand. One child said that his parent was ``arrested 
for working.''
    Some of the older children, mostly high school students, went to 
the work sites and saw their parents taken away in handcuffs. Some 
children faced hostility by teachers and other adults in the community, 
or were taunted by their peers. Greeley was especially polarized, with 
many native-born Americans expressing support of the raid, and many 
migrants feeling increasingly isolated.
    Children's Emotional and Mental Health. The separation, economic 
hardship, fear, isolation, and stigma led to behavioral changes in 
nearly all of the children, including children showing more aggressive 
behavior, changes in sleep patterns and appetites, mood swings, and 
prolonged bouts of crying. Mental health professionals that the 
researchers interviewed spoke of elevated stress in children, signs of 
depression and even suicidal thoughts. The researchers were unable to 
interview a random sample of parents and could not document the 
prevalence of mental health effects; however, we plan to return to 
these raid sites to investigate ongoing mental health impacts on 
children in more detail.
Community Responses
    All three communities initiated intensive and broad response 
efforts to assist immigrant families after the raids. The relief effort 
was especially well organized in New Bedford, where the Massachusetts 
Immigration and Refugee Advocacy (MIRA) coalition led an effort to 
bring together state and local government officials, representatives 
from the Honduran and Maya Kiche communities, faith leaders, 
foundations, community-based organizations and home country consulates 
to plan the relief effort. Local foundations and individual 
philanthropists raised a significant amount of money. In Greeley and 
Grand Island, the employer--Swift and Company--provided financial 
support for services. Assistance and services were mostly delivered 
through local community-based organizations and churches. These groups 
distributed assistance to help families cover the cost of rent, food, 
utilities, clothing and diapers for kids, and other necessities.
    Public health and social service agencies also assisted families, 
though their roles varied substantially across the three sites. The New 
Bedford city government was very supportive of families in need, and 
Massachusetts DSS social workers were involved in linking parents with 
children and distributing relief. In Greeley, however, a state law had 
been implemented just before the raid that many respondents said 
deterred migrants from seeking public assistance. The state law 
requires parent identification for receipt of public services and the 
reporting of unauthorized migrants to ICE, and setting jail time and 
other penalties for presentation of fraudulent documents. There was a 
sign posted in the local social services office about this law.
    In all three sites, public assistance through cash welfare, food 
assistance, and health coverage was limited to U.S. citizens and legal 
residents. Most adults did not qualify, and many families were afraid 
to apply for those government programs for which their U.S. citizen 
children qualified.
    Churches emerged as central distribution points for relief because 
they generally had a trusting relationship with immigrant families. In 
all three sites, public agencies and nonprofit service providers 
stationed their staff at churches. Staff from home country consulates 
also stationed themselves at churches and participated in meetings 
there with the local public and private service providers. Many 
religious and community leaders went door-to-door to provide 
assistance.
    Finally, the public schools played important roles in protecting 
children. The Grand Island public schools had developed a plan in 
advance of the raid. They also made public statements that they would 
not allow immigration enforcement agents to come to the schools and 
arrest children or their parents. The public schools in all three sites 
made efforts to ensure that no children were dropped off by buses to 
empty homes, and even kept teachers and classrooms available for 
students who would need to be picked up later than usual. In the end, 
only a few of the older children in our study went home from school to 
empty homes.
Conclusions and Recommendations for Protecting Migrants' Children
    Children are among the most vulnerable members of society, and the 
United States--like most other nations--has developed systems to 
protect them. These systems are designed to meet children's basic needs 
such as food, shelter and health care, and to keep them safe from 
psychological and physical harm. Yet, these systems cannot replace 
parents when they are taken away from children.
    In the increasingly complex environment of international migration, 
it is essential that systems be developed to protect migrants' 
children. These systems should ensure that children are not 
unnecessarily separated from parents on account of migration or 
repatriation, and that children remain in safe and economically secure 
environments. Cooperation between receiving countries such as the 
United States and sending countries such as Mexico and Guatemala is an 
important element of protection, as displayed in the central role that 
Mexican and Guatemalan Consulates played in the aftermath of the raids 
we studied. But ultimately the U.S. government must take responsibility 
for the well-being of all children living within our borders.
    Aside from a general call for the protection of children during 
immigration enforcement operations, the report offers some specific 
recommendations:
    <bullet> The U.S. Congress and the Department of Homeland 
Security's Office of Inspector General should provide oversight of 
immigration enforcement activities to ensure that children are 
protected.
    <bullet> ICE should work on the presumption that there will always 
be children--generally very young children--affected by raids. ICE 
should develop consistent, written policies for parents' release--
single parents and other primary caregivers should be released on the 
same day of any enforcement action. These guidelines should apply to 
all enforcement activities, not only those of a certain type or scale.
    <bullet> ICE should assume many parents will not divulge they have 
children, so the agency should allow access to intermediaries such as 
consular officials, lawyers, and social workers.
    <bullet> ICE should allow contact between arrested migrants and 
their families by providing access to working telephones at reasonable 
cost, and not moving parents to remote detention facilities, where it 
is more difficult for them to contact family members.
    <bullet> Schools should develop systems to help ensure that 
children have a safe place to go in the event of a raid, and to reduce 
the risk that children will be left without adult supervision.
    <bullet> Social service agencies should prepare to respond to 
immigration raids and develop outreach plans. Assistance may need to be 
provided for months (up to six months in our study sites), until 
parents are released and their cases are resolved.
    <bullet> Because religious institutions are trusted, they should be 
considered central points for assistance and outreach to families. 
Consulates and social service providers should coordinate assistance 
with churches and other religious institutions.
    <bullet> Immigrant parents and other relatives, friends, and 
community leaders, and service providers should develop plans in the 
event of arrests (e.g., school pick up) and assemble children's 
documents.
    <bullet> Consulates should work with immigrant families and 
communities to help them develop these plans and assemble such 
documents in advance of a raid, or if necessary, following one.
Enforcement Actions since the Release of Our 2007 Report
    ICE raids on worksites and other locations have continued at a 
rapid pace since our report was released in October 2007, and have 
occurred all over the country. There have been two large scale raids 
thus far in 2008: one with over 300 arrests in five different Pilgrim's 
Pride poultry processing plants in Arkansas, Tennessee, Texas and West 
Virginia during April, and a second with almost 400 arrests at a single 
meat processing plant in Iowa during May. Manufacturing plants have 
also been raided in California, Pennsylvania, and Utah. There have also 
been numerous smaller scale arrests: for example, in one operation 
targeting a cleaning and grounds maintenance contractor, almost 200 
immigrants were arrested in more than 64 locations in 18 states and the 
District of Columbia.
    In November 2007, just after the release of our report, ICE issued 
guidelines concerning the treatment of parents after arrest and the 
safeguarding of their children. These guidelines partially address some 
of the recommendations from our original report, but are limited to 
worksite operations of 150 or more arrests, and other operations at the 
discretion of the Assistant Secretary. Among other things, the 
guidelines suggest that single parents or other primary caregivers be 
released on the same day as the raids; that parents be allowed to 
contact their families by telephone and be given access to social 
services workers (either federal, state or local); and that parents not 
be moved to remote detention facilities from which it would be 
difficult to contact their families.
    The Urban Institute has received follow-on funding from several 
foundations to investigate the long-term impacts of immigration raids 
on children. For this study we plan to return to some of our 2007 study 
sites, and to go to some of the newer sites with both large-scale and 
smaller-scale raids. We plan to investigate worksite raids as well as 
raids on homes and other locations. Key questions include how ICE 
conducts raids and whether procedures are in accordance with ICE's 
guidelines; how communities are responding to the raids; and short- and 
longer-term impacts on children separated from their parents--
particularly in terms of their academic performance, and emotional and 
economic well-being.
    We expect to release findings from this next phase of research in 
late 2008 or early 2009. In the meantime, we sincerely hope that the 
Congress will further investigate enforcement activities by ICE and 
provide oversight of future operations. We also hope that at some point 
in the near future the Congress will consider strengthening protections 
for children with unauthorized parents in U.S. immigration law.

    Randy Capps is a Senior Research Associate at The Urban Institute 
in Washington DC. Rosa Maria Castaneda is a Research Associate at the 
Urban Institute. Ajay Chaudry is the Director of the Labor, Human 
Services and Population Center at the Urban Institute. Robert Santos is 
a Senior Methodologist at the Urban Institute. The report ``Paying the 
Price: The Impact of Immigration Raids on America's Children'' can be 
found at http://www.urban.org/UploadedPDF/411566--immigration--
raids.pdf. This study was sponsored by the National Council of La Raza, 
with support from Atlantic Philanthropies and the Annie E. Casey 
Foundation. Ongoing Urban Institute research on this topic is being 
supported by the Foundation for Child Development, Peppercorn 
Foundation, and the A.L. Mailman Family Foundation.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


           American Psychological Association (APA) Factsheet

Background
    The American Psychological Association (APA) is cognizant of 
ongoing concerns relating to the impact of Immigration and Customs 
Enforcement (ICE) raids. ICE raids are a method of enforcement of 
United States immigration laws through the detention of undocumented 
immigrants who are then placed into removal proceedings. These ICE 
raids have resulted in the involuntary separation of children from 
parents/caregivers indicted for violating immigration laws. The 
potential implication of these situations can result in an adverse 
impact on the family unit, and can also have a detrimental effect on 
childhood development (Capps, Castaneda, Chaudry, & Santos, 2007; 
Communique, 2007).
Findings
    <bullet> Nationwide, approximately five million children currently 
have at least one undocumented parent (Capps, Castaneda, Chaudry, & 
Santos, 2007).
    <bullet> In 2005, the ratio of children to undocumented adults was 
53 percent, meaning that the number of children affected by ICE raids 
would equate to half (or more when multiple children are affected in 
each family) the number of detained adults (Capps, Castaneda, Chaudry, 
& Santos, 2007).
    <bullet> While the United States continues to receive great 
benefits from immigrants' productivity, innovation, and income 
(Immigrants and Health Coverage: A Primer, 2004; Immigration Policy 
Center (IPC), 2007), many immigrants encounter employee discrimination 
and are coerced into waiving their rights subsequent to ICE raids 
(National Immigration Forum, 2007).
    <bullet> Workplace arrests of undocumented parents/caregivers place 
children and adolescents at-risk of family separation, psychological 
and economic distress, poor health, and developmental delays (Capps, 
Fix, Ost, Reardon-Anderson, & Passel, 2005; Capps and Fortuny, 2006; 
Capps, Castaneda, Chaudry, & Santos, 2007; Communique, 2007; Cooper, 
Masi, Dababnah, Aratani, & Knitzer, 2007).
    <bullet> Infants, toddlers, and preschoolers' development can be 
negatively impacted by workplace arrests due to lack of caregivers 
attending to their biological needs (i.e., breastfeeding, medication) 
while parents/caregivers are in detention (Capps, Castaneda, Chaudry, & 
Santos, 2007).
    <bullet> Rights and protections afforded by U.S. citizenship 
status, including access to social services and supports appear remiss 
for children who are U.S. born citizens of undocumented immigrants. 
Children in these ``mixed-status'' families are particularly vulnerable 
under current immigration enforcement efforts such as ICE raids and can 
lead to potential long-lasting negative impacts in their growth and 
development, health and education (Children of Immigrants: Facts and 
Figures, 2006; Capps, Castaneda, Chaudry, & Santos, 2007; Communique, 
2007).
    <bullet> The majority of young children of immigrants (93 percent) 
are citizens living in ``mixed-status'' families (Capps, Fix, Ost, 
Reardon-Anderson, & Passel, 2005).
    <bullet> Often, immigrants endure challenging conditions and spend 
considerable amounts of time away from their families (Communique, 
2007; National Immigration Forum, 2007) while in detention coupled with 
uncertainty about their future (Capps, Castaneda, Chaudry, & Santos, 
2007).
    <bullet> Reported use of excessive physical force against parents/
caregivers during raids can result in an adverse psychological impact 
on children and adolescents (Capps, Castaneda, Chaudry, & Santos, 
2007).
    <bullet> Many immigrants do not disclose to ICE that they are 
parents/caregivers due to anxiety of having their child arrested or 
placed into foster care, which inevitably extends the period of family 
separation (Capps, Castaneda, Chaudry, & Santos, 2007).
    <bullet> Economic and psychological stress coupled with the stigma 
attached to being arrested during an ICE raid can have a profound 
negative impact on the health, well-being and stability of families 
(Capps, Castaneda, Chaudry, & Santos, 2007).
    <bullet> Immigrant children and adolescents' academic performance 
and/or academic matriculation are often interrupted (Reardon-Anderson, 
Capps, & Fix, 2002; Communique, 2007) subsequent to ICE raids (Capps, 
Castaneda, Chaudry, & Santos, 2007).
Recommendations
    The American Psychological Association recommends:
    <bullet> Public policies that increase the availability of and 
access to educational, health, mental health, and social services for 
immigrant children, youth, and families.
    <bullet> Measures to meet basic biological needs of vulnerable 
children such as breastfeeding infants and caretaking of special needs 
children.
    <bullet> Detention of immigrants in nearby facilities to preserve 
the family unit.
    <bullet> Conditions of detention should maintain a facilitative 
stance, with a standard process that includes access to telephones, 
medical and psychological treatment, and basic legal counsel and legal 
services.
    <bullet> Similar to paragraph (1) of section 1182 (a) of the 
Immigration and Nationality Act (U.S.C.: 8 Chapter 12 Subchapter II 
Part IV 1222), services of interpreters should also be provided for 
undocumented individuals during ICE raids.
    <bullet> Clarification of eligibility for social and health 
services for mixed-status families.
    <bullet> Provision of effective coordination with social services 
to facilitate child and family needs.
    <bullet> Develop and implement emergency contact measures that 
permit children to have proper adult supervision (i.e., parent seeking 
custody, relative, legal guardian) subsequent to raids.
    <bullet> Have public agencies extend services (i.e., Food Stamp 
Program, Temporary Assistance for Needy Families (TANF), Women, 
Infants, and Children (WIC) Program to children in undocumented 
families to facilitate their growth and development while their 
parents/caregivers are in custody.
    <bullet> Placement procedures of unaccompanied undocumented 
children with relatives in the United States as indicated in paragraph 
(4), section 103(a)(2), and section 462(b)(2) of the Homeland Security 
Act of 2002 (6 U.S.C. 279(b)(2)) be applicable to children who are 
United States-born citizens in undocumented families and undocumented 
children without immediate relatives in the United States until family 
reunification is possible.
    <bullet> Consistent with the Immigration and Nationality Act (Sec. 
212(a)(5)(A)), APA urges protection against employers taking advantage 
of raids by retaliating against immigrant workers for exercising their 
workplace rights.
    <bullet> In order to ensure that our nation and all those impacted 
by child traumatic stress receive the critical resources, APA strongly 
urges Congress to appropriate full funding for the National Child 
Traumatic Stress Initiative at the originally authorized level of $50 
million for Fiscal Year 2009.
    For more information, please contact Day Williams Al-Mohamed, J.D., 
in the Public Interest Government Relations Office at (202) 336-6061 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="701407191c1c19111d03111c5d1d1f18111d1514301100115e1f02175e">[email&#160;protected]</a>
                               references
APA Resolution on Immigrant Children, Youth, and Families (1998). 
        Retrieved January 14, 2008, from http://www.apa.org/pi/cyf/
        res--imm.html.
Capps, R., Fix, M., Ost, J., Reardon-Anderson, J., & Passel, J.S. 
        (2005). The health and well-being of young children of 
        immigrants (Immigrant families and workers: Facts and 
        perspectives). Washington, DC: Urban Institute.
Capps, R. and Fortuny, K. (2006). Immigration and child and family 
        policy (Paper 3 Prepared for the Urban Institute and Child 
        Trends Roundtable on Children in Low-Income Families).
Capps, R., Castaneda, R.M., Chaudry, A., & Santos, R. (2007). Paying 
        the price: The impact of immigration raids on America's 
        children. A Report by The Urban Institute. For the National 
        Council of La Raza. Washington, DC.
Children of Immigrants: Facts and Figures. (2006). Office of Public 
        Affairs Fact Sheet. Washington, DC: Urban Institute.
Communique (2007). Psychological perspectives on immigration [Special 
        section]. Office of Ethnic Minority Affairs-Public Interest 
        Directorate. Washington, DC: American Psychological 
        Association.
Cooper, J.L., Masi, R., Dababnah, S., Aratani, Y., & Knitzer, J. 
        (2007). Strengthening policies to support children, youth, and 
        families who experience trauma (Unclaimed children revisited: 
        Working paper no. 2). National Center for Children in Poverty. 
        Columbia University. Mailman School of Public Health.
Immigrants and health coverage: A primer. (2004, June). Retrieved 
        November 27, 2007, from http://www.kff.org/uninsured/
        loader.cfm?url=/commonspot/security/getfile.cfm&PageID=44857.
Immigration Policy Center (IPC). (2007, November). The Economic Impact 
        of Immigration. Retrieved December 8, 2007 from http://
        www.ailf.org/ipc/ipc--index.asp.
National Immigration Forum. (2007). Backgrounder: Comprehensive reform 
        of our immigration laws. Washington, DC.
Reardon-Anderson, J., Capps, R., & Fix, M. (2002). The health and well-
        being of children in immigrant families (Policy Brief B-52). 
        Washington, DC: Urban Institute. Assessing the New Federalism.
                                 ______
                                 

Prepared Statement of the Lutheran Immigration and Refugee Service and 
  Bishop Steven Ullestad, Northeastern Iowa Synod of the Evangelical 
                       Lutheran Church in America

    We are deeply concerned about the impact of immigration enforcement 
raids on children and families. A prime example of that impact can be 
seen in the aftermath of an enforcement raid by agents of the 
Immigration and Customs Enforcement (ICE), an agency of the Department 
of Homeland Security (DHS), on May 12, 2008 in Postville, Iowa. Bishop 
Ullestad attended high school in Postville, where his father served as 
pastor.
ELCA Designated Postville, Iowa, a Domestic Disaster
    The Evangelical Lutheran Church of America (ELCA) has designated 
Postville as a domestic disaster, responding to the emotional trauma 
experienced by the community. This is the first time that the ELCA has 
designated an immigration matter a domestic disaster reckoning that the 
size and nature of the impact and trauma on children, families and the 
community is comparable to that of a natural disaster. St. Bridget's 
Catholic Church is the community crisis response center in Postville. 
Volunteers from the local St. Paul Lutheran Church and nearby Luther 
College and Wartburg College are contributing to the community wide 
legal, social services and pastoral response.
    Postville, Iowa, has been a model community in many ways. It 
illustrates the positive role that immigration can have in revitalizing 
a local economy and the capacity of very diverse groups to live 
together in community. The town's population had declined to 800. Then 
Hasidic Jews from Brooklyn, N.Y., moved to Iowa and opened a kosher 
meat processing plant. With the subsequent migration of hundreds of 
immigrant workers from Guatemala, Mexico, Israel and Ukraine, the town 
was revitalized and the population tripled to nearly 2,300.
    On May 12, 2008, Postville became a different kind of poster child. 
It now exemplifies the humanitarian and economic cost of our broken 
immigration system. In the largest raid of its kind in U.S. history, 
dozens of ICE agents descended upon Agriprocessors, the kosher meat 
processing plant, as two helicopters hovered outside. ICE arrested at 
least 313 men and 76 women and bused them to the Cattle Congress in 
nearby Waterloo, Iowa, for initial processing.
`Don't Take My Friends Away'
    The impact on those arrested, their children and families, and the 
whole community is immediate and devastating. Adults were immediately 
separated from their children and families and detained. Parents, 
teachers, and Lutheran and other volunteers report disturbing signs of 
the impact. Following the raid, an estimated 65 percent of the Latino 
high school students and 90 percent of Latino students overall were 
absent from class. Some elementary classes shrunk from 25 children to 
six. One teacher estimates that at least 150 students are without one 
or both parents. Children wonder whether or when they will ever again 
see their arrested parent or parents. Children of U.S. citizen parents 
are also very traumatized by the action. These children are having 
nightmares about their own parents being taken away and they are 
creating drawings of the intervention with the words ``Don't take my 
friends away.'' So far, only about a quarter of those in detention have 
been released to their families. Beyond the children, the entire town 
feels the impact. Nearly half of the workers in the town's main 
industry are detained; over 10 percent of the town's total population. 
Those who were arrested were active members of the community: shopping 
in Postville businesses, renting property or buying houses, attending 
the school functions for their children, and being good neighbors. 
People in Postville are asking if our government gave any consideration 
to the impact on this small town before they took this action. There 
simply must be a more humane way of addressing the concerns about 
undocumented workers. Most of the people picked up in the raid had 
charges related to using false identification to work. We do not 
condone people using false identification, but instead of arresting 
people, putting children at risk, tearing families apart and hurting 
local economies, we need to create viable means for hard workers to get 
documented. With the current system, there is a strong pull factor 
created because of the need for workers in the United States, and yet 
there are an extremely limited number of visas available. The impact on 
Postville, Iowa, underscores the need for comprehensive reform of 
immigration policy. The immigration law needs to protect children and 
unite families, safeguard human rights and worker rights, enable 
marginalized undocumented people to come out of the shadows and to live 
without fear, and provide a path to permanence for those who have put 
down roots. In Postville children are being put at risk and families 
are being divided, there are serious allegations of workplace abuse, 
families are being driven even further into the shadows, and people 
with deep roots here are being detained and deported instead of 
integrated into the community. We need to fix the broken system.
Protection of Children and Families Must Be Primary in Any Enforcement 
        Actions
    Meanwhile, we urge Congress to exercise rigorous oversight of 
workplace raids to assure that ICE does the following: 1) prioritizes 
and tailors the use of raids so that while addressing concerns of 
national security and/or danger to the community, ICE mitigates the 
sociological and economic impact, and emotional trauma on the 
community; 2) communicates and works closely with the community social 
service and pastoral care workers to mitigate the traumatic impact on 
children, families and the community; 3) facilitates access to legal 
counsel; 4) does not transfer people out of the area, but instead 
releases them from custody to go through their hearings outside of 
detention, and 5) develops streamlined communication mechanisms that 
allow family members and lawyers to locate those in detention. Thank 
you for the opportunity to submit this testimony.
                                 ______
                                 
                                                      May 27, 2008.
Hon. George Miller, Chairman,
Committee on Education and Labor, House of Representatives, Washington, 
        DC.
    Dear Chairman Miller: On behalf of the National Education 
Association's (NEA) 3.2 million members, we would like to submit the 
following comments for the record in conjunction with the recent 
Workforce Protections Subcommittee Hearing: ``ICE Workplace Raids: 
Their Impact on U.S. Children, Families, and Communities.'' We thank 
the Subcommittee for holding a hearing on this important issue.
    NEA members have long been concerned about the impact of 
immigration raids on children and staff in public schools. We have been 
working closely with our affiliates and other groups to ensure that 
states and school districts adopt and vigorously enforce policies that 
protect the right of undocumented immigrant children and the children 
of undocumented immigrant parents to obtain a free public education in 
a safe and supportive environment.
    Recent enforcement efforts by the federal Immigration and Customs 
Enforcement agency (ICE) have resulted in the arrest, confinement, and 
deportation of many undocumented workers. Unfortunately, these raids 
have created challenges for the children left behind and the public 
schools they attend. For example:
    <bullet> The raids have resulted in a significant drop in school 
attendance. School administrators report that children of parents 
affected by the raids missed between one-third and one-half of the week 
following a raid.
    <bullet> Although attendance increases within two or three weeks, 
the initial absenteeism can have a long-term negative impact. A 
longitudinal study conducted by the Annie E. Casey Foundation indicates 
that school absence in kindergarten is associated with lower academic 
performance in first grade among all children, and more significantly 
for English Language Learners and poor children. The longer term 
relationship to academic performance depends upon income. Research 
indicates that chronic absence in kindergarten is associated with low 
fifth grade achievement for poor children but not their better-off 
peers.
    <bullet> Teachers and school officials report that some of the 
children displayed emotional trauma signs of distress upon their return 
to school particularly if their parents, relatives, or acquaintance 
were directly involved in the raid. In such instances, school personnel 
are reporting difficulty in maintaining the students' attention on 
class work.
    NEA members are working with parents and school administrators to 
develop systems to help ensure a safe place for children in the event 
of a raid. We are also working to identify and provide the additional 
academic and counseling services necessary to address the disruption 
the children are likely to experience.
    NEA supports the Families First Enforcement Act (H.R. 3980) 
introduced by Congresswoman Solis (D-CA). This legislation will ensure 
that ICE raids are humane and include protections for children. 
Specifically, the bill:
    <bullet> Requires ICE to afford access to state social service 
agencies to screen and interview detainees;
    <bullet> Ensures that when possible those who have been detained 
are within the jurisdiction of the local ICE field office; and
    <bullet> Addresses humanitarian needs of pregnant women, nursing 
mothers, caretakers of special needs children and sole caretakers of 
minor children.
    Companion legislation (S. 2074) has been introduced in the Senate 
by Senator Kerry (D-MA). Neither the House nor Senate Judiciary 
Committee has taken any action on these bills.
    We thank you again for holding a hearing on these very important 
issues. We look forward to continuing to work with you to ensure 
maximum protection for children impacted by ICE raids.
            Sincerely,
                                               Diane Shust,
                                       Manager of Federal Advocacy.
                                             Randall Moody,
                                  Director of Government Relations.
                                 ______
                                 
    [Additional submissions of Mr. Wilson follow:]

     U.S. Immigration and Customs Enforcement: FY07 Accomplishments

    U.S. Immigration and Customs Enforcement (ICE), the largest 
investigative agency in the Department of Homeland Security (DHS), has 
achieved extraordinary results in its mission to ensure a safer, more 
secure America. Fiscal year 2007 (FY07) marked a break-out year for the 
agency as ICE set new enforcement records and launched several new 
initiatives to better fulfill its law enforcement mission. As a result, 
ICE can point to an unparalleled record of success in the last fiscal 
year.
    The following is a selection of law enforcement and homeland 
security milestones ICE achieved in FY07.
Streamlining and Enhancing Immigration Enforcement
    <bullet> ICE implemented a comprehensive interior enforcement 
strategy focused on more efficiently processing apprehended illegal 
aliens and reducing the numbers of criminal and fugitive aliens in the 
United States. In FY07, ICE removed a record 276,912 illegal aliens, 
including voluntary removals, from the United States.
    <bullet> Under the Secure Border Initiative, ICE decreased 
processing time for aliens in expedited removal cases--from 
apprehension to removal--to approximately 19 days. This was 
accomplished by bringing greater efficiency to the immigration removal 
process through expanded detention capacity, greater use of expedited 
removal authority and increased use of the Justice Prisoner and Alien 
Transportation System (JPATS) for repatriating illegal aliens to their 
countries of origin.
    <bullet> For the first time, ICE's Detention Enforcement and 
Processing Offenders by Remote Technology (DEPORT) Center made it 
possible to identify and screen criminal aliens incarcerated in federal 
prisons nationwide to ensure they are processed for removal from the 
United States upon the completion of their sentences. Launched in 
fiscal year 2006, the DEPORT Center was screening criminal aliens at 
all 114 federal prison facilities by the end of FY07, with 11,292 
charging documents issued in FY07 to criminal aliens housed in federal 
prisons.
    <bullet> ICE's Criminal Alien Program, which screens aliens in 
prison to ensure that they are removed from the United States upon the 
completion of their sentences, initiated removal proceedings against 
164,296 criminal aliens.
    <bullet> ICE targeted the infrastructure that supports the business 
of illegal immigration, including document and immigration benefit 
fraud, launching six new Document and Benefit Fraud Task Forces in 
cities nationwide. In FY07, ICE initiated a total of 1,309 document and 
benefit fraud investigations leading to a record 1,531 arrests and 
1,178 convictions.
Targeting Fugitive Aliens
    <bullet> In the last two years, ICE quadrupled the number of 
Fugitive Operations Teams (FOTs): special teams dedicated to 
identifying, locating and arresting fugitive aliens.These teams have 
increased from 18 in FY05 to 50 in FY06 and 75 in FY07. As a result, 
ICE eliminated more than 100,000 fugitive alien cases in FY07 and 
reduced the backlog of fugitive cases for the first time in history.
    <bullet> ICE's Fugitive Operations Support Center (FOSC), a 
nationwide clearinghouse for information on fugitive cases, continued 
to make the processing of data on fugitive cases more effective. In 
FY07, the FOSC resolved more than 73,000 open fugitive cases, allowing 
ICE to target those fugitives who are still at large.
Strengthening Worksite Enforcement
    <bullet> ICE's more aggressive worksite enforcement strategy 
targeted the ``jobs magnet'' that attracts illegal aliens seeking 
employment in the U.S. In FY07, ICE dramatically increased penalties 
against employers whose hiring processes violate the law, securing 
fines and judgments of more than $30 million while making 863 criminal 
arrests and 4,077 administrative arrests.
    <bullet> The ICE Mutual Agreement between Government and Employers 
(IMAGE) program, announced in FY06 as a voluntary initiative to help 
employers ensure they are complying with hiring laws, welcomed nine 
charter members in FY07. For the future, ICE will be working to expand 
the program by recruiting business leaders from a wide range of 
industries that are typically susceptible to high levels of 
unauthorized employment.
Tracking and Arresting Visa Violators
    <bullet> ICE investigators worked to ensure compliance with the 
nation's immigration laws among student and exchange visitors and other 
non-immigrant visitors to the United States.Thanks to data obtained 
from the Student and Exchange Visitor Information System (SEVIS), the 
electronic system for managing student and exchange student visas, ICE 
arrested 1,558 high-risk non-immigrant status violators in FY07.
    <bullet> The SEVIS program continued to ensure integrity in the 
system for administering student and exchange student visas, with more 
than 917,647 non-immigrant students and visitors from nations around 
the world registered, along with 126,837 of their dependents.
Targeting Financial Crime and Export Violations
    <bullet> ICE investigated and dismantled the schemes that criminal 
and terrorist organizations use to earn, move and store illicit funding 
for their operations. In FY07, ICE launched 3,069 financial 
investigations, resulting in significant increases in arrests.
    <bullet> ICE's Cornerstone initiative developed working 
partnerships and information-sharing strategies with private industry 
to target exploitation of U.S. financial systems by criminal 
organizations. In FY07, Cornerstone liaisons conducted more than 1,250 
outreach presentations to over 20,500 industry representatives.
    <bullet> ICE's Shield America program continues to achieve new 
successes in intercepting illegal exports of weapons, military 
equipment and sensitive technology, significantly increasing results 
over the previous fiscal year. In FY07, ICE made 188 arrests and 
secured 127 convictions in these national security investigations.
    <bullet> ICE worked with international partners in law enforcement 
to target money laundering, bulk cash smuggling and cross-border trade 
fraud. In FY07, ICE Trade Transparency Units (TTUs) provided case 
support and coordination in transnational investigations and ICE agents 
provided training in combating cash smuggling schemes to more than 700 
international partners. A new TTU was established in Paraguay, the 
fourth South American nation to host an TTU.
    <bullet> ICE's Operation Firewall, targeting criminal organizations 
involved in bulk cash smuggling over international borders, led to the 
seizure of more than $49.5 million in U.S. currency and financial 
instruments along with 142 arrests. Since its launch in 2005, Operation 
Firewall has realized seizures of more than $100 million and 260 
arrests.
    <bullet> ICE's intellectual property rights investigations 
continued to combat the flow of counterfeit goods and products. In 
FY07, ICE made 235 arrests and secured 117 convictions in intellectual 
property rights fraud cases.
    <bullet> ICE targeted the flow of precious cultural and historical 
artifacts across international borders and repatriated seized artifacts 
to their countries of origin. In FY07, ICE launched 51 cultural 
property investigations and made 15 seizures of high-value items.
    <bullet> A new ICE initiative targeted unlicensed money services 
businesses that illegally transfer funds. In FY07, ICE investigations 
of yielded 39 arrests, 30 convictions and seizures of more than $7.9 
million.
Stemming the Flow of Illegal Drugs
    <bullet> ICE continued efforts to combat drug smuggling 
organizations, resulting in significant seizures in FY07. ICE 
investigations led to seizures of 241,967 pounds of cocaine, 4,331 
pounds of heroin, 2,731 pounds of methamphetamine and 1.3 million 
pounds of marijuana. Additionally, ICE drug investigations led to 8,920 
arrests and 5,539 convictions of individuals associated with narcotic 
violations.
    <bullet> ICE leads the ``Tunnel Task Force'' for investigations of 
cross-border tunnels used by criminal organizations to smuggle 
narcotics and other goods into the United States from Mexico. Since 
2003, 26 tunnels have been discovered in the San Diego area alone.
Combating Human Trafficking
    <bullet> ICE turned its combined legal authorities on the dangerous 
human traffickers who exploit the vulnerable, implementing a new 
Trafficking in Persons strategy in FY07 to emphasize investigation and 
prosecution of traffickers while providing services to assist 
trafficking victims. In FY07, ICE human trafficking investigations led 
to 164 arrests and 91 convictions.
Targeting Transnational Gangs and Sexual Predators
    <bullet> ICE's Operation Community Shield anti-gang initiative 
targeted violent transnational gangs, with results bolstered by an 
enforcement surge in the summer of 2007. In FY07, ICE arrested a record 
3,302 gang members and associates in cities nationwide.
    <bullet> ICE's Operation Predator targeted sexual predators who 
prey on children, and arrests in the four-year old program topped 
10,000 in June 2007, with more than 5,500 having been removed from the 
United States.
Securing Federal Facilities
    <bullet> ICE's Federal Protective Service (FPS) was given lead 
responsibility for securing government facilities under the National 
Infrastructure Protection Plan. In FY07, ICE launched a major mission 
refinement effort for FPS to focus on enhancing security at government 
facilities, with a greater emphasis on risk-based security planning.
    <bullet> ICE's FPS security and law enforcement officers -provided 
services at approximately 9,000 federal facilities nationwide. In FY07, 
ICE personnel were responsible for approximately 3,000 citations and 
arrests and intercepted roughly 760,000 prohibited items, including 
knives and firearms, from being brought into federal facilities.
Enhancing Intelligence Gathering and Analysis
    <bullet> ICE completed a reorganization of intelligence functions 
to better serve the agency's national security and immigration 
enforcement mission, including the establishment of an International 
Intelligence Unit to support foreign operations and a new National 
Initiatives Support Unit to consolidate intelligence services such as 
geospatial analysis, document exploitation and visual analysis.
Working with Law Enforcement Partners
    <bullet> ICE expanded its partnerships with state and local law 
enforcement agencies in a force multiplier approach to fighting 
criminal activity. In FY07, the ICE ACCESS program was launched as a 
collaborative effort to identify key crime-fighting needs and to 
develop solution action plans.
    <bullet> ICE expanded the 287(g) program used to train state and 
local officers in limited immigration enforcement duties. In FY07, ICE 
trained 426 state and local officers under the program, bringing the 
total to 597 officers trained in 33 departments nationwide.
    <bullet> ICE's Law Enforcement Support Center (LESC) continued to 
serve as the national point of contact for providing immigration status 
and identity information on suspects detained by federal, state and 
local officers in the field. In FY07, the LESC responded to a record 
728,243 requests for information from law enforcement officials.
    <bullet> ICE's Forensic Document Laboratory (FDL) continued to 
provide analysis and training to a wide variety of agencies in the 
effort to combat travel and identity document fraud. In FY07, FDL 
trained 3,810 federal, state and local officials in document analysis 
techniques and responded to 4,382 requests for analysis from the field.
    <bullet> ICE increased its commitment to securing the border by 
boosting the number of Border Enforcement Security Task Forces 
(BEST).These task forces seek to address cross-border violence through 
shared intelligence and coordinated law enforcement operations. In 
FY07, the task forces were responsible for 526 criminal arrests and 
1,093 administrative arrests, along with seizures of $2.5 million in 
cash and significant amounts of narcotics and weapons.
    <bullet> ICE launched the Web-based Electronic Travel Document 
(eTD) program that enables the electronic transfer of travel document 
and identity information between ICE and participating foreign 
governments. Since its launch in January 2007 over 27,710 travel 
documents have been issued, and both costs and time for issuance, 
transportation, shipping, and detention and removal have been reduced. 
The program is slated for expansion in fiscal year 2008.
Aggressive Litigation and Prosecution
    <bullet> ICE's team of attorneys provided legal support and 
training while representing the agency in administrative and federal 
courts. In FY07, ICE attorneys participated in the completion of 
365,851 cases before immigration courts, including 323,845 removal 
cases.
Improved Management and Mission Support
    <bullet> ICE continued to improve management and mission support 
functions. Among the achievements in these fields, the agency increased 
its workforce by more than 10 percent, enhanced information technology 
systems, expanded training and development opportunities, and improved 
contracting and acquisitions management.
    <bullet> ICE's improved financial management under a multiyear 
financial action plan launched in the previous fiscal year led to the 
agency receiving the DHS Award of Excellence in FY07 as ICE 
strengthened internal controls, auditability of financial records and 
oversight.
    <bullet> The ICE Freedom of Information Act (FOIA) Office, facing a 
significant backlog of FOIA requests, succeeded in reducing the backlog 
by 97 percent, earning praise from DHS leadership and demonstrating the 
agency's commitment to openness and transparency.
                                 ______
                                 

                      ICE Fact Sheets, March 2007

      Detention and Removal Operations: Alternatives to Detention

    Every year the Department of Homeland Security arrests over 1.6 
million aliens. Successful enforcement strategies and the requirement 
to manage within Immigration and Customs Enforcement's (ICE) 
operational budget have resulted in a situation where the Office of 
Detention and Removal (DRO) has exceeded its funded bed space level and 
therefore must apply rigorous criteria to determine which apprehended 
aliens are detained.
    National security and public safety are ICE's first priorities. ICE 
detains all aliens who pose a threat to community safety or national 
security, and those required to be detained under the nation's 
immigration laws. In order to address those priorities and restore 
integrity to the nation's immigration system, while managing its 
limited detention space, DRO utilizes alternatives to detention. Those 
alternatives include release on an Order of Recognizance (ROR), release 
on bond, release using electronic monitoring devices (EMD) and the 
Intensive Supervision Appearance Program (ISAP).
    In order to address those aliens who fail to appear in court or 
fail to depart under the court's order, ICE has created the National 
Fugitive Operations Program (NFOP). Designated NFOP Fugitive Operations 
Teams are strategically deployed around the country to work solely on 
arresting these immigration fugitives.
    <bullet> Release on an Order of Recognizance: An alien in 
immigration proceedings is released from detention under certain 
restrictions. These restrictions include regular reporting to DRO 
officers and appearing at all immigration court proceedings. ROR is 
usually used when an alien does not possess the financial resources to 
post a bond, but do not pose a threat to the community or national 
security. If the alien fails to appear for their hearing they will be 
ordered deported and will be subject to mandatory detention when 
apprehended.
    <bullet> An appearance bond: A more restrictive alternative than 
ROR, the alien posts a bond of not less than $1,500 dollars, which the 
alien forfeits if he or she fails to appear in court as required, or 
upon any other demand by ICE.
    <bullet> Electronic Monitoring Devices: A new program to ensure 
compliance with appearance at court and removal orders. Under this 
program aliens awaiting immigration court hearings or removal wear 
either a monitoring ankle bracelet or report by telephone to a case 
manager. Originally available only at specific pilot sites, the EMD 
program is now being implemented nationwide.
    <bullet> The Intensive Supervision Appearance Program: ISAP is a 
pilot program that will only be available to aliens who are not subject 
to mandatory detention; who are pending immigration court proceedings 
or awaiting removal from the United States; are residing within the 
managed area; and are not deemed a threat by the Department of Homeland 
Security. ISAP is a voluntary program and all participants must agree 
to comply with the conditions of their release. Case specialists are 
then assigned a limited caseload of participants and are responsible 
for monitoring those participants in the community by using tools such 
as electronic monitoring (bracelets), home visits, work visits and 
reporting by telephone. Case specialists will also assist participants 
in obtaining pro-bono counsel for their hearings and help them to 
receive other types of assistance to which they may be entitled. The 
ISAP pilot has the capacity to supervise approximately 200 aliens in 
each of nine cities: Baltimore, MD, Delray Beach, FL, Philadelphia, PA, 
Miami, FL, St. Paul, MN, Denver, CO, Kansas City, MO, San Francisco, 
CA, and Portland, OR.
                                 ______
                                 

         Frequently Asked Questions About Worksite Enforcement

    Why is worksite enforcement important?
    <bullet> Employment is a primary driving force behind illegal 
immigration. By working with employers to ensure a legal workforce, ICE 
is able to stem the tide of those who cross our borders illegally or 
unlawfully remain in our country to work.
    What's the harm of illegal aliens working in the U.S.?
    <bullet> Illegal aliens often turn to criminal activity: including 
document fraud, Social Security fraud or identify theft, in order to 
get jobs. Such crimes adversely affect the lives of U.S. citizens and 
legal immigrants, and it can take years for victims to repair the 
damage.
    <bullet> The demand for fraudulent documents created by illegal 
aliens creates thriving criminal enterprises that supply them.
    <bullet> Every job taken by an illegal alien is a job taken from a 
lawful U.S. worker.
    <bullet> Employers often exploit illegal aliens by ignoring worker 
safety and wage laws.
    <bullet> Illegal aliens are easy targets for criminals who want to 
use them to gain access to sensitive facilities or to move illegal 
products.
    How do businesses and communities suffer?
    <bullet> Responsible employers who seek to conduct their business 
lawfully are put at an unfair disadvantage as they try to compete with 
unscrupulous businesses. Such businesses gain a competitive edge by 
paying illegal alien workers low wages.
    How does ICE determine which employers to investigate?
    <bullet> ICE does not randomly target employers. All investigations 
and arrests are based on specific intelligence obtained from a variety 
of sources.
    Why aren't more employers arrested and charged?
    <bullet> In 2007, more than 90 individuals in company supervisory 
chains were criminally arrested for charges, including harboring 
illegal aliens, knowingly hiring them or other criminal violations tied 
to illegal immigration.
    <bullet> The presence of illegal aliens at a business does not 
necessarily mean the employer is responsible. Developing sufficient 
evidence against employers requires complex, white-collar crime 
investigations that can take years to bear fruit.
    <bullet> ICE builds worksite investigations in stages.
    For example:
    <bullet> After receiving information that illegal aliens may be 
employed at a specific location, agents investigate to determine the 
merits of that intelligence.
    <bullet> Once that intelligence is substantiated, ICE may conduct a 
worksite enforcement operation, arresting employees and collecting 
additional evidence such as computers and paperwork.
    <bullet> ICE investigators then comb through the data to determine 
whether a business owner or managers are knowingly hiring illegal 
aliens. In some cases investigators do not find such evidence.
    <bullet> After presenting evidence to federal prosecutors, ICE may 
be authorized to arrest managers or company owners for criminal 
violations.
    What types of industries does ICE target?
    <bullet> No industry, regardless of size, type or location is 
exempt from complying with the law.
    <bullet> ICE focuses on employers who are egregiously violating 
immigration laws, especially when those violations can compromise our 
nation's security.
    How successful has ICE been in its worksite enforcement efforts?
    <bullet> In fiscal year 2007, ICE secured more than $30 million in 
criminal fines, restitutions, and civil judgments in worksite 
enforcement cases. We arrested 863 people in criminal cases and made 
more than 4,000 administrative arrests. That is a tenfold increase over 
just five years before.
    <bullet> The number of criminal and administrative arrests has 
steadily increased over the past few years. Those arrested criminally 
include a variety of persons--corporate officers, employers, managers, 
contractors and facilitators. In criminal cases, ICE often pursues 
charges of harboring illegal aliens, money laundering and/or knowingly 
hiring illegal aliens. Harboring illegal aliens is a felony with a 
potential 10-year prison sentence. Money laundering is a felony with a 
potential 20-year prison sentence.
    <bullet> ICE has found these criminal sanctions to be a far greater 
deterrent to illegal employment schemes than administrative fines.
    <bullet> These arrests also include illegal aliens charged with 
criminal violations. Aliens have been charged with possession or sale 
of fraudulent documents, identity theft, Social Security fraud or re-
entry after deportation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fiscal Year 2008 accomplishments so far (October 2007--May 2008):
    <bullet> As of May, ICE made more than 850 criminal arrests tied to 
worksite enforcement investigations.
    <bullet> Of the 850 individuals criminally arrested, 75 are owners, 
managers, supervisors or human resources employees facing charges 
including harboring or knowingly hiring illegal aliens. The remaining 
775 workers criminally arrested are facing charges including aggravated 
identity theft and Social Security fraud.
    <bullet> ICE has also made more than 2,900 administrative arrests 
for immigration violations during worksite enforcement operations.
    What can employers do to help ensure they have a legal workforce?
    <bullet> The law is clear--employers have an affirmative obligation 
to verify that their employees are legally able to work in the United 
States.
    <bullet> ICE's goal is to help those companies that want to obey 
the law and use our investigative and regulatory authority to stop 
those companies that do not.
    <bullet> ICE seeks to create a culture of compliance by enlisting 
responsible employers of every size and description in partnerships 
designed to prevent the hiring of illegal aliens in the first place.
ICE's IMAGE Program Assists Employers
    <bullet> ICE unveiled the ICE Mutual Agreement between Government 
and Employers (IMAGE) program in July 2006. ICE recognizes that the 
majority of employers in this country want to comply with the nation's 
immigration laws. Yet, every day employers are confronted with illegal 
aliens attempting to secure jobs through fraudulent means, including 
the use of counterfeit documents and stolen identities.
    <bullet> IMAGE fosters partnerships between ICE and businesses, 
promoting the use of screening tools, best practices, and continuing 
education to determine employment eligibility based on immigration 
status.The program begins with a self-assessment of hiring practices 
and helps uncover vulnerabilities to illegal activity that are related 
to immigration status. Technical tools to screen Social Security 
numbers and other information on job applicants and existing employees 
are integrated with best practices to lead to a high level of assurance 
that all of a participating business's employees are legally eligible 
for employment.
                                 ______
                                 

                [From ICE Fact Sheets, December 4, 2007]

                    ICE Fugitive Operations Program

    U.S. Immigration and Customs Enforcement (ICE) established the 
first Fugitive Operations Teams in 2003 to dramatically expand the 
agency's efforts to locate, arrest, and remove fugitives from the 
United States. An ICE fugitive is defined as an alien who has failed to 
depart the United States based upon a final order of removal, 
deportation, or exclusion; or who has failed to report to a Detention 
and Removal Officer after receiving notice to do so.
    ICE's Fugitive Operations Teams give top priority to cases 
involving aliens who pose a threat to national security and community 
safety, including members of transnational street gangs, child sex 
offenders, and aliens with prior convictions for violent crimes. The 
Fugitive Operations Team officers and agents utilize intelligence-based 
information and leads to locate and arrest aliens who have been ordered 
to leave the country by an immigration judge, but have failed to 
comply.
    The National Fugitive Operations Program is responsible for 
reducing the fugitive alien population in the United States. ICE's 
databases show the targeted enforcement strategy is paying off. Earlier 
this year, the nation's fugitive alien population declined for the 
first time. As of October 1, 2007, ICE's fugitive case backlog 
consisted of less than 595,000 fugitive aliens which is approximately 
38,000 fewer fugitives than the population recorded on October 1, 2006.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Much of the credit for those results can be attributed to the rapid 
expansion of the program. When the initiative was launched in 2003, 
there were eight fugitive operations teams nationwide. ICE met its goal 
of deploying 75 teams by the end of this fiscal year; up from 52 teams 
at the end of FY 2006.
    The deployment of the new teams has resulted in a dramatic increase 
in overall arrests. As the accompanying chart shows, the number of 
arrests made by ICE Fugitive Operations Team officers and agents has 
nearly doubled in the past year, exceeding 30,000 for the first time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Last year, to further increase the efficiency of the Fugitive 
Operations Teams, ICE established the Fugitive Operations Support 
Center (FOSC) in Burlington, Vermont. The center aids with gathering 
and analyzing file information and electronic data on fugitive cases 
across the country. Since its inception, the center has disseminated 
more than 150,000 case leads to Fugitive Operations Teams in the field. 
This effort has also aided in reducing the reported number of existing 
fugitives by reconciling records to eliminate those who have left the 
country voluntarily, successfully adjusted their status, or were 
discovered to be incarcerated and therefore no longer fugitives. This 
accounts for the difference between the estimated decrease in fugitives 
and the number of reported fugitive arrests.
    ICE's National Fugitive Operations Program is just one facet of the 
Department of Homeland Security's overarching strategy to secure 
America's borders and reduce illegal migration. Given the success of 
the fugitive operations effort, ICE is proposing to add six more 
Fugitive Operations Teams in fiscal year 2008.
                                 ______
                                 
    [Questions for the record submitted by Mr. Hare and their 
responses follow:]
                                             U.S. Congress,
                                      Washington, DC, May 23, 2008.
Hon. James Spero, Acting Deputy Assistant Director,
Office of Investigations, Critical Infrastructure and Fraud, 
        Immigration and Customs Enforcement, Washington, DC.
    Dear Assistant Director Spero: Thank you for testifying at the 
Tuesday, May 20, 2008 Workforce Protections Subcommittee Hearing on 
``ICE Workplace Raids: Their Impact on U.S. Children, Families, and 
Communitites.''
    At last week's hearing, Congressman Hare wanted to follow up with 
these questions:
    1. There has been a longstanding policy, first established by the 
INS in the 1990s, that immigration agents should refrain from 
conducting enforcement actions in schools, places of worship, and 
during funerals and other religious ceremonies. In 2004 the Department 
of Homeland Security Customs and Border Protection (``CBP'') section 
reaffirmed the INS policy and issued a CBP memorandum expressly stating 
this reaffirmation. Does ICE follow this same INS policy?
    If so, has ICE issued written policy/guidance stating this? If ICE 
does not reaffirm the INS policy, please state what ICE's policy is 
with respect to conducting enforcement actions in schools, places of 
worship, and during funerals or other religious ceremonies. Does ICE 
recognize any specific places or specific situations where enforcement 
actions should be avoided?
    2. In the enforcement action at Agriprocessors in Postville, Iowa 
last week, ICE uncovered a number of underaged workers who were working 
at the plant. Did ICE know that the Department of Labor had an ongoing 
investigation into possible violations of labor laws including child 
labor prior to the Agriprocessor's raid?
    Were the ICE agents at the raid aware that the company had violated 
child labor laws by employing underage workers at dangerous jobs inside 
the plant? Was the DOL notified of the number of underaged workers you 
detained? If not, why weren't they notified?
    3. Do ICE agents get any training in terms of looking out for other 
possible employer or employee violations inside a plant aside from 
immigration violations?
    4. ICE has protocol that allows some workers to be released for 
humanitarian reasons. Are there other reasons for release like labor 
violations, trafficking or anything else?
    5. The ICE humanitarian protocols apply to worksite raids only. 
What humanitarian protocols do ICE agents follow when conducting home 
raids? Are all children encountered by ICE agents placed in foster 
care? Do social workers from child welfare or child protective services 
accompany ICE agents during home raids? If not, how does ICE determine 
which children should be placed in foster care? If the parent(s) 
identifies another caregiver for the child, what requirements does ICE 
follow before releasing the child to the substitute caregiver? Does ICE 
check the immigration status of the substitute caregiver?
    6. How does ICE ensure that appropriate agencies get involved to 
protect detainees who may have been victims of other crimes? What is 
done to ensure that detainees are not processed or deported at the 
expense of prosecuting other employer violations?
    7. What is ICE or the Department of Homeland Security doing to 
insure that witnesses to potential large crimes are staying in touch 
with investigators from the Department of Justice and Department of 
Labor?
    8. In terms of procedure, when and how is ICE notified that an 
investigation by another agency is occurring at a workplace or location 
where ICE plans to raid?
    9. Does ICE notify other agencies prior to a raid to determine if 
other investigations are occurring at a workplace or location? When 
does information sharing occur--before or after the raids occur? What 
precautions does ICE take to ensure that the ICE actions are not done 
at the expense of another investigation? Are the actions done in 
cooperation with other agencies/departments?
    10. Three hundred thirty nine (389) workers at the Postville plant 
have been arrested and are being held and charged with crimes but I 
have not seen anything about charges filed against the company. Could 
you tell me what charges have been filed against Agriprocessors--the 
company, its owners or management since the raid in Postville last 
week?
    11. At one time, there was a Memorandum of Understanding between 
DOL and what was then known as INS, to govern the working relationship 
between the agencies and to ensure that both immigration and labor laws 
were enforced. Is that MOU still in place?
    12. Since December 2006 how many U.S. citizen or permanent resident 
children have ICE agents apprehended while conducting enforcement 
operations?
    13. What plans does ICE have to develop one uniform set of policies 
and procedures regarding immigration enforcement operations as they 
pertain to children and families? What training do ICE agents receive, 
if any, on how to deal with children encountered during enforcement 
operations or left behind without a caregiver? How many hours of 
training do ICE agents receive on these topics? Who provides the 
training? Are child welfare or child protective services involved in 
training ICE agents?
    Please send your written response to the Committee staff by COB on 
Tuesday, June 3, 2008--the date on which the hearing record will close. 
If you have any questions, please contact the committee. Once again, we 
greatly appreciate your testimony at this hearing.
            Sincerely,
                                  Lynn Woolsey, Chairwoman,
                             Subcommittee on Workforce Protections.
                                   George Miller, Chairman,
                                  Committee on Education and Labor.
                                 ______
                                 

            Responses From Mr. Spero to Mr. Hare's Questions

    Question: On November 16, 2007, ICE issued discretionary guidelines 
for identifying potential humanitarian concerns when conducting large 
worksite enforcement operations that target 150 persons or more. In 
certain cases in which the Department of Health and Human Services is 
unable to assist ICE in conducting these ``humanitarian assessments,'' 
the guidelines suggest that ICE should coordinate with an appropriate 
state or local social service agency to conduct the ``humanitarian 
assessments.''
    Could you please identify any workplace raids that have taken place 
since the guidelines were announced in which ICE has used a state or 
local agency at the time of the arrest for ``humanitarian 
assessments.''
    Response: Since the release of the humanitarian guidelines in 2007, 
ICE is not aware of any instance when the Division of Immigration 
Health Services (DIHS) was unable to provide the requested support. 
Therefore, to date ICE has not used a state or local agency for 
``humanitarian assessments.'' DIHS has been very supportive and has 
been able to provide all the humanitarian and medical assistance and 
their subject matter expertise for all major worksite operations. If 
DIHS cannot perform the humanitarian screening, or it may be beneficial 
to supplement their efforts, ICE will seek assistance from state of 
local health and social service agencies.
    Question: If the procedures detailed in your humanitarian 
guidelines are sound practices, why should those procedures not also be 
used in workplace raids of less than 150 persons? What was ICE's 
justification for creating this 150 person threshold for the 
guidelines?
    Response: ICE developed written humanitarian guidelines to 
primarily assist agents and officers in preparing for large enforcement 
operations since these operations require a greater degree of 
coordination, however, ICE encourages that these guidelines be 
followed, as appropriate, for all worksite enforcement operations 
regardless of the number of expected arrests.
    Many of the items in the guidelines are best practices, and as 
such, ICE generally utilizes most if not all of these guidelines in all 
worksite operations. However, these are law enforcement actions, and 
ICE must reserve its discretion to determine when the entirety of 
guidelines is necessary for the successful implementation of an 
operational plan, or when some variation of the guidelines might be 
more appropriate, given the size or other particulars of an operation. 
Where practical, ICE will continue to implement these guidelines in all 
appropriate smaller enforcement operations.
    Question: There has been a longstanding policy, first established 
by the INS in the 1990s, that immigration agents should refrain from 
conducting enforcement actions in schools, places of worship, and 
during funerals and other religious ceremonies. In 2004 the Department 
of Homeland Security Customs and Border Protection (``CBP'') section 
reaffirmed the INS policy and issued a CBP memorandum expressly stating 
this reaffirmation. Does ICE follow this same INS policy?
    If so, has ICE issued written policy/guidance stating this? If ICE 
does not reaffirm the INS policy, please state what ICE's policy is 
with respect to conducting enforcement actions in schools, places of 
worship, and during funerals or other religious ceremonies. Does ICE 
recognize any specific places or specific situations where enforcement 
actions should be avoided?
    Response: Under previous Immigration and Naturalization Service 
(INS) Policy HQ 807-P, Enforcement Activities at Schools, Places of 
Worship, or at Funerals or Other Religious Ceremonies (May 17, 1993), 
law enforcement personnel were directed to ``attempt to avoid 
apprehension of persons and to tightly control investigative operations 
on the premises of schools, places of worship, funerals and other 
religious ceremonies.'' ICE's continued concern with conducting 
activities in sensitive locations is more recently reinforced in a 
December 26, 2007 Memorandum from Marcy M. Forman, Director, Office of 
Investigations, entitled Enforcement Actions at Schools. This field 
guidance expresses ICE views on these particularly sensitive actions:
    ``[I]t is important to emphasize that great care and forethought be 
applied before undertaking any investigative or enforcement type action 
at or near schools, other institutions of education, and venues 
generally where children and their families may be present.''
    Policies governing ICE Office of Detention and Removal (DRO) 
Fugitive Operations Teams have similarly discouraged enforcement 
actions in these sensitive locations.
    Assistant Secretary Myers issued a memo on July 3, 2008, reminding 
law enforcement personnel of these policies and that they should 
refrain from conducting enforcement actions or investigative activities 
at or near sensitive community locations such as schools, places of 
worship, and funerals or other religious ceremonies, except in limited 
situations that include terrorism investigations, matters of public 
safety, or non-enforcement related actions such as when requesting 
routine student information from school officials. Furthermore, the 
memo provides more generally that ICE policies are in place to ensure 
that enforcement operations are conducted in a manner that is safe and 
respectful of all individuals.
    Question: In the enforcement action at Agriprocessors in Postville, 
Iowa last week, ICE uncovered a number of underaged workers who were 
working at the plant. Did ICE know that the Department of Labor had an 
ongoing investigation into possible violations of labor laws including 
child labor prior to the Agriprocessor's raid?
    Were the ICE agents at the raid aware that the company had violated 
child labor laws by employing underage workers at dangerous jobs inside 
the plant? Was the DOL notified of the number of underaged workers you 
detained? If not, why weren't they notified?
    Response: Yes, ICE was aware that the DOL's Wage and Hour Division 
(WHD) was investigating Agriprocessors for alleged violations of child 
labor laws. Through the course of the investigation ICE was aware of 
possible labor violations, including possible minors who were employed 
at the facility. ICE coordinated its efforts with DOL's Office of 
Inspector General (OIG), a law enforcement agency within DOL with 
certain independent statutory authority to conduct investigations. DOL-
OIG agents were present at the Agriprocessors facility during the 
execution of a search warrant on May 12, and at the processing location 
in Waterloo, Iowa, where undocumented workers were processed and made 
their initial court appearances. Additionally, DOL-OIG agents were able 
to interview employees who were potential witnesses as the OIG deemed 
necessary or as directed by the USAO in relation to its concurrent 
investigation into labor-related criminal violations by the employer--
violations that are not under WHD's jurisdiction.
    After the enforcement action, the USAO and ICE provided WHD and the 
Office of the Solicitor of Labor with results of the operation as well 
as information related to the location of detention centers that were 
holding employees of Agriprocessors so that WHD could interview 
workers, including minors.
    ICE continues to work cooperatively with both DOL-OIG and WHD DOL 
and has confirmed that this enforcement action did not impede WHD's own 
investigation into labor standards at the plant.
    Question: Do ICE agents get any training in terms of looking out 
for other possible employer or employee violations inside a plant aside 
from immigration violations?
    Response: At the Federal Law Enforcement Training Center (FLETC) 
and throughout an agent's career, all ICE agents receive training that 
encompasses instruction in the enforcement of federal law, as well as 
general law enforcement procedures. Also, all ICE agents receive 
specialized training in customs and immigration law, and the associated 
ICE policies and procedures.
    During investigations across all ICE programmatic areas, ICE works 
with other law enforcement and regulatory partners to ensure that 
subject matter expertise is available to identify any potential 
violations of law. ICE agents are trained to be attuned to violations 
of laws other than those enforced by ICE and to seek out the assistance 
of other federal and state agencies, such as the Department of Labor, 
the Office of the Inspector General for the Social Security 
Administration, and the U.S. Department of Agriculture, or local state 
prosecutors which have the primary authority to enforce other laws.
    Question: ICE has protocol that allows some workers to be released 
for humanitarian reasons. Are there other reasons for release like 
labor violations, trafficking or anything else?
    Response: Determinations regarding release of an alien by ICE based 
on humanitarian concerns are made on a case by case basis. Whether a 
worker may be a victim of trafficking, or was subjected to labor 
violations are only two of many factors that are considered when 
deciding whether to release a worker for humanitarian reasons. When the 
violations are administrative in nature, ICE has more discretion in 
determining whether an individual will be released pursuant to an 
identified humanitarian reason.
    Furthermore, should an individual be arrested for criminal 
violations ICE no longer has sole discretion and must work with the 
U.S. Attorney's office and courts with regard to potential release and/
or bond issues.
    Question: The ICE humanitarian protocols apply to worksite raids 
only. What humanitarian protocols do ICE agents follow when conducting 
home raids? Are all children encountered by ICE agents placed in foster 
care? Do social workers from child welfare or child protective services 
accompany ICE agents during home raids? If not, how does ICE determine 
which children should be placed in foster care? If the parent(s) 
identifies another caregiver for the child, what requirements does ICE 
follow before releasing the child to the substitute caregiver? Does ICE 
check the immigration status of the substitute caregiver?
    Response: All juveniles are treated with dignity, respect, and 
special concern for their particular vulnerability. Therefore, before 
arresting any adult in the presence of a juvenile, an officer must take 
the time to learn a child's age, immigration status, and the 
relationship between adult and child. If a parent is not determined to 
be present, the parents' location and, if applicable, the name and 
address of a relative in the area are ascertained. The safety and well-
being of the juvenile is paramount.
    When possible, in all enforcement operations ICE officers ascertain 
whether juveniles will be present at a target location, and whether 
targeted aliens have juveniles in their care. This occurs during the 
initial investigation through surveillance, and research of available 
indices of the target alien. Social workers do not routinely accompany 
ICE's federal law enforcement officers during enforcement actions. 
However, in the event that juveniles are likely to be encountered at a 
particular residence, potential caregiver resources (such as family 
members, other care providers, community groups, and state and county 
entities) are identified, and a care plan for the juveniles will be 
developed before an arrest warrant is executed. To that end, ICE 
officers do not take custody of a known juvenile unless they are being 
processed for removal proceedings.
    It is conceivable that while performing their duties, ICE officers 
may encounter fugitive aliens who are the primary caregivers to minor 
children. In the event that ICE officers encounter a fugitive alien who 
is responsible for a juvenile and there is no other immediate relative 
available to assume custody of the child, they must, in the following 
order of preference, coordinate the transfer of the juvenile into the 
safekeeping of (1) the nearest child welfare authority; (2) local law 
enforcement; (3) if options (1) and (2) are inconsistent with 
operational requirements, they must carefully document the fugitive's 
request to transfer the juvenile into the safekeeping of a verifiable 
third party. Before transferring to a third-party however, ICE will:
    1. Document the inability of the welfare authority and local law 
enforcement to take timely custody of the minor;
    2. Document in writing the fugitive's request to release the 
juvenile to an identified third party (preference is for the request in 
the fugitive's own handwriting);
    3. Facilitate the fugitive alien's contact with the third party;
    4. Verify the identity of the third party through government issued 
identity cards prior to transferring the juvenile into the safekeeping 
thereof; and
    5. Forward copies of relevant documentation (inability of the 
welfare authority/local law enforcement to take timely custody of the 
juvenile) to the child welfare authority for further processing.
    The use of the first two options is strongly encouraged as child 
welfare authorities and local law enforcement are best suited for 
making determinations related to child custody, including any decision 
concerning placement in foster care.
    Question: How does ICE ensure that appropriate agencies get 
involved to protect detainees who may have been victims of other 
crimes? What is done to ensure that detainees are not processed or 
deported at the expense of prosecuting other employer violations?
    Response: ICE has consistently undertaken efforts to coordinate, as 
appropriate, with non-governmental organizations and federal, state and 
local agencies such as the Department of Justice, the Department of 
Labor (see answers to questions 4 and 11), Office of the Inspector 
General for the Social Security Administration, and the U.S. Department 
of Agriculture, when conducting enforcement operations. In particular, 
ICE employs specially trained victim/witness coordinators in ICE field 
offices to ensure victims are identified and receive the appropriate 
services. With respect to detained aliens, ICE also works with other 
law enforcement agencies to provide deferred action, parole, work 
authorization and other immigration-related relief to detainees who may 
be working with other agency investigations.
    As a matter of practice, if ICE is aware of an individual who may 
be a victim of other crimes, such as human trafficking, prior to or 
during an enforcement action, the ICE field office will coordinate with 
the local and/or headquarters victim/witness coordinator. After the 
enforcement action, ICE generally will inform WHD (and other relevant 
agencies) of the location of detainees. The ICE victim/witness 
coordinator will further ensure that ICE victim/witness procedures are 
followed and that the appropriate federal, state, local and/or non-
governmental organizations are notified.
    Question: What is ICE or the Department of Homeland Security doing 
to ensure that witnesses to potential large crimes are staying in touch 
with investigators from the Department of Justice and Department of 
Labor?
    Response: As noted in response to questions # 4, 8, and 11, ICE, as 
appropriate coordinates with the Office of the Inspector General for 
the Social Security Administration, the Department of Labor and the 
Department of Agriculture. We also coordinate closely with the 
Department of Justice on an ongoing basis. Typically, ICE does not 
monitor another agency's witnesses. However, ICE makes every attempt to 
cooperate with other agencies, when requested.
    Examples of such cooperation include: situations where ICE has 
detained a material witness in another agency's investigation, at the 
agency's request for the detained alien's release, ICE can offer 
alternatives to detention in order to allow the witness to cooperate in 
the investigation. Such alternatives may include an electronic 
monitoring device, appearance bond, or some form of supervised release. 
In addition, if the material witness has been ordered removed from the 
United States, the witness can be granted deferred action so that he/
she may remain in the country in order to cooperate with the other 
agency.
    Question: In terms of procedure, when and how is ICE notified that 
an investigation by another agency is occurring at a workplace or 
location where ICE plans to raid?
    Response: With respect to any federal criminal investigations, 
including worksite enforcement investigations, ICE coordinates at the 
earliest appropriate time with the Department of Justice's local United 
States Attorney's Office having jurisdiction over the case. United 
States Attorney's are charged with and are often in the best position 
to notify ICE of any other federal and on occasion, local agency 
investigative interests. This close coordination occurs on the local 
level and in some instances involving multi-jurisdictional or large-
scale enforcement operations takes place at the national level as well. 
I note, however, that the Department of Labor does not provide ICE 
information concerning employees' immigration status.
    Additionally ICE agents are routinely instructed to attempt to 
coordinate at the earliest possible time with other federal, state and 
local agencies prior to any enforcement action, including worksite 
enforcement operations.
    Question: Does ICE notify other agencies prior to a raid to 
determine if other investigations are occurring at a workplace or 
location? When does information sharing occur--before or after the 
raids occur? What precautions does ICE take to ensure that the ICE 
actions are not done at the expense of another investigation? Are the 
actions done in cooperation with other agencies/departments?
    Response: As stated above, ICE coordinates at the earliest 
appropriate time with the Department of Justice's local United States 
Attorney's Office having jurisdiction over the case. United States 
Attorney's are charged with and are often in the best position to 
notify ICE of any other federal and on occasion, local agency 
investigative interests. This close coordination occurs on the local 
level and in some instances involving multi-jurisdictional or large-
scale enforcement operations takes place at the national level as well
    In addition, the nature of worksite enforcement operations 
generally involve cooperation with other agencies. When conducting 
worksite enforcement operations, ICE coordinates these operations with 
affected external entities and other law enforcement partners within 
the local area of responsibility as appropriate. After the enforcement 
action, ICE generally will inform WHD (and other relevant agencies) of 
the location of detainees.
    Question: Three hundred thirty nine (389) workers at the Postville 
plant have been arrested and are being held and charged with crimes but 
I have not seen anything about charges filed against the company. Could 
you tell me what charges have been filed against Agriprocessors--the 
company, its owners or management since the raid in Postville last 
week?
    Response: As a result of the worksite enforcement operation on May 
12, 2008, ICE has arrested a total of six Agriprocessors Inc. managers/
supervisors. Of the six arrested all have pled guilty to one or more 
criminal violations which include 8 USC 1324, aiding and abetting and 
harboring aliens at a place of employment; 8 USC 1546, document fraud; 
8 USC 1324 (a)(3)(A) knowingly hiring ten or more undocumented aliens . 
Furthermore, there is currently an outstanding arrest warrant for a 
seventh manager/supervisor. ICE is unable to provide any additional 
information regarding these charges or any potential criminal charges 
against Agriprocessors Inc. as the matter continues to be under 
criminal investigation.
    Question: At one time, there was a Memorandum of Understanding 
between DOL and what was then known as INS, to govern the working 
relationship between the agencies and to ensure that both immigration 
and labor laws were enforced. Is that MOU still in place?
    Response: ICE honors the Memorandum of Understanding (MOU) between 
the former INS and the Department of Labor that is still in place. The 
November 23, 1998 Memorandum of Understanding (MOU) between the 
Department of Labor and the Immigration and Naturalization Service 
identifies four goals that ICE aggressively supports today: reducing 
the employment of unauthorized workers, reducing the economic incentive 
for the employment of unauthorized workers, avoiding the further 
victimization of unauthorized workers and promoting employment 
opportunities for legal authorized workers. ICE continues to fully 
implement this MOU in order to achieve its stated goals.
    ICE has revitalized its worksite enforcement program targeting 
egregious employers who knowingly hire undocumented workers. These 
workers are often more vulnerable to employer exploitation. When abuses 
are identified, ICE works with the Department of Labor to ensure that 
the rights of the victims are protected and that victims are afforded 
all the employment protections under the law.
    Question: Since December 2006 how many U.S. citizen or permanent 
resident children have ICE agents apprehended while conducting 
enforcement operations?
    Response: ICE is not aware of having administratively arrested U.S. 
citizen or lawful permanent resident (LPR) children during a worksite 
enforcement operation. When conducting enforcement operations, if ICE 
agents encounter a juvenile, the agents work diligently to determine 
the immigration status of the juvenile while also ensuring that the 
juvenile is released to the custody of a responsible adult family 
member or an appropriate social service agency. If your office is aware 
of any situation involving the arrest of a U.S. citizen or permanent 
resident child please provide ICE with the details and the matter will 
be thoroughly investigated.
    Question: What plans does ICE have to develop one uniform set of 
policies and procedures regarding immigration enforcement operations as 
they pertain to children and families?
    Response: As a law enforcement organization, ICE must reserve its 
discretion to determine when the entirety of a uniform guideline is 
necessary for a successful implementation of an operational plan, or 
when some variation of the uniform guideline might be more appropriate, 
given the size or other particulars of an operation. Therefore within 
each programmatic area ICE has guidelines and procedures in place that 
relate to specific enforcement operations. Each of ICE's enforcement 
operations is unique and requires proper and thorough vetting and 
coordination. Therefore the impact on children and families could be 
considerably different depending on the circumstances of each case and 
presently ICE does not intend to develop additional policies at this 
time.
    Question: What training do ICE agents receive, if any, on how to 
deal with children encountered during enforcement operations or left 
behind without a caregiver? How many hours of training do ICE agents 
receive on these topics? Who provides the training? Are child welfare 
or child protective services involved in training ICE agents?
    Response: Humanitarian concerns, including ensuring that minor 
children are not placed at risk are addressed during the pre-operation 
briefing. Additionally, ICE law enforcement personnel must complete 
basic and advanced training. ICE special agents complete 12 weeks of 
FLETC Criminal Investigator Training Program (CITP) and 12 weeks of ICE 
Special Agent Training. DRO officers complete 13 weeks of Basic 
Immigration Law Enforcement Training. The specific training outlined 
below enables our agents and officers to deal with children encountered 
during enforcement operations or when left behind without a caregiver.
    ICE agents receive approximately 2 hours of training regarding how 
to identify and process issues related to children while attending the 
FLETC Criminal Investigator Training Program (CITP). Moreover, all 
policies on how to handle children during a worksite enforcement 
operation are covered in an advance training worksite seminar. ICE 
training is provided by the Immigration and Customs Enforcement 
Academy, Detention and Removal Operations Division. In addition, ICE 
law enforcement personnel receive additional hours in the following 
courses:
    <bullet> Alien Processing (6 hours)
    <bullet> Consular Notification (1hour)
    <bullet> I-213 Preparation (5 hours)
    <bullet> Juvenile Processing (2 hours)
    Currently no child welfare or child protective service providers 
are involved in training ICE law enforcement personnel at FLETC, 
although DIHS will often participate in the pre-operation briefing. 
However, ICE routinely partners with state and local social services to 
ensure that no child is left without proper care during a worksite 
enforcement operation. This partnering allows for the full and 
comprehensive care of the families affected during our operations.
                                 ______
                                 
    Chairwoman Woolsey. Without objection, this hearing is 
adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
